<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]


 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2008 

                              ----------                              


                         THURSDAY, MAY 10, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:25 a.m., in room SD-106, Dirksen 
Senate Office Building, Hon. Patrick J. Leahy (chairman) 
presiding.
    Present: Senators Leahy, Landrieu, Gregg, Bennett, Bond, 
and Alexander.

                          DEPARTMENT OF STATE

                        Office of the Secretary

STATEMENT OF HON. CONDOLEEZZA RICE, SECRETARY

             OPENING STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. First I apologize to the Secretary and to 
others for the delay. As you could probably see, we had votes 
on, and Senator Gregg, Senator Bennett, and I were there.
    Madam Secretary, of course, it is good to have you here to 
discuss the administration's fiscal year 2008 budget. I have a 
lot to cover, and we are starting late.
    We've discussed this before. Whenever--wherever I go these 
days--and I travel various places outside of the country--not 
as much as you do--but I'm invariably asked, ``What does the 
United States do to repair the damage, as seen in many 
countries to our international reputation as a nation that has 
historically stood for the rule of law, including international 
peace, international law, defending the fundamental rights of 
people everywhere, regardless of race, religion, ethnicity, or 
nationality, something that makes us proud--all of us proud, as 
Americans, but which is not the view of so many of those 
countries that were united behind us the day after 9/11?'' When 
you see the policies of this administration, from Iraq to 
Guantanamo, we've turned strong allies into reluctant partners, 
friends into antagonists. According to surveys, many people, 
particularly in Muslim countries, now see America as a greater 
threat than the religious extremists. These are the people who 
have incited hatred and violence. I think this should alarm us, 
it should stir us to action. Those who hold these views, I 
believe, are horribly mistaken. But we're not doing enough to 
convince them otherwise. While some may argue that taking 
unpopular stands is a price of leadership, I reject that as a 
justification for the damage we've needlessly caused to a proud 
and principled reputation that took the founding of our Nation 
and a civil war and two world wars, and the lives of countless 
American patriots, to forge and fortify and defend.
    But where I go--and I look from the Pacific Rim to the 
Middle East, from Darfur to South America--our image, our 
influence, are waning sharply in the face of growing 
challenges. That concerns me greatly, as an American. I'm sure 
it does you. Once again, we've learned the painful lesson that 
military might is no substitute for effective policies that 
rally support and cooperation from the international community.
    Transformational diplomacy is a lofty slogan for what 
amounts to adding new positions at posts that have been 
understaffed for years. I welcome that. But, beyond that, I see 
little in this budget that offers confidence that the 
administration is prepared to devote the resources necessary to 
successfully exert America's influence in such a complex world.
    Senator Gregg and I will work together, as we have. We're 
not only neighbors across the Connecticut River, but we've 
worked very closely together in a bipartisan effort on so many 
of these foreign policy issues. We'll do our best to fund 
President Bush's request, and to incorporate the meritorious 
suggestions of Senators. But I'm afraid we're going to fall 
short of what this country is capable of, but, more 
importantly, what this country should do.
    Now, we want you to succeed. I can speak for every Senator 
here, Democratic or Republican. We want you to succeed in the 
time you have left, particularly in the Middle East, where so 
much is at stake. But much time has been wasted, goodwill has 
been squandered.
    I will go the Middle East in the next few weeks, and I'm 
going to be interested in what kind of a message we can bring 
them.
    The White House has not only favored a ``my way or the 
highway'' unilateralism in its dealings with the world, but, 
unfortunately, unlike past administrations, Democratic and 
Republican, it has often treated those members not of the 
President's party in Congress the same way. That was 
unnecessary, it was ineffective, and the American people and 
our national interests in the world have paid a high price for 
it.
    Now, we may have our disagreements, but you, Madam 
Secretary, and your staff, have always been accessible in 
wanting to discuss ways that we can work together. People would 
probably be surprised at the number of times you and I are on 
the telephone or meeting in person. I appreciate that. I hope 
we can do more in the months ahead. This is a critical time for 
the United States.
    Senator Gregg.

                OPENING STATEMENT OF SENATOR JUDD GREGG

    Senator Gregg. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    Thank you, Madam Secretary, for being with us today. You 
keep such a hectic schedule. I don't know how you do it, and we 
appreciate your taking the time to be here.
    I know the Senator didn't mean to imply this, but I think 
it's important for us to reinforce the fact that defending 
liberty and promoting liberty around the world is not a 
mistake, it's a purpose and a cause of our Nation, has been and 
always should be, that we, as a nation, understand that freedom 
is something that comes at a dear price, and we're willing to 
pay that price. Our efforts around the world have been to 
promote freedom and to give people who haven't had the 
opportunities that we have had as a Nation, maybe, the chance 
to see the light of freedom. Have we done it correctly at all 
times? No. But have we done it with good purposes? Absolutely 
yes. I would hope that we would always view our foreign policy 
in that nature.
    In addition, the chairman asked, and rightly asked, how we 
can create better relations around the world, because that 
should be one of our causes and our goals. I would say one of 
the best ways to do it is to have the Secretary of State we 
have. You do an exceptional job. I greatly admire your efforts. 
I think when you travel across the globe, as you do on a 
regular basis, you bring a face of America that is proud, 
intelligent, thoughtful, and respected, and, as a result, you, 
yourself, personify the great strengths of our Nation and 
present so well across the world that we're very lucky to have 
you serving us.
    So, I thank you for being here today, and I appreciate your 
service.
    Senator Leahy. Thank you.
    Secretary Rice, please go ahead. Of course, your full 
statement will be placed in the record, but I would like to 
have the time--your time is precious, and I'd like to have the 
time available for questions.
    Go ahead.

              SUMMMARY STATEMENT OF HON. CONDOLEEZZA RICE

    Secretary Rice. Thank you very much. Thank you, Mr. 
Chairman. Thank you, ranking member Gregg, members of the 
subcommittee.
    Mr. Chairman, I will place the full statement into the 
record so that we might have full time for exchange. I'll just 
start with a few comments.
    I appreciate, again, the opportunity to address this 
committee about the challenges and the opportunities that we 
face in the United States, and that the United States faces in 
the world today. I look forward to working with you, with 
Members of Congress from both sides of the aisle, so that we 
can ensure that America's diplomacy, and the courageous 
individuals who undertake it, have the necessary resources to 
protect our national security, to advance our democratic 
ideals, and to improve people's lives throughout the world.
    With these duties, we also reaffirm our responsibility to 
the American people, and that is a responsibility to be the 
best possible stewards of their hard-earned dollars.
    President Bush's fiscal year 2008 international affairs 
budget request for the Department of State, USAID, and other 
Foreign Affairs agencies totals $36.2 billion. In addition, the 
administration is requesting $3.3 billion in war supplemental 
funding in fiscal year 2008, $1.37 billion of that would be for 
foreign assistance, and $1.93 billion for State Department 
operations. It's principally to support emergency requirements 
in Iraq and Afghanistan.
    This request represents a fundamental investment in our 
national security----
    Senator Leahy. Madam Secretary?
    Secretary Rice. Yes?
    Senator Leahy. If you could withhold a moment.
    Secretary Rice. Yes.
    Senator Leahy. People who are in this room are here as 
guests of the Senate. Obviously, you have a right to express 
opinions, but when you stand up, in a way, you block others who 
have stood in line. A lot of people have stood in line for 
hours for these hearings. We want--they are televised, but we 
want people to be able to see the hearings. But when you stand 
up, you're blocking people behind you, and I think that's 
unnecessary. You can make your point. I realize there are 
people here who disagree with the war in Iraq, disagree, 
perhaps, with what's being said, but I would make it very clear 
I will not countenance, in any way, people being blocked from 
being able to watch this, nor will I countenance, in any way, 
disturbances. Just so we all understand.
    Secretary Rice, please continue.
    Secretary Rice. Thank you, Chairman.
    America remains engaged in a global war on terrorism, which 
is a war of a totally new and different kind. We face a long 
confrontation in which military strength is important, but not 
sufficient. The defining feature of our world today is its 
interdependence. The security of the American people depends on 
the stability and the success of foreign societies. If 
governments cannot, or choose not to, meet their 
responsibilities as sovereign states, nations around the globe 
are threatened by the resulting chaos and disorder.
    The President believes that the defense of our country 
depends on close integration of our multilateral diplomacy, our 
development efforts, and our support for human rights and 
democratic institutions. That is why President Bush's budget 
designates the Department of State as a national security 
agency. We must recognize that our Foreign Service, our civil 
service, and Foreign Service nationals are performing a vital 
national security role, often in difficult and dangerous posts, 
far away from friends and families, and, in many cases, 
shoulder to shoulder on the front lines with our men and women 
in uniform.
    We are asking our civilians to do far more than just manage 
an existing international order. We are charging them with 
helping foreign citizens and their governments to transform 
their countries, to move them toward peace and freedom, 
prosperity, and social justice.
    This is the national security mission of our Department of 
State which we've referred to as transformational diplomacy. To 
succeed in this critical work for the American people, we are 
making important changes to our Department's organizations, 
both in terms of roles--the roles our people are playing and 
how we are structuring our foreign assistance programs.

                           PREPARED STATEMENT

    We believe strongly that this is a challenging time for 
America, for our goals of promoting democracy, and for the 
resultant peace that it would bring. But I can tell you that I 
am very, very proud to lead the men and women of the Department 
of State. They are great patriots. They're doing hard jobs. I 
look forward to being before you to talk about the resources 
that they need to do their job well.
    Thank you very much.
    [The statement follows:]
                 Prepared Statement of Condoleezza Rice
    Mr. Chairman, ranking member Gregg, members of the subcommittee: 
Thank you for this chance once again to address the Committee about the 
many challenges and opportunities facing the United States today. I 
look forward to continue working with Congress, closely and across 
party lines, to ensure that America's diplomacy, and the courageous 
individuals who undertake it, have the necessary resources to protect 
our national security, advance our democratic ideals, and improve 
people's lives throughout the world. With these duties we also reaffirm 
our responsibility to the American people: to be the best possible 
stewards of their hard-earned dollars.
    President Bush's fiscal year 2008 International Affairs Budget 
request for the Department of State, USAID, and other foreign affairs 
agencies totals $36.2 billion. In addition, the Administration is 
requesting $3.3 billion in war supplemental funding in fiscal year 
2008--$1.37 billion for foreign assistance and $1.93 billion for State 
Department operations--to support emergency requirements in Iraq and 
Afghanistan.
    This request represents a fundamental investment in our national 
security. More than 5 years after the September 11 attacks, America 
remains engaged in a global war on terrorism, which is a war of a 
totally new and different kind. We face a long confrontation, in which 
military strength is important to our success, but is not sufficient. 
The defining feature of our world today is its interdependence. The 
security of the American people depends on the stability and the 
success of foreign societies. If governments cannot, or choose not, to 
meet their responsibilities as sovereign states, nations around the 
globe are threatened by the resulting chaos and disorder. The President 
believes that the defense of our country depends on the close 
integration of our multilateral diplomacy, our development efforts, and 
our support for human rights and democratic institutions. That is why 
President Bush's budget designates the State Department as a national 
security agency.
    We must recognize that our Foreign Service, our Civil Service, and 
our Foreign Service Nationals are performing a vital national security 
role--often in difficult and dangerous posts, far away from friends and 
families, and in many cases, shoulder to shoulder with our men and 
women in uniform. We are asking our civilians to do far more than just 
manage an existing international order; we are charging them with 
helping foreign citizens and their governments to transform their 
countries--to move them toward peace, freedom, prosperity, and social 
justice.
    This is the national security mission of our State Department 
today, which we have referred to as transformational diplomacy. To 
succeed in this critical work for the American people, we are making 
important changes to our department's organization--both in terms of 
the roles our people are playing and how we are structuring our foreign 
assistance programs. This is the foundation of our budget, and I would 
like to briefly review these important changes.
                   transforming the state department
    With the support of Congress, we are moving our people off the 
front lines of the last century, in the capitals of Europe and here in 
Washington, and into the critical posts of this new century--in Asia, 
in Africa, in the Middle East, and here in the Americas. Last year, we 
reprogrammed 200 positions for this purpose; we are set to reposition 
80 more. At the same time, we are moving our people out of our 
embassies and into the field, so they can engage and work not only with 
governments but with the people of the nations in which they serve. We 
are making every necessary change--giving our diplomatic corps better 
training, better tools and technology, and more language skills--to 
empower them to meet this challenge.
    We realize that resources are tight, so in all that we do, we seek 
to be good stewards of the taxpayers' money. Last year, I created the 
position of Director of United States Foreign Assistance. On Monday, 
the White House announced it has designated Henrietta Fore as Acting 
Administrator of USAID, with the intent to nominate. I also have named 
Undersecretary Fore as Acting Director of Foreign Assistance. Our goal 
is the strategic alignment of our foreign assistance and our foreign 
policy goals.
    The main idea that I want to stress is this: Our new approach to 
foreign assistance ensures an efficient, effective, and strategic use 
of the American taxpayer's money. We adopted a country-based approach 
to achieve this. We asked our experts at State and USAID to allocate 
foreign assistance resources to activities that help countries most 
effectively develop their institutions in order to take care of their 
people and reduce widespread poverty. The adjustments you may see in 
one program are justified by what we have determined are greater needs 
elsewhere, and only after the trade offs have been thoroughly analyzed, 
in order to make the best use of our limited resources.
    As a result of this process, resources for the three objectives 
supporting long-term development--Governing Justly and Democratically, 
Investing in People, and Economic Growth--have increased by 
approximately $100 million in this year's request from fiscal year 2006 
levels. You will note some differences, however, in the structure of 
the request. For example, there is a shift in resources from the 
Development Assistance (DA) account to the Economic Support Fund (ESF) 
account. This shift represents our attempt to better justify our 
request by rationalizing the use of these two different accounts for 
different types of countries. The increase in ESF and decrease in DA 
should not be interpreted as a decrease for activities to support the 
poor and invest in development.
    With the performance and accountability measures we are putting in 
place, we aim to ensure that we are providing the necessary tools and 
the right incentives for host governments to secure the conditions 
necessary for their citizens to reach their full potential. This 
furthers our goal of helping developing nations to ``graduate'' from 
our assistance, not to grow dependent on it.
                         empowering our people
    We are moving ahead on these initiatives with our existing 
authority. There are steps that need to be taken, and we are taking 
them. But we must do more, and to do it, we need additional resources. 
For this, we need the continued support of the Congress. That is why we 
are requesting $7.2 billion for State Department operations.
    As we transform our existing positions to serve new purposes, we 
must also create new positions that advance our strategic objective of 
getting more Americans onto the diplomatic frontlines of the 21st 
century. This year, we are requesting an increase of $125 million to 
create 254 new positions in critical spots like India, China, 
Indonesia, Venezuela, Nigeria, South Africa, and Lebanon. This funding 
will also enable us to establish new American Presence Posts, 
reflecting our goal of moving more of our diplomats into the regions 
and provinces of our host countries. This increase includes 57 
positions and $15 million for the Office of the Coordinator for 
Reconstruction and Stabilization. I should add here that I am grateful 
for the authority provided in the supplemental appropriation to 
transfer up to $50 million to create a Civilian Reserve Corps. These 
funds will allow us to develop a deployable cadre of civilians who will 
be able to respond quickly to a crises and stabilization missions 
overseas
    Our Department's new and evolving mission, which is vital to our 
national security, requires an increased investment in our people. Our 
people need the latest technology and the best training, in leadership 
and language skills. This budget meets those demands, including $905 
million for information technology. We must also continue to improve 
our security in a dangerous world. This budget allocates $965 million 
to strengthen security for our posts, our people, and our information 
systems worldwide, including the creation of 52 additional positions 
for security professionals.
    At the same time, we must continue to modernize and improve our 
facilities around the world. We seek $1.6 billion to address the major 
physical security and rehabilitation needs of our embassies and 
consulates worldwide so we can protect the men and women serving in our 
posts. In the fourth year of Capital Security Cost Sharing, other U.S. 
Government agencies with personnel abroad will contribute $362 million 
for the construction of new, secure diplomatic facilities.
    To continue filling the ranks of the Foreign Service with our 
Nation's best talent, we intend to revamp the pay scale for our 
diplomatic corps. State Department personnel are increasingly expected 
to serve in what we call ``hardship posts,'' which now comprise nearly 
20 percent of all department positions. We must fairly compensate our 
men and women serving abroad in difficult locations, often far away 
from their families, and we must rectify a growing disparity between 
basic salary levels for employees in the United States and overseas. 
Our budget request includes $35 million to begin a transition to a 
performance-based pay system and a global rate of pay.
    The State Department mission also extends to defending our borders 
and protecting our homeland. We must remain a welcoming nation for 
tourists, students, and businesspeople, while at the same time 
increasing our security against terrorists and criminals who would 
exploit our open society to do us harm. For this purpose, our budget 
includes $1.3 billion for the Border Security Program, and we seek to 
add 122 consular positions to address rising passport and visa demands. 
As good stewards of taxpayer dollars, we are using revenues from visa, 
passport surcharge, and visa fraud fees to fund improvements in our 
border security. In coordination with the Department of Homeland 
Security, we seek to fulfill the President's vision of secure borders 
and open doors.
    Finally, we are requesting $1.35 billion to meet our commitments to 
international organizations such as the United Nations. Over the past 
year we have seen how important it is for the United States to provide 
principled leadership in institutions of multilateral diplomacy. 
Through the United Nations, we helped to negotiate a key resolution 
that ended a month of war in Lebanon and Israel, which was launched by 
the leaders of Hezbollah. We rallied the international community to 
oppose Iran and North Korea's nuclear weapons ambitions with Chapter 7 
Security Council resolutions. And we worked to ease the suffering of 
the people of Darfur and to provide for a peacekeeping force there. 
International organizations are essential to our Nation's foreign 
policy goals, and deserve our continued support.
                  securing peace, supporting democracy
    I have discussed the steps we are taking to support our people. Let 
me turn now to the purposes of our foreign assistance.
    Our highest priority is to defend the American people and homeland 
by doing our part in the global war on terrorism. To succeed, we need 
the continued support of key partners--our historic allies in Europe, 
Asia, and the Americas, but also in key developing countries, which 
have the will, but not the means, to fight terrorism. The fiscal year 
2008 request includes $186 million for Indonesia, $2.4 billion for 
Israel, $544 million for Kenya, and $515 million for Jordan. Our 
assistance helps those countries, and many others, to enforce their 
laws, secure their borders, gather and share intelligence, and take 
action against terrorists on their own or with us. This request also 
devotes $785 million to Pakistan to lead that country in a moderate and 
modern direction, to gain control of the border areas, and to advance 
prosperity there. Specifically, this request includes $90 million to 
support President Musharraf's 5-year development plan for the federally 
administered tribal areas.
    Across the Broader Middle East, we also look to new partners in 
embattled young democracies, who are working courageously to turn the 
tide against violent extremism in their countries. In the past several 
years, the efforts of reformers and responsible leaders have changed 
the strategic context of the region. We have offered critical support 
for civil society groups seeking political openness, economic 
opportunity, education reform, and the empowerment of women. We will 
continue to support these important reform initiatives.
    Democratic institutions in places like Iraq, Afghanistan, Lebanon, 
and the Palestinian territories are facing serious threats. They are 
under siege from violent extremists and their state supporters in the 
region. The Taliban in Afghanistan, Hamas in the Palestinian 
territories, Hezbollah in Lebanon, violent extremists in Iraq--all of 
these groups struck damaging blows last year to the cause of peace and 
freedom in the Broader Middle East. This year we must turn the tide, 
and we aim to do just that with a comprehensive strategy to help 
reformers and responsible leaders show their people that democracy can 
deliver the security, prosperity, opportunity, and dignity that they 
seek.
    In Afghanistan, we support the efforts of the new democratic 
government in Kabul to lead the nation toward freedom and prosperity. 
To achieve that goal, we have taken a hard look at our overall policy 
and adopted an effective counterinsurgency strategy--a complete 
approach that integrates military efforts with political support, 
counter-narcotics programs, development priorities, and regional 
diplomacy. There is a comprehensive, ongoing ``offensive,'' which is 
being run by the Afghanistan Government.
    Our goal is to help the Afghan Government improve the quality of 
life for its people by extending security, providing good governance, 
and opening up new economic opportunities. Along with these goals, 
President Karzai has demonstrated his determination to lead a serious 
counter-narcotics effort, but he needs our assistance. We are 
increasing our funding in this key area, along with additional funding 
for reconstruction, local economic development, and law and order. The 
base budget request of $1.4 billion for fiscal year 2008 aims to 
stimulate economic growth, establish peace and security, create jobs, 
provide essential education and health care, promote human rights, 
especially women's rights, strengthen accountability and transparency, 
and extend the reach of the democratic state.
    To achieve these broad objectives, we will continue to build roads 
and electricity grids, and support agricultural development. Working 
through Provincial Reconstruction Teams, or PRTs, and in concert with 
the Afghan government, we will build government and justice centers at 
the provincial level. We will train government personnel, and we will 
help meet local needs for markets, schools, clinics, and other vital 
services. Most importantly, we will integrate all of these efforts to 
advance our overall strategic objective of empowering Afghanistan's 
democratic government.
    In Iraq, President Bush has adopted a strategy in recognition that 
the current level of sectarian violence is unacceptable. There is a 
strong military component to this strategy, but success in Iraq depends 
on more than military efforts alone. It requires robust political, 
economic, and diplomatic measures. Our military operations must be 
fully integrated with our civilian and diplomatic efforts to advance 
the strategy of ``clear, hold, and build.'' The State Department is 
playing its role in this mission. We are strengthening, indeed surging, 
our civilian efforts. To do so, we are requesting $1.4 billion in 
fiscal year 2008 in the base budget and the fiscal year 2008 
supplemental request to fund our assistance efforts in Iraq.
    The main focus of our support will continue to shift toward helping 
the Iraqi Government expand its reach, its relevance, and its resources 
beyond Baghdad. We will help local leaders improve their capacity to 
govern and deliver public services. Our economic efforts will be 
targeted to local needs, with proven strategies of success, like micro-
credit programs.
    Expanding our PRT presence will also enable us to diversify our 
assistance across Iraq. Iraq has a federal government. Much of the 
street-level authority, and much of the opportunity for positive change 
in Iraq, lies outside Baghdad, in local and provincial governments, 
with party leaders and tribal chiefs. By actively supporting these 
provincial groups and structures, we expand our chances of success in 
Iraq. Our PRTs have had success working at the local level in towns 
like Mosul, Tikrit, and Tal Afar. Now we will invest in other parts of 
Iraq, like Anbar province, where local leaders are showing their desire 
and building their capacity to confront violent extremists.
    In Lebanon, we are requesting approximately $60 million in fiscal 
year 2008 to complement what we requested in the fiscal year 2007 
Supplemental to support the Lebanese people's aspirations for peace, 
stability, and economic development. In November 2006, we signed a 
Trade and Investment Framework Agreement to help support Lebanon's 
development through enhanced bilateral economic ties. I made a 
significant pledge of $770 million in January at the Lebanon Donors' 
Conference, which raised $7.6 billion to support the Lebanese people 
and their democratically-elected government. Our assistance will 
support the Lebanese government's own ambitious reform program, which 
demonstrates its commitment to reducing its debt and achieving economic 
and financial stability. I continue to keep your concerns in mind 
regarding direct budget support and let me reassure you, the money 
supports the economic reform plan endorsed by the international 
financial institutions and benchmark goals supported by us.
    As we take steps in the reconstruction and development effort, we 
must not lose sight of the need to implement fully U.N. Security 
Council resolutions related to Lebanon, in particular Resolution 1701. 
We commend the Lebanese Government for deploying the Lebanese armed 
forces to the south of its country for the first time in almost 40 
years, and we applaud the international community for its successful 
deployment of the enhanced UNIFIL forces to help Lebanon secure its 
sovereignty. Much more work remains to be done, however, to ensure 
Lebanon's sovereignty is not undermined by regional actors like Syria 
and Iran and to address the threat of terrorist groups like Hezbollah. 
I look forward to continuing to work with the UN and our other 
international partners on further steps to implement Resolution 1701.
    In the Palestinian territories, President Abbas's desire to support 
a better life for his people and to make peace with Israel is being 
blocked by the radical leaders of Hamas. One year after this group's 
legitimate election, the international community continues to stand 
together in its insistence that Hamas meet the conditions set out by 
the Quartet: recognize Israel, renounce violence, and accept all 
previous agreements and obligations, including the Roadmap. Peace 
between Israel and the Palestinians will be possible only with a 
Palestinian government that recognizes Israel's right to exist and 
renounces terrorism. We will judge the Palestinian government by its 
words and by its actions.
    For fiscal year 2008, we are requesting $77 million to help meet 
Palestinian humanitarian needs, including emergency food, health and 
educational assistance, programs to strengthen democracy and good 
governance, and support private sector development in the West Bank and 
Gaza. These bilateral funds are in addition to the funds requested for 
the U.N. Relief and Works Agency for Palestine Refugees in the Near 
East (UNRWA). There is a battle in this region between moderates and 
extremists. These funds will not go to Hamas or any other terrorist 
organization, but will bolster moderate forces in the Palestinian 
territories.
    For Iran, the President has requested $109 million in funding, 
including $20 million for VOA's Persian service, $8.1 million for Radio 
Farda, $5.5 million for consular affairs, and $75 million in Economic 
Support Funds for civil society and human rights projects in Iran. 
These funds will allow us to continue with a wide range of democracy, 
educational, and cultural programs, as well as to improve the free-flow 
of information to the Iranian people. We must continue to make clear 
that while we differ fundamentally with the current government of Iran, 
and we seek friendship with the Iranian people.
    The hard work of democracy does not end with one free election; 
that is only the beginning. Lasting democratic reform must also 
encompass an independent media, free political parties, limits on state 
authority, and protections for human rights. We are funding programs in 
all of these fields of democratic reform. To support democratic 
transitions, the budget provides $1.4 billion for programs that foster 
rule of law and human rights, good governance, political competition 
and consensus-building and civil society.
    As we work to expand freedom and prosperity, we must champion these 
ideals through our public diplomacy and vital educational and cultural 
exchanges, for which we are requesting funding of $855 million. Public 
diplomacy is a vital component of our national security strategy. We 
seek to reach out to the peoples of the world in respect and 
partnership, to explain our policies and to express the power of our 
ideals--freedom and equality, prosperity and justice. Public diplomacy 
is no longer the job of our experts alone; it is the responsibility of 
every member of the State Department family, and we are mobilizing the 
private sector and the American people to help.
    People-to-people exchanges are also a vital component of our 
national security strategy. Many exchange participants report that they 
are ``forever changed'' by their direct involvement with the American 
people. Last year, the total number of student and exchange visas 
reached an all-time high of 591,000. We want to expand on this success, 
working in partnership with the private sector wherever we can.
    We seek $668 million for the Broadcasting Board of Governors, to 
support radio, television, and internet broadcasting worldwide, 
including in North Korea, Iran, and Cuba.
                       meeting global challenges
    We face a major challenge in the proliferation of weapons of mass 
destruction and the materials to produce them. The fiscal year 2008 
budget supports our key multilateral counter-proliferation activities--
including the Proliferation Security Initiative, the G-8 Global 
Partnership, the Global Initiative to Combat Nuclear Terror, and U.N. 
Security Council Resolution 1540. The budget also supports our efforts 
to strengthen the global non-proliferation regime, by rallying the 
international community to hold governments accountable for these 
actions which violate their responsibilities.
    As the President said in his State of the Union address, we are 
committed to addressing ``the serious challenge of global climate 
change.'' Our approach is rooted in pragmatism and partnership. One of 
our principal initiatives is the Asia-Pacific Partnership on Clean 
Development and Climate, which we launched in concert with Australia, 
South Korea, Japan, India, and China. Together, these countries 
represent more than half of the world's economy, a large share of the 
world's emissions, and a growing demand for energy that is vital to 
economic development. The Partnership, for which we request $30 million 
for fiscal year 2008, is accelerating investment and opening markets 
for cleaner, more efficient technologies, goods, and services, while 
fostering sustainable economic growth and poverty reduction.
    In Colombia, we are requesting $506.468 million in the fiscal year 
2008 budget to sustain our commitment to counter narcotics and demand 
reduction. During his visit to Bogata on March 11, President Bush 
reaffirmed to President Uribe the importance of helping Colombia finish 
the job. With Congress's bipartisan support, the United States has 
helped the Colombian people to protect their democracy from drug 
traffickers, restore security to large parts of the country, protect 
human rights, and begin a far reaching reform of its judicial system. 
The gains have been impressive. Colombia has come back from the brink 
to become a partner. We are confident that, with Congressional support 
for our fiscal year 2008 budget request and approval of the Colombia 
free trade agreement, these hard won gains will be just the beginning 
of Colombia's dramatic transformation.
    Critical challenges remain. President Uribe is addressing these 
issues aggressively and decisively, continuing the fight against drug 
traffickers, but also focusing on winning the peace through economic 
and social development, consolidation of democratic institutions, and 
respect for human rights. In response, we have designed an assistance 
strategy that will help President Uribe and the Colombian people 
achieve the security and prosperity they have worked so hard to make 
possible. We want to improve the lives of Colombians while reducing the 
impact of narco-terrorism on the United States and the region.
    I know that there are questions about the relative mix of ``hard'' 
and ``soft'' spending in our fiscal year 2008 budget request. We know 
that without security it is impossible to promote socioeconomic 
development. Our plan is to invest now in the Colombians' capabilities, 
as we gradually turn over responsibility for the counternarcotics 
programs to them. I also know that recent concerns of paramilitary ties 
to Colombian government and military figures are a serious matter. The 
Colombian Government's commitment to seeking the truth and insisting on 
justice deserves our support. I believe strongly that we need to 
recognize President Uribe's leadership and the extraordinary commitment 
of the Colombian people.
    We face another potentially deadly challenge in the threat of 
pandemic disease. The fiscal year 2008 budget request of $100 million 
supports our global strategy and partnership to address avian influenza 
outbreaks and to support prevention strategies worldwide.
    The fiscal year 2008 budget also advances the goals of the 
President's historic Emergency Plan for AIDS Relief. Thanks to the 
strong bipartisan support that this program has received from Congress, 
the Emergency Plan now supports treatment for more than 822,000 people 
in the 15 countries that are home to over half of the world's infected 
population. This year we are requesting a total of $5.4 billion for the 
Emergency Plan, including funds requested by the Department of Health 
and Human Services. This includes $4.1 billion for prevention, 
treatment, and care in the 15 focus countries. We are also seeking an 
additional $1.2 billion for bilateral programs in other countries, for 
HIV/AIDS research, for multilateral programs worldwide, and for 
tuberculosis programs.
    No less significant is President's Malaria Initiative, which has 
supported prevention and treatment for millions of people in fifteen 
African countries--Angola, Tanzania, Uganda, Malawi, Mozambique, 
Senegal, Rwanda, Benin, Ghana, Madagascar, Kenya, Zambia, Liberia, 
Mali, and Ethiopia. The fiscal year 2008 budget dedicates $300 million 
to fund our commitments under this Initiative, as well as $88 million 
for other ongoing global efforts to fight malaria.
    helping developing countries and the most vulnerable populations
    Global partnerships are essential to meeting the global challenges 
that I have just described. But many weak and poorly governed states do 
not have the capacity to fulfill their responsibilities as sovereign 
states. Our experience on September 11 showed us that weak and poorly 
governed states can pose not just humanitarian challenges, but national 
security threats. Hopelessness and oppression contribute to extremism 
and instability. Helping developing states to transform themselves--to 
govern justly, to advance economic freedom, to combat poverty, and to 
invest in their people--is a strategic imperative.
    The United States is a compassionate Nation, and we are moved to 
action when tragedy strikes, and when innocent people are in desperate 
need. The fiscal year 2008 budget provides more than $2 billion for the 
protection of refugees and for basic needs like food, water, and 
medicine for vulnerable populations. One of the major recipients is 
Sudan, for which we are requesting a total of $359 million for 
humanitarian assistance, as well as additional funding for Sudanese 
refugees in neighboring countries. We are continuing our support for 
victims of war and genocide, especially the internally displaced people 
in Darfur and the refugees in eastern Chad.
    We will continue to invest in the people of the world's poorest 
countries. Basic education is a critical part of this investment. The 
fiscal year 2008 request for resources to support basic education 
programs is $535 million.
    In addition to direct support for the world's most vulnerable 
populations, we seek to support the development of sound economies and 
political structures to raise people out of poverty. On this front, our 
flagship initiative is the Millennium Challenge Corporation (MCC). 
Since 2004, the MCC has signed development compacts with eleven 
countries, worth a total of $3 billion. MCC works with transforming 
countries that meet standards of progress for governing justly, 
advancing economic liberty, and investing in their people. The compacts 
are designed and managed by recipient countries themselves, reinforcing 
their ownership in the fight against poverty. These resources 
complement and amplify the impact of our investments in other foreign 
assistance accounts.
    For a country to unlock the potential of its people to increase 
productivity, create jobs, and combat poverty, it must integrate its 
economy into regional and global trade networks. The President remains 
committed to achieving a successful outcome to the World Trade 
Organization's Doha Development Agenda--one that opens markets, expand 
trade, and strengthens a rules-based system. As a part of the 
President's robust trade agenda, we have negotiated ten free trade 
agreements (FTAs) with 16 countries worldwide, and Congress has already 
approved agreements with 12 of these countries. We have signed FTAs 
with Colombia, Peru, Panama and South Korea. We look to Congress to 
support these important agreements.
    Mr. Chairman, members of the subcommittee: The State Department has 
assumed substantial new national security responsibilities in the war 
on terrorism. We are the lead agency on a majority of the tasks in the 
Administration's National Counterterrorism Strategy. Using our existing 
authorities, we are taking steps to reshape the State Department to 
play a forward-leaning role in advancing freedom and prosperity around 
the world.
    In this challenging time, the men and women of American diplomacy 
are doing all that we are asking of them--and more. They are nobly 
answering the call to service and shouldering their responsibilities. I 
ask you to provide the resources we need to play our part.

    Senator Leahy. Thank you, Madam Secretary.
    You and I have discussed the resignation of the 
administrator and director of foreign assistance of USAID, last 
week. Then, as you told me--and we chatted--that the 
President's going to nominate Henrietta Fore as USAID 
administrator. She'll also be designated as director of foreign 
assistance. I see these, really, as full-time jobs. Why would 
you combine--why would you combine these two positions? Before 
you answer, the reason I ask the question, Ambassador Tobias 
made a number of reforms, as he told us when he testified, but 
I'm having a hard time discerning their impact. I want to have 
more--better coordination on foreign assistance, but I've 
always felt--and I've said this with both Republican and 
Democratic administrations, USAID has to remain autonomous. So, 
why combine these two? Will they have control over their 
budget?
    Secretary Rice. Well, thank you, Senator.
    First of all, let me just note that I have great respect 
for USAID and its special mission, and for the men and women of 
USAID and the important job that they do out on the front 
lines. I think that--I hope that they would tell you that I've 
been very supportive of their mission and of their development. 
I do believe that, since about 80 percent of our foreign 
assistance--U.S. Government foreign assistance comes from 
Department of State and USAID budgets, that this is a time when 
we need to make certain that we have an integrated picture of 
what we are doing with those resources in order to promote 
certain goals, in order to make certain that programs are being 
well delivered. That's the reason for the dual-hatting of the 
director of foreign assistance.
    Senator Leahy. But does that mean that have control over 
their budget, or not?
    Secretary Rice. Well, in fact, it rests with me, 
ultimately. I am the one that has to represent to you, and 
through you to the American people, that the resources that are 
being given to USAID and to the Department of State are being 
well used. I am in a stronger position, with a director of 
foreign assistance who also is USAID administrator, to make 
certain that when a budget comes to me, which I then recommend 
to the President, which is then recommended to you, that we are 
using the resources well, that there is not duplication, that 
we are able to fill gaps where they may be, and that we are 
respecting both missions.
    Senator Leahy. But the reason I ask--I mean, we were 
somewhat disappointed in this committee--by ``we,'' I say a 
number of the Senators, both sides of the aisle, with 
Ambassador Tobias's testimony when he came here, trying to get 
any specificity about what was happening. I'm curious--I notice 
this seems to be getting down in the weeds, but there's USAID 
budget personnel shifted to the F Bureau at the State 
Department, the Office of Director of Foreign Assistance. Do 
they stay there, or do they go back to USAID? Is this----
    Secretary Rice. They are USAID, they are, in effect, 
secunded to the Department to work on budget matters. But I 
would ask you, Senator, to think about it from my point of 
view, as Secretary. I'm charged with the authorization to 
assure, really, that the resources are being used in an 
appropriate way. And----
    Senator Leahy. Well, no, I understand that. But you also--
when the director is there, they're carrying out that 
direction. As I said, we were--many of us were concerned when 
the former director was before us, there were a lot of glowing 
slogans, but every time we asked a question, specifics, we 
didn't get the answers. Now, he may have been distracted by 
other matters at the time, but it was a--it was a concern. I 
think you should tell the new director she should be prepared 
to come up here to, at the very least, brief Senator Gregg and 
myself on some of these specifics.
    Let me switch to a different area. Now, having said, over 
and over again, that we don't want to be seen as an occupying 
force in Iraq, we're building the largest embassy that we have, 
probably the largest in the world, in Baghdad. It just seems to 
grow and grow and grow. The 2007 supplemental, I'm noticing, it 
provides the funds for most of the expansion you propose for 
the Provincial Reconstruction Teams. We agree that we should 
focus our aid locally, not in Baghdad, but we have 1,000 
Americans at the Embassy in Baghdad. You have the contractors 
and local staff, that comes to 4,000.
    The 2000 supplemental required you to submit a plan for the 
U.S. mission in Iraq, for the growing size and costs. I--you 
know, we have a deviation from the plan that we'd agreed to. 
Staffing has increased by over 30 percent in just 2 years. We 
have the largest embassy in the world. We have countries where 
we do a great deal of trade and where we have to be concerned 
about intellectual property piracy, everything else, and we 
don't--we can't seem to get the staffing there. Can we review 
who we really need, and send the rest of the people home?
    Secretary Rice. Well, thank you, Senator. In fact, 
Ambassador Crocker, as you know, has just--virtually just 
arrived in Iraq, has been out there a little over a month, and 
he has asked, and we have sent, Ambassador Pat Kennedy to go 
out and to assess the staffing and housing requirements for the 
Baghdad Embassy compound. We do believe that the embassy 
compound was right-sized at the time that it was presented to 
Congress. There have been some additional issues since that 
time, including the extension of the special IG for Iraq. And 
we have to be able to deal with those people. We have a 
security situation in which we are not able to house people in 
hotels when they're visiting. We have a number of shorter-term 
TDY staff that are out at the embassy. And, in fact, we have, 
as you know, a kind of surge in the personnel to be able to 
deal with--to provide the diplomatic and political surge----
    Senator Leahy. No, I understand that, Madam Secretary, but 
I look at China. We have enormous trade issues with China. We 
have a country that is stealing us blind in ignoring our 
copyright laws and counterfeit--everything from counterfeit 
food and drugs to stealing our intellectual property, whether 
it's computer programs to movies to--and we're talking about 
billions of dollars, to say nothing about the health problems 
we've seen very recently, where people have died here, and in 
other countries, because of the fraudulent food additives and 
so on. But our Embassy in Baghdad is much larger than our 
Embassy in Beijing. What I'm saying is, if there are people we 
don't need, why don't we just send `em home?
    Secretary Rice. We are going to make that assessment, 
Senator. I agree with you that there may be--because of the way 
that the embassy came into being--in effect, coming on the 
heels of the Coalition Provisional Authority--because there 
have been a lot of needs that I would characterize as shorter-
term--meaning, not in the long-term steady state of how the 
embassy will be staffed. We're going to make exactly that 
assessment, and we will make certain that we have only the 
people out there that we would need.
    I would just note, Senator, that we are, in the case of 
China and a couple of other embassies where we believe that the 
needs have grown--we have, in fact, redeployed people out of 
places in Europe to China and places like that, where we 
believe that we need greater staffing. So, we're trying to 
remain flexible in making certain that we're well staffed in 
these extremely important posts.
    But I will definitely get a report back to you once 
Ambassador Kennedy has done his work.
    Senator Leahy. Can I--when I come back on my time--my time 
is up--I'm going to want to talk about the Western Hemisphere 
Travel Initiative. I--it would be nice if we allowed Canadians 
and Americans to travel back and forth across each other's 
borders. So, that's an issue we'll go into. Bothers me greatly 
what's being done.
    Senator Gregg.
    Senator Gregg. Thank you, Mr. Chairman.
    I want to echo the chairman's concerns about the size of 
the embassy also. Ironically, I chaired the subcommittee when 
the embassy decision was made, and I, at that time, had fairly 
serious concerns, and it was downscaled as a result of some of 
those concerns. But I remain skeptical of the need for this 
level. I understand that the security needs require that so 
much more be concentrated in the embassy than in most 
embassies, but, still, this is a huge facility, and it does 
have serious issues, I think, of right-sizing.
    But, on another subject, I recently had the chance to 
travel to South America, and I recently had the chance to meet 
with the President of Colombia. I would be interested in your 
assessment of the situation in South America, especially 
relative to Colombia and our relationship with Colombia and 
Venezuela, because it appears to me to be a region where we've 
got some friends and we've got some people who don't like us 
that much, and we should be with our friends.
    Secretary Rice. Well, thank you. In fact, the President, 
Senator Gregg, if you remember, was recently in Latin America, 
and visited Colombia during that time, visited Bogata. The fact 
that he was able to go to Bogata says something about how far 
Colombia has come in a relatively short period of time.
    We do have a challenge in Latin America. We have a 
challenge, because those who have been democratically elected 
are trying to deliver for their people, and trying to remain 
allies of the United States. There are those, like Venezuela, 
that would challenge just about everything about American 
interests and policy, including free markets, including 
nationalizing industry, and they're a real challenge to free 
markets, open economies, and to democracy in Latin America. It 
makes it even more important that states like Colombia, which 
are trying to do the right things, in terms of democracy and 
open economies and free trade, be supported by the United 
States.
    In the year that President Uribe came to power, I think 
it's fair to say that Colombia was on the brink of failure, on 
the brink of being a failed state. It was, after all, a country 
where large portions of the territory were uncontrolled by the 
government, where terrorists were able to prevent the police or 
the army from even coming into those areas, where bombings in 
Bogata, where security for the population was something that 
was very difficult, almost impossible, for the government to 
deliver. Through a very strong campaign against terrorism, 
President Uribe has begun to deliver some security to his 
people. I think it's why he was reelected by such large margin.
    They also are going after paramilitaries from the other 
side of the political spectrum. He ordered paramilitary leaders 
to surrender in August of 2006. Fifteen of the 24 top leaders 
did. They've been going after the others. Frankly, the 
independent judiciary and the supreme court has been bringing 
people to account for what has happened in Colombia over the 
last years.
    So, I think, while it is not by any means perfect, and we 
continue to have a dialogue with Colombia about the need for 
human rights protection, the need for labor protections, the 
need for continuing to prosecute the paramilitaries, this is 
really a case of a democratically-elected leader that has been 
able to bring his country back from the precipice of being a 
failed state. Just imagine what South America, with the 
challenge of someone like Hugo Chavez, would be without strong 
allies like Colombia in the Andean region.
    Senator Gregg. Thank you. It's represented by some that 
Chavez and the Venezuelan Government is basically protecting, 
or at least not extraditing, narcoterrorists back to Colombia, 
members of FARC. Is that the view of the State Department, that 
that's an accurate representation?
    Secretary Rice. There are cases that the Colombian 
Government has raised, I think, with the Venezuelans, 
concerning who may be continuing to live in, or operate in, 
Venezuela. We just hope that all of Colombia's neighbors will 
not harbor, in any fashion, people who ought to be brought to 
justice.
    Senator Gregg. On another subject, you recently had an 
opportunity to meet with representatives of Syria. As we look 
at the Middle East, obviously Syria has, for years, been a 
funder of terrorism and terrorist groups. There seems to be a 
mutation, however, of the terrorist cadre in that the more 
structured terrorists, such as Hamas and Hezbollah, now find 
themselves with the most distant groups, such as al Qaeda, that 
are not as orchestrated, potentially, or at least funded. And 
so, I'm interested in your view of where Syria now--what 
Syria's role now is in the area of funding, supporting, and 
promoting terrorism in the traditional struggle relative to 
Israel and in the struggle in Iraq.
    Secretary Rice. Syria continues to be a major funder of 
terrorism, major harborer of those elements of the Palestinian 
political elite, for instance, who are opposed to a two-state 
solution, who are the ones who continue to be--to perpetrate 
violence in the Palestinian territories, and to attempt to do 
it in Israel. So, in terms of Middle East peace, the Syrians 
are a real problem for leaders like Mahmoud Abbas, who want to 
take a different course toward a two-state solution.
    When it comes to Iraq, we are very concerned about the 
foreign fighters that are transiting the Syrian border, and 
are, therefore, doing great harm to innocent Iraqis and to our 
forces. That was the focus of the conversation that I had with 
the Syrian Foreign Minister. It was about Iraq. This was not a 
conversation about U.S./Syrian relations. This was about what 
Syria needs to do to stem the tide of those foreign fighters 
and to help the Iraqis to secure their borders.
    Then, finally, as to Lebanon--there, Syria and its allies 
continue, on a daily basis really, to threaten the stability of 
the democratically-elected government of Fouad Siniora, to 
resist the establishment of an international tribunal. Despite 
the fact that that tribunal is established by the United 
Nations, their allies continue to try to block the convening of 
that tribunal. Syria needs to allow that tribunal to go 
forward, because people need to answer for what happened to 
former Prime Minister Rafik Hariri, and we need to see who was 
behind it. So, Syria is a significant problem, not just for 
American policy in the Middle East, but for democratic forces 
that are trying to take hold in the Middle East. One point that 
I made to my Syrian counterpart is that we should talk about 
Iraq, and we should talk about what we can do to help the 
Iraqis, but U.S./Syrian relations would depend on a great deal 
more.
    Senator Gregg. I appreciate that. The logical follow-up 
question is, How should we engage Syria, and how does Israel 
view Syria?
    Secretary Rice. Well, I'll not try to speak for the 
Israelis, except to say that their statements are consistent in 
public and in private, with--what they say in public and what 
they've said to us in private. Obviously everyone would like to 
see peace between Israel and Syria. If it were possible, I 
think everybody would jump at the chance. But Syrian behavior 
is such that, particularly in the support that it gives to 
elements of Hamas that are preventing a two-state solution, 
it's not exhibited an attitude that suggests that it's ready 
for, or intending to try and pursue peace.
    As to how we deal with Syria, we had this--have had this 
limited discussion with them on Iraq, because we want all of 
Iraq's neighbors to help Iraq. It makes only good sense if the 
neighbors believe what they're saying, which is that a stable 
Iraq is in their interest, then they need to behave that way, 
and that was the message to Syria. But, beyond that, we've been 
very clear that there is nothing to be done that does not allow 
that tribunal to take place in Lebanon, and that does not stop 
support for the Palestinian organizations that are engaged in 
terrorism.
    Senator Gregg. Thank you.
    Senator Leahy. Thank you, Senator Gregg.
    Before I go to Senator Landrieu, I'd note Colombia has been 
in the top four or five of countries receiving foreign aid from 
the United States. I have been either chairman or ranking 
member during that whole time, both with President Uribe and 
his predecessor, and have voted for that. But, before we put 
too rosy a picture on it--and I'll come back to this later--
there are 30,000 individuals who went through the 
demobilization ceremonies. Only 2,700 of them applied for 
reduced sentences under the Justice and Peace Law. The rest 
have received government benefits without confessing their 
crime or turning over their illegal assets.
    The government's lost track of 5,000 of them. The 
Organization of American States say new illegal groups have 
been formed in 23 of Colombia's 32 departments. We've heard of 
the extensive paramilitary infiltration of Colombia's political 
system, including the president's former director of 
intelligence--that was uncovered by the supreme court, the 
inspector general, and, as you know, by some of our own people.
    Senator Landrieu.

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman.
    I have a full statement for the record I'd like to submit.
    Senator Leahy. Without objection, it will be included.
    Senator Landrieu. Thank you.
    [The statement follows:]
             Prepared Statement of Senator Mary L. Landrieu
    Mr. Chairman, Senator Gregg, on September 15, 2005, President Bush 
stated that ``This government will learn from the lessons of Hurricane 
Katrina. We are going to review every action and make necessary changes 
so that we are better prepared for any challenge of nature, or act of 
evil men, that could threaten our people.'' Unfortunately, time and 
time again, Madame Secretary, we are constantly reminded of how this 
administration has failed to take every action and failed to make the 
necessary changes so that we are better prepared for tomorrow's next 
Hurricane Katrina. The recent Category 5 tornado that ripped through 
Kansas this past weekend, and the recent report by the Washington Post 
on the mishandlings of foreign aid offered in response to Hurricanes 
Katrina and Rita, both tragically demonstrate my point.
    During Hurricane Katrina, the National Guard equipment and members 
were stretched too thin--and continue to be stretched too thin to this 
day. When Katrina hit the Gulf on August 29, 2005, the Louisiana 
National Guard only had roughly 40 percent of equipment on hand and 
more than half of our Guardsmen were deployed in support of the war in 
Iraq. Here we are one-year, 8 months and 13 days later (approximately 
620 days) and Kansas Governor Kathleen Sebelius is reporting that, 50 
percent of our her trucks are in Iraq and Afghanistan and she is 
missing numerous Humvees, which move people. Unfortunately, Governor 
Sebelius is unable to borrow the necessary equipment from other states, 
like Gulf States did during Katrina, as they are also operating under 
extreme equipment shortages.
    Due to the amount of equipment being left in Iraq and Afghanistan, 
16 percent of the Kansas National Guard's equipment will not return to 
Kansas. In fact, there is a chance the amount of equipment left 
overseas will double. Louisiana's National Guard is also experiencing 
the same war fatigue, with only 33 percent of necessary equipment 
currently on hand. If all was returned from Iraq and Afghanistan, it 
would still only increase on hand availability to 44 percent. While it 
may seem the recent tragedy in Kansas may be out of scope for the basis 
of this hearing, I assure you, Madame Secretary, it is not.
    Recently, the Washington Post reported on the administration's 
turning away of nearly $1 billion of foreign aid offered in response to 
Hurricanes Katrina and Rita and the devastating failure of the federal 
levee system that followed. I was already aware that the administration 
cast aside warnings and recommendations from its own experts, dragged 
its heels on response, and drove our long-term recovery straight into a 
morass of bureaucracy. Another curtain has been pulled back and exposed 
an additional example of the seemingly endless incompetence that has 
been the trademark of this Administration's response to the hurricanes 
and the devastating failure of the federal levee system. While the 
State Department has acknowledged that mistakes were made in the 
handling of foreign donations, due to an absent implementation plan for 
the management of foreign aid, no changes have been made to the 
International Cooperation Response Index to the National Response Plan. 
In addition, no significant permanent changes have yet to be made to 
the National Response Plan itself.
    Inadequate planning on how to manage foreign aid, more specifically 
material assistance, kept valuable resources from being accepted, 
allocated and distributed. One-hundred fifty-one nations, international 
organizations and political entities offered assistance, totaling $854 
million, not including material/in-kind assistance. Of the $854 
million, $454 million was cash; $400 million was oil, which was to be 
sold for cash. To date, only $126.4 million has been accepted, numerous 
material/in-kind donations were turned away, and the $400 million in 
oil was never accepted or sold.
    For example, on September 5, 2005 FEMA received an offer from 
Switzerland to send relief supplies. However, the offer was not fully 
vetted by FEMA until September 14, 2005. With the delay and FEMA not 
being able to quickly unload and repackage the supplies into smaller 
quantities in a timely matter, the Swiss government had to cancel the 
entire shipment. Not only were donating countries victims of an 
unresponsive and ill-prepared administration, they were also thwarted 
by bureaucratic red tape. During the height of rescue and relief 
missions, a German company offered a $3 million integrated satellite 
and cellular telephone system, which is capable of handling 5,000 calls 
at once. With virtually all communications systems down in the Gulf, 
this device could have potentially saved many lives had it been 
delivered earlier. For five days, the people of Louisiana and 
Mississippi were without this key system until a written deployment 
order was issued from USNORTHCOM.
    In the administration's February 2006 report, The Federal Response 
to Hurricane Katrina: Lessons Learned, a total of nine recommendations 
were made on how to improve the management of offers of foreign 
assistance and inquiries regarding affected foreign nationals. One of 
the requirements directs DOS to lead the revision of the International 
Coordination Support Annex to the National Response Plan, to clarify 
the responsibilities of DOS, DOD, DHS, and other agencies in response 
to domestic incidents. Other recommendations direct that prior to June 
1, 2006, DOS and DHS should lead interagency efforts to:
    1. Quickly develop procedures to review, reject or accept any 
offers of international assistance
    2. Create a list of anticipated needs for foreign assistance and a 
list of items that cannot be accepted, and
    3. Develop an interagency process to determine appropriate and 
timely uses of cash donations and how to communicate to donors on how 
funds were used.
    I hope that today we can get to the bottom of how this 
Administration could turn away an outstretched hand in a time of such 
desperate need. Madame Secretary, I would like an update from you by 
May 31, 2007. I want to know where DOS is on completing the nine 
recommendations, if they were done timely, and when final amendments 
may be made to the International Coordination Support Annex to the 
National Response Plan. I need to know what works and what does not. 
Louisiana and the Gulf Coast deserve better. America deserves better.
    In the fiscal year 2008 Budget, the President has requested $36.2 
billion in Department of State, USAID and other foreign agencies. This 
is a 22 percent increase from fiscal year 2007, and only 1.2 percent of 
our total annual budget. These funds are in addition to the $3.3 
billion requested for the fiscal year 2008 Emergency Supplemental for 
foreign assistance and State Department operations. While this budget 
request contains sufficient funding for many programs, such as Global 
AIDS and the Millennium Challenge Corporation (MCC), the global 
challenges facing us today are greater than ever.
    While we have made progress over the last few years in increasing 
the amount of foreign assistance funding, continued investment in 
international affairs programs are critical to building global 
stability. By increasing the International Affairs Budget, we have a 
better chance of achieving our national security goals and of promoting 
economic prosperity and our humanitarian values. Therefore it is 
critical that we continue to increase U.S. foreign assistance and pass 
a total budget of $38.5 billion for State and Foreign Operations and 
$1.3 billion in international agricultural assistance in fiscal year 
2008.
    In the many war torn and conflict areas, such as Afghanistan, Iraq, 
Uganda and many others around the globe, thousands of children continue 
to suffer. Every day 30,000 children under 5-years-old die from 
preventable diseases, 77 million children wake up without a chance to 
go to school, and 200 million go to bed without enough to eat. 
Unfortunately, the Budget only calls for $345.6 million in maternal, 
newborn and child survival programs--this is a decrease from last 
year's level.
    The Budget also calls for $535 million for basic education 
programs. While this is an increase over the current levels, it falls 
short of the real global need. By transferring the bulk of global 
education funding from Development Assistance account to the Economic 
Support Fund account, there is a possibility the number of countries 
receiving basic education assistance, particularly Africa and Latin 
America, could decline. Additionally, this change could impede lasting 
and transformational change in those regions. While I do appreciate and 
support the changes underway at USAID, I do believe we need to study, 
closely, the real impact of each change. Currently, 42 countries 
receive basic education from the DA account, 14 in Africa, 15 in Asia/
Near East, 5 in Europe/Eurasia and 8 in Latin America and the 
Caribbean, and we do not want to jeopardize, only improve, the 
education in these countries.
    According to Save the Children, nearly half of 6 year-olds in 
Uganda do not enroll in school. On average, 64 percent do not complete 
five years of school, and in Pader district, primary school completion 
is just 26 percent. Across Uganda more boys enroll than girls. Early 
marriage and pregnancy and fear for their lives, causes frequent drop 
outs or keeps them from attending all together. Only 45 percent of 
girls enroll in grade one, but only 32 percent complete primary school. 
Around 46 percent of teachers are untrained and class sizes can grow to 
over 200 children.
    It is vital that we recruit, train and deploy teachers in under-
resourced areas, including female teachers to help increase enrollment 
and completion among girls. By building community support for education 
and investing in the community, we are able to help reduce the amount 
of child from being abducted. More than 30,000 children have been taken 
from their homes and abducted by the LRA. These children often become 
soldiers or sex slaves. Currently, 6,000 to 10,000 children walk miles 
from their rural homes every night to sleep in town centers, in order 
to avoid violence and abduction. These children are known as ``night 
commuters''. Last year as many as 35,000 children would leave their 
homes every night.
    Much like Uganda, Afghanistan struggles to rebuild their community 
and to find a was to redevelop essential skills in the country. 
Although Taliban control ended in 2001, and despite reconstruction 
efforts, Afghanistan is deeply poor with chronic malnutrition, 
lawlessness and frequent violence against children. Girls are still 
excluded from many activities. Half of Afghan children between 7 and 12 
attend school, but only a third are girls. Attendance is often low, due 
to the inadequate school facilities for girls and the limited number of 
female teachers. Roughly 60 percent of girls aged 7 to 13 are out of 
school and in some rural areas around 92 percent of girls are out of 
school. Only 27 percent of teachers are females, but most are in urban 
areas, and fewer than 15 percent of teachers have a teaching degree. 
Clearly you can see from these startling statistics, Madame Secretary, 
that it is very important that ensure our education funding is not 
jeopardized, but improved in a way that allows the number of countries 
and the amounts received to grow.
    As I stated above, in Afghanistan and Iraq children continue to be 
victims of: poor health care, limited and inaccessible education 
systems, and innocents of the ongoing wars. In Uganda children are 
forced to be child soldiers and young girls into becoming ``wives''. 
Madame Secretary, this is unacceptable. I know these problems cannot be 
solved overnight and not by diplomatic measures alone, which is why we 
must continue providing these countries with adequate aid assistance 
and improve intercountry adoption policies around the globe.
    As the Democratic Chair of the Congressional Coalition on Adoption 
and a proud adoptive parent myself, I truly understand the benefits and 
joys adoption brings to a family and the children being adopted. 
Although, over 20,000 children are adopted every year internationally 
by U.S. citizens, improvements can and must be made to intercountry 
adoption policies around the globe. For example, adoption by foreign 
citizens remains close in Romania and Cambodia to this day. Russia, 
although open for adoption by foreign citizens, passed an NGO law in 
May, which requires U.S. based adoption service providers be both 
registered and accredited by the Ministry of Education (MOE). Unless an 
agency complies with both they are unable to assist in any way in 
placing children. As of the end of April, no U.S. agencies had been 
successfully accredited by the MOE. Madame Secretary, all children, 
regardless of race, ethnicity, gender or disability, deserve a 
permanent and loving home. We can do better at providing these children 
with loving homes, better health care and education, and the basic 
right to food.
    Mr. Chairman, I look forward to hearing the testimony from 
Secretary Rice today and hope that she is ready to honestly and openly 
answer any questions this committee may ask.
    Thank you, Mr. Chairman.

    Senator Landrieu. Madam Secretary, be assured the people of 
Louisiana and Mississippi and the gulf coast understand the 
focus of yours and the administration on Iraq, Afghanistan, and 
other places in the world, where it's important to focus, 
because they are great challenges. But there was an incident 
that occurred in this country that was of international focus 
and importance over 18 months ago, and that was when two storms 
battered the gulf coast, which is America's energy coast, and 
the Federal levee system collapsed, flooding an area seven 
times the size of Manhattan, destroying 250,000 homes and 
20,000 businesses. Nothing like it has ever been seen in the 
United States outside of the Civil War.
    Last week, the Washington Post reported that the 
administration turned away nearly $1 billion in foreign aid. 
The State Department has acknowledged that mistakes were made 
in the handling of foreign donations due to the absence of an 
implementation plan for the management of such aid. To date, it 
is my understanding that no changes have been made to the 
International Cooperation Response Index or to the National 
Response Plan.
    In addition, no significant permanent changes have yet been 
made to the National Response Plan itself. One hundred and 
fifty-one nations, international organizations, and political 
entities offered assistance totaling $854 million, not 
including material in kind. Of the $854 million, $454 million 
was cash, $400 million was oil, which has yet to be sold for 
cash. To date, only $126.4 million has been received, numerous 
materials in kind were turned away, and $400 million in oil, as 
I said, was never accepted or sold, we don't know where those 
barrels of oil are.
    On September 5, for example, because I'm going to get to my 
question in a minute, an offer from Switzerland to send relief 
supplies was sent. The offer was not fully vetted by FEMA until 
September 14. With the delay in FEMA not being able to act 
quickly to unload and repackage the supplies, the Swiss 
Government canceled their entire shipment.
    Another example--and there are dozens; I will submit them 
for the record--a German company offered 3 million integrated 
satellite and cellular telephone systems, which is capable of 
handling 5,000 calls at once. With virtually every 
communication system collapsed in the Gulf of Mexico, where our 
own military was reduced to runners, the way we used to use 
them in wars of the past, we turned this communication 
equipment away until USNORTHCOM demanded that they be received.
    I want to, Mr. Chairman, get to my question, which is--in 
just one second. But, for the record, this was reported by the 
Washington Post, and it is upsetting that, in the first 
paragraph, a memo from Karen Hughes says, ``Echo chamber 
message,'' in quote. That is a public-relation term, as 
according to the Washington Post, for talking points designed 
to be repeated again and again. This was the directive, 
``Assure the scores of countries that have pledged or donated 
aid that their aid was,'' quote, `practical help and moral 
support,' and highlight the concrete benefits hurricane victims 
are receiving.''
    Madam Secretary, the people that I represent were not able 
to take advantage of this aid, because there obviously is some 
major problems with how we receive aid for them when they're in 
their most desperate hours of need. I don't know what we have 
done to correct it.
    [The information follows:]

             [The Washington Post, Sunday, April 29, 2007]

                       correction to this article
    An April 30 Page One article on foreign aid after Hurricane Katrina 
incorrectly said that a consortium led by the United Methodist 
Committee on Relief had provided social services to 45,000 individual 
disaster victims up to that point, less than half the 100,000 victims 
it promised to help. The group has provided services to 49,709 
families, not individuals, short of its goal of 100,000 families.
             Most Katrina Aid From Overseas Went Unclaimed

  (By John Solomon and Spencer S. Hsu, Washington Post Staff Writers)

    As the winds and water of Hurricane Katrina were receding, 
presidential confidante Karen Hughes sent a cable from her State. 
Department office to U.S. ambassadors worldwide.
    Titled ``Echo-Chamber Message''--a public relations term for 
talking points designed to be repeated again and again--the Sept. 7, 
2005, directive was unmistakable: Assure the scores of countries that 
had pledged or donated aid at the height of the disaster that their 
largesse had provided Americans ``practical help and moral support'' 
and ``highlight the concrete benefits hurricane victims are 
receiving.''
    Many of the U.S. diplomats who received the message, however, were 
beginning to witness a more embarrassing reality. They knew the U.S. 
Government was turning down many allies' offers of manpower, supplies 
and expertise worth untold millions of dollars. Eventually the United 
States also would fail to collect most of the unprecedented outpouring 
of international cash assistance for Katrina's victims.
    Allies offered $854 million in cash and in oil that was to be sold 
for cash. But only $40 million has been used so far for disaster 
victims or reconstruction, according to U.S. officials and contractors. 
Most of the aid went uncollected, including $400 million worth of oil. 
Some offers were withdrawn or redirected to private groups such as the 
Red Cross. The rest has been delayed by red tape and bureaucratic 
limits on how it can he spent.
    In addition, valuable supplies and services--such as cellphone 
systems, medicine and cruise ships--were delayed or declined because 
the government could not handle them. In some cases, supplies were 
wasted.
    The struggle to apply foreign aid in the aftermath of the 
hurricane, which has cost U.S. taxpayers more than $125 billion so far, 
is another reminder of the Federal Government's difficulty leading the 
recovery. Reports of Government waste and delays or denials of 
assistance have surfaced repeatedly since hurricanes Katrina and Rita 
struck in 2005.
    Administration officials acknowledged in February 2006 that they 
were ill prepared to coordinate and distribute foreign aid and that 
only about half the $126 million received had been put to use. Now, 20 
months after Katrina, newly released documents and interviews make 
clear the magnitude of the troubles.
    More than 10,000 pages of cables, telegraphs and e-mails from U.S. 
diplomats around the globe--released piecemeal since last fall under 
the Freedom of Information Act--provide a fuller account of problems 
that, at times, mystified generous allies and left U.S. representatives 
at a loss for an explanation. The documents were obtained by Citizens 
for Responsibility and Ethics in Washington, a public interest group, 
which provided them to The Washington Post.
    In one exchange, State Department officials anguished over whether 
to tell Italy that its shipments of medicine, gauze and other medical 
supplies spoiled in the elements for weeks after Katrina's landfall on 
Aug. 29, 2005, and were destroyed. ``Tell them we blew it,'' one 
disgusted official wrote. But she hedged: ``The flip side is just to 
dispose of it and not come clean. I could be persuaded.''
    In another instance, the Department of Homeland Security accepted 
an offer from Greece on Sept. 3, 2005, to dispatch two cruise ships 
that could be used free as hotels or hospitals for displaced residents. 
The deal was rescinded Sept. 15 after it became clear a ship would not 
arrive before Oct. 10. The U.S. eventually paid $249 million to use 
Carnival Cruise Lines vessels.
    And while television sets worldwide showed images of New Orleans 
residents begging to be rescued from rooftops as floodwaters rose, U.S. 
officials turned down countless offers of allied troops and search-and-
rescue teams. The most common responses: ``sent letter of thanks'' and 
``will keep offer on hand,'' the new documents show.
    Overall, the United States declined 54 of 77 recorded aid offers 
from three of its staunchest allies: Canada, Britain and Israel, 
according to a 40-page State Department table of the offers that had 
been received as of January 2006. ``There is a lack of accountability 
in where the money comes in and where it goes,'' said Melanie Sloan, 
executive director of the public interest group, which called for an 
investigation into the fate of foreign aid offers. She added: ``It's 
clear that they're trying to hide their ineptitude, incompetence and 
malfeasance.''
    In a statement, State Department spokesman Tom Casey said that the 
U.S. Government sincerely appreciated support from around the world and 
that Katrina had proved to be ``a unique event in many ways.''
    ``As we continue our planning for the future, we will draw on the 
lessons learned from this experience to ensure that we make the best 
use of any possible foreign assistance that might be offered,'' Casey 
said.
    Representatives of foreign countries declined to criticize the U.S. 
response to their aid offers, though some redirected their gifts.
    Of $454 million in cash that was pledged by more than 150 countries 
and foreign organizations, only $126 million from 40 donors was 
actually received. The biggest gifts were from the United Arab 
Emirates, $100 million; China and Bahrain, $5 million each; South 
Korea, $3.8 million; and Taiwan, $2 million.
    Bader Bin Saeed, spokesman for the Emirates Embassy in Washington, 
said that in future disasters, ``the UAE would not hesitate to help 
other countries, whether the United States or any other state, in 
humanitarian efforts.''
    Kuwait, which made the largest offer, pledged $100 million in cash 
and $400 million in oil. But the Kuwaitis eventually gave their money 
to two private groups: $25 million to the Bush-Clinton Katrina Fund, a 
project of the former presidents, and another $25 million to the 
American Red Cross in February 2006. They still plan to contribute 
another $50 million, said the Kuwaiti ambassador to the United States, 
Salem Abdullah al-Jaber al-Sabah.
    ``It was based on my government's assessment of the fastest way to 
get money to the people that needed it,'' he said. ``The Red Cross was 
on the ground and action-oriented.''
    In the White House's February 2006 Katrina report, U.S. officials 
said Kuwait's $400 million oil donation was to be sold for cash. Sabah 
said it was an in-kind pledge made when it appeared that U.S. refining 
capacity was devastated and that the American public would need fuel.
    ``We have to see what we have to do with that. When you pledge 
something in-kind, your intention is to give it in-kind. I do not think 
now the American people arc in need of $400 million of fuel and fuel 
products,'' he said.
    Of the $126 million in cash that has been received, most has not 
yet been used. More than $60 million was set aside in March 2006 to 
rebuild schools, colleges and universities, but so far, only $10.4 
million has been taken by schools.
    Half the $60 million was awarded last fall to 14 Louisiana and 
Mississippi colleges, but five have not started to claim the money. 
Only Dillard University in Louisiana and Mississippi Gulf Coast 
Community College have tapped their full awards, worth $6 million, U.S. 
Education Department officials said Friday.
    Another $30 million was sent to Orleans, St. Bernard and 
Plaquemines parishes in Louisiana and to the state-run Recovery School 
District in New Orleans to build libraries, laboratories and other 
facilities for 130 public schools.
    But none of that money has been used yet, said Meg Casper, 
spokeswoman for the Louisiana Department of Education. Allocations were 
just approved by the state board last week, she said, ``so the money 
should start to flow.''
    The first concrete program officials announced in October 2005--a 
$66 million contract to a consortium of 10 faith-based and charity 
groups to provide social services to displaced families--so far has 
assisted less than half the 100,000 victims it promised to help, the 
project director said.
    The group, led by the United Methodist Committee on Relief, has 
spent $30 million of the money it was given to aid about 45,000 
evacuees. Senate investigators are questioning some terms in the 
contract proposal, including a provision to pay consultants for 450 
days to train volunteers for the work the committee was paid to do.
    Jim Cox, the program director, said that the project is ``right on 
track'' but that its strategy of relying on volunteers foundered 
because of burnout and high turnover. He acknowledged that more people 
need help than are receiving it and said the program will be extended 
to March to use available funds.
    ``The resources aren't there, but these resources certainly are 
coming,'' Cox said.

    Senator Landrieu. But I also want to put in the record an 
e-mail that was received when the request was made for--an 
open-issue request. It reads, from, one, Kathleen Algaron, ``We 
need to come clean with the Italians, tell them we blew it, or 
deeply appreciate and regret handling of this, and let them 
know about the disposal. The flip side is just to dispose of it 
and not come clean. I'm willing to be persuaded either way.''
    [The information follows:]
                            Norman, Alain G
From: Yu, Alan K.
Sent: Wednesday, October 05, 2005 3:44 PM
To: Volker, Kurt D; Allegrone, Kathleen H; Sterling, Adam H
    Cc: EUR-WE-Italy-DL; Cook, Nerissa J; Norman, Alain G; McCarthy, 
Deborah A; Harris, Michelle F.
Subject: RE: Italian Meds for Katrina--Houston, we've got a problem . . 

    All--
    I spoke to a Washington FDA official. He thought our request was 
reasonable, but will need to check on what FDA personnel remain in 
Little Rock and ensure his higher-ups are okay (he didn't anticipate 
problems). He will tell me tomorrow.
    Who pays to dispose: he thought it would be FEMA--possession is 
nine-tenths . . . . We're not there yet, though; we need to get the FDA 
inspection above and then take it up with the Italians.
    Let me know when we plan to do this, so I can get my annual leave 
request in.
    Alan
                                 ______
                                 
From: Volker, Kurt D
Sent: Wednesday, October 05, 2005 2:45 PM
To: Allegrone, Kathleen H; Sterling, Adam H
Cc: Yu, Alan K; EUR-WE-Italy-DL
Subject: RE: Italian Meds for Katrina--Houston, we've got a problem . . 

    I think ``crisis situation, second hurricane, etc.'' sounds 
reasonable enough (barely) and definitely come clean, rather than try 
to conceal--never works.
                                 ______
                                 
From: Allegrone, Kathleen H
Sent: Wednesday, October 05, 2005 12:30 PM
To: Volker, Kurt D; Sterling, Adam H
Cc: Yu, Alan K; EUR-WE-Itaty-DL
Subject: Italian Meds for Katrina--Houston, we've got a problem . . .
    Alan tells me that FDA officials believe the Italian meds are 
totally unusable--by others. They were exposed to the elements and 
heat; even the gauze etc wouldn't be worth it.
    Elan is going to go back to be sure someone really eye-balled the 
stuff. He's also going to check on disposal (and who pays--whatever . . 
.)
    Then, I think (and Elan agrees) that we need to come clean with the 
Italians; tell them we blew it; deeply appreciate and regret handling 
of this; and let them know about disposal.
    The flip side is just to dispose of it and not come clean. I'm 
willing to be persuaded, but . . .
    Thoughts?
FW: Request to UK on MRE data
    I think asking the UK is insulting and will require that we fund 
travel for them to send a Vet to AK to review storage practices before 
they issue a certificate. If we have in house folks with training, I 
recommend that the DOS ask DOD for assistance. It is very likely that 
there is a vet with the required training at Little Rock AFB. . . .
    I left you a voice mail and an e-mail on the unclass side. I was 
out of office on Friday for a meeting at RAF Mildenhall.
    Call me and we can discuss further.
    Rob
                                 ______
                                 
From: Donegan, James F (POL)
Sent: Thursday, January 05, 2006 5:17 PM
To: Letourneau, Robert M
Subject: FW: Request to UK on MRE data
    Rob--can you look into getting a certificate per Bill's suggestion?
    Thanks
    Jim
                                 ______
                                 
From: Meara, William R
Sent: Wednesday, January 04, 2006 1:35 PM
To: Donegan, James E (POL)
Cc: Tokola, Mark A; Bonilla, Jean A; Clark, Sandra E
Subject: RE: Request to UK on MRE data
    Jim:
    This thing keeps coming back at us, While this is an ECON issue, 
the desk seems bound and determined to talk only to POL about it. 
That's fine--I won't fight you about who covers the soon-to-be rancid 
UK MREs in Arkansas!
    A month or so ago the desk asked us to check to see if the Brits 
had any objection to us giving these MREs to third parties. MOD told 
ODC that they were washing their hands of the MREs, and didn't care 
what we did with them.
    If you do want to try to get the Brits to give us the kind of 
certificate that the desk is discussing, my suggestion would be to 
route the request through [Deleted] in ODC--he has been the Embassy's 
main point of contact with MOD on this issue.
    Another option might be to try to do this through the Embassy's 
Foreign Agricultural Service office. But I think this is really an MOD 
issue. . .
    Bill
                                 ______
                                 
From: Donegan, James E (POL)
Sent: Friday, December 30, 2005 3:24 PM
To: Donegan, James E (POL.); Evans, Trevor J; Tokola, Mark A
Cc: Johnson, David T; Meara, William R; Skinner, Charles B
Subject: RE: Request to UK on MRE data
    Angela's request for a vet certificate comes out of an interagency 
meeting held yesterday in DC. Apparently the Georgian MOD has made a 
request for the MREs to distribute to their own troops. There has also 
been a similar request from the OSCE border monitors in Georgia. The 
feeling in the interagency was that a vet certificate would help move, 
even seal, these possibilities.
    Also in play but less likely is a request from two U.S. NGOs for 
the MREs to distribute to ``a basket of countries.'' Possible but less 
likely that the vet certificate would clinch the deal for this option.
                                 ______
                                 
From: Donegan, James E (POL)
Sent: Friday, December 30, 2005 8:22 AM
To: Evans, Trevor J; Tokola, Mark A
Cc: Johnson, David T
Subject: FW: Request to UK on MRE data
    Know any Vets?
    PS I have asked Washington to research the veracity of a Sun report 
yesterday that these things are ``rotting'' in a warehouse somewhere in 
the States.
                                 ______
                                 
From: Cervetti, Angela M
Sent: Thursday, December 29, 2005 10:24 PM
To: Donegan, James E (POL)
Subject: FW: Request to UK on MRE data
    In Charles' absence . . .
                                 ______
                                 
From: Cervetti, Angela M
Sent: Thursday, December 29, 2005 5:19 PM
To: Skinner, Charles B; Bonilla, Jean A
Cc: O'Malley, Michael E; Nolan, Edwin R; Roy, Kenneth M
Subject: FW: Request to UK on MRE data
    Jean, Charles,
    The MRE saga continues. Below is an e-mail from PGI asking us to 
ask post to approach the Brits for a veterinarian certificate stating 
that the meat products are fit for human consumption. Alan Yu from PGI 
seems to remember you already said that it would be very difficult and 
that the USDA should inspect the MREs and issue its own certificate. 
The problem is USDA said it does not inspect/certify non-American 
foods.
    There are some options that opened up for disposition but the 
general sense is that having papers from the Brits saying the meat 
won't poison anybody would help the process along.
    What are your thoughts?
    Angela

    Senator Landrieu. I want to know where the Department of 
State is in implementing the nine recommendations, and when 
final amendments have been made at International Cooperation 
Support Annex to the National Response Plan, if that's been 
done to date.
    Secretary Rice. We are in the process, Senator, of doing 
precisely that. I do want to note, though, that this was an 
unprecedented event. As you noted, it was an unprecedented 
event for the United States. It was also unprecedented for the 
United States to receive offers of help at the level that we 
received the offers of help. The State Department was the 
agency that took in the offers of help. We tried, then, to 
coordinate with FEMA and those on the front lines to understand 
what help could be used and what help could not be used.
    We accepted donations from 122 countries and organizations, 
$126 million in monetary donations. In fact, we ended up 
encouraging a lot of countries to give to private 
organizations, like the Clinton-Bush effort, because, frankly, 
it was difficult for us to use a lot of what was suggested.
    Senator Landrieu. I understand that, and my time is up. But 
I just want to, on the record, say that $1 billion, 
approximately, was offered; we've received $126 million. There 
was a lot of money left on the table. The people of the gulf 
coast deserve to have a better system. But, more than just the 
people of the gulf coast, this country deserves to have a 
better system in the event that this happens again.
    So, I want a specific answer, if you don't mind. When do 
you think these recommendations that have been made will be 
accepted, either presented to this committee or to the 
Congress, for adoption?
    Secretary Rice. Senator, I will get back to you with an 
update on where we are, by letter, in response to your 
question.
    But, if I may, I just want to note that, in fact, because 
it's important for our partners to know that a lot of their 
donations were used, and used well, for the people--$66 million 
to finance social service management for Katrina, $60 million 
to the Department of Education.
    Just one final point, if I may. Yes, we had to turn down 
some donations--medical equipment, a lot was in kind, for 
instance, for medical personnel who would not have been 
licensed in our country to practice; food, which didn't meet 
certain standards.
    Senator Landrieu. I understand that. Not to----
    Secretary Rice. So----
    Senator Landrieu [continuing]. Interrupt--Mr. Chairman, I 
don't mean to be disrespectful, but I have a list here that I 
would like to submit. It is not just food and diapers and 
bottles that were rejected, it was generators and communication 
systems, and, you know, medical supplies, and medical 
personnel.
    We still, just this week, have been able--now, this is not 
completely the Federal Government's fault--to finally get one 
mental-health bed in the New Orleans region. One.
    So, I suggest we have a major problem----
    Senator Leahy. Without objection, the----
    Senator Landrieu. I'm going to put this in the record. I 
thank the Chairman----
    Senator Leahy. Without objection, it will----
    Senator Landrieu [continuing]. For his----
    Senator Leahy [continuing]. Be included in the record.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
    Secretary Rice. Senator, I will get back to you with an 
answer----
    Senator Landrieu. Thank you.
    Secretary Rice [continuing]. To your question about the----
    Senator Landrieu. Thank you.
    Secretary Rice [continuing]. Various recommendations.
    [The information follows:]

                         United States Department of State,
                                     Washington, DC, July 16, 2007.
Mary L. Landrieu, Chairman,
Subcommittee on Disaster Recovery, Committee on Homeland Security and 
        Governmental Affairs, United States Senate.
    Dear Madam Chairman: Per my June 28 letter to you, enclosed is 
additional information responding to the specific questions outlined in 
your June 14 letter. We expect to convey to you shortly information 
concerning the full set of assistance offers from the international 
community that you also requested in that letter. I hope you find this 
additional information useful.
            Sincerely,
                                        Jeffrey T. Bergner,
                           Assistant Secretary Legislative Affairs.

Enclosure:

    Question. To the extent that the Department of State is designated 
as the lead agency responsible, what is the status of implementation of 
recommendations 89 through 97 of the White House report, ``The Federal 
Response to Hurricane Katrina: Lessons Learned?''
    Answer. Below are the nine recommendations from the Katrina Lessons 
Learned exercise and the status of each recommendation:
    Recommendation #89.--DOS should lead the revision of the 
International Coordination Support Annex (ICSA) to the National 
Response Plan (NRP), clarifying responsibilities of Department of State 
(DOS), Department of Homeland Security (DHS), Department of Defense 
(DOD), and other supporting agencies in response to domestic incidents. 
This revision should begin immediately.
    Status.--Completed. A State Department-led interagency group 
completed the first revision of the ICSA in February 2007 in 
consultation with the Homeland Security Council. The revisions clarify 
expanded roles and responsibilities of USG agencies in managing the 
international aspects of a domestic incident. The group also included 
representatives from the Departments of Homeland Security, Defense, 
Health and Human Services, Agriculture, and Transportation, and the 
Agency for International Development.
    Recommendation #90.--DOS and DHS should lead an interagency effort 
that will quickly develop procedures to review, accept or reject any 
offers of international assistance for a domestic catastrophic 
incident.
    Status.--Completed. An interagency group consisting of the 
Department of State, USAID/Office of Foreign Disaster Assistance (AID), 
DHS/FEMA, DOD, and the American Red Cross (ARC) has developed a system 
for managing international assistance during a domestic disaster. The 
system outlines policies and procedures to systematically manage offers 
of, or United States requests for, international material assistance 
during a United States domestic disaster. It also specifies the roles 
and responsibilities of participant agencies, provides standard 
operating procedures for managing offers of foreign assistance and 
domestic requests for foreign resources, and outlines the process for 
receiving and distributing international assistance that is accepted by 
the U.S. Government. The procedures and arrangements detailed in the 
manual were formally approved in 2007, but the core procedures were 
informally in place among participants by June 1, 2006.
    Recommendation #91.--DHS should lead an interagency effort to 
create and routinely update a prioritized list of anticipated disaster 
needs for foreign assistance and a list of items that cannot be 
accepted.
    Status.--Completed. The interagency has established procedures for 
coordinating with USG regulatory agencies for the entry, handling, and 
use of foreign resources during a disaster. Regulatory agencies provide 
technical advice and review offers of international assistance prior to 
FEMA acceptance. The procedures include guidance on acceptable and 
unacceptable items to assist the Department of State in communicating 
with the international community.
    Recommendation #92.--DOS should establish an interagency process 
to: determine appropriate uses of international cash donations; to 
ensure timely use of these funds in a transparent and accountable 
manner; to meet internal Federal government accounting requirements; 
and to communicate to donors how their funds were used.
    Status.--Completed. Procedures have been established to manage the 
receipt, distribution, and use of foreign cash donations made during a 
domestic disaster. FEMA has pre-identified response needs likely to 
arise soon after a domestic disaster for which cash donations could be 
quickly utilized, with the understanding that certain donations may be 
directed to longer term disaster recovery projects. An interagency 
Working Group will be convened as necessary to address fund management 
issues and make recommendations on funding longer term disaster 
recovery projects.
    Recommendation #93.--Public and Diplomatic Communications during 
domestic emergencies should both encourage cash donations--preferably 
to recognized nonprofit voluntary organizations with relevant 
experience--and emphasize that donations of equipment or personnel 
should address disaster needs.
    Status.--Completed. As was done during Katrina, the State 
Department provides instructions to all U.S. diplomatic missions abroad 
advising them to encourage foreign entities wishing to assist to make 
cash donations directly to appropriate NGOs rather than the USG.
    Recommendation #94.--The Department of State and the Department of 
Homeland Security should jointly develop procedures to ensure that the 
needs of foreign missions are included in domestic plans for tracking 
inquiries regarding persons who are unaccounted for in a disaster zone.
    Status.--Completed. The Department of State has worked with DHS/
FEMA and the ARC to ensure that, during a domestic disaster, the USG 
honors its international obligations under the Vienna Convention on 
Consular Relations. Although the USG is not required to track down and 
find missing foreign nationals during a disaster in the United States, 
under the Convention it is obligated to assist foreign missions in 
obtaining ``appropriate consular access'' to their nationals.
    The Department of State's Office of Public Affairs has designated 
personnel to work with DHS/FEMA during domestic emergencies. These 
personnel will be part of FEMA's information operation from the outset 
of a major domestic crisis, in order to ensure efficient handling of 
queries from and consistent messaging to foreign missions and foreign 
media.
    The Department of State's Office of Foreign Missions and the ARC 
provided briefings for foreign missions in Washington, DC on how 
foreign missions can best utilize the ARC's missing persons' registry 
to locate missing foreign nationals in the United States.
    Recommendation #95.--DHS and DOS should revise the NRP to include 
DOD and Department of Agriculture (USDA)-Food Safety Inspection Service 
as cooperating agencies to the International Coordination Support 
Annex. Including DOD more directly in foreign assistance management 
would leverage existing relationships with partner military 
establishments and help to ensure that staging areas for the acceptance 
of foreign aid are preplanned and quickly available.
    Status.--Completed. The revised ICS Annex to the NRP includes both 
DOD and USDA as cooperating agencies. Within the system developed for 
managing international assistance during a domestic disaster, 
regulatory agencies such as the USDA provide technical advice and 
review offers of international assistance prior to FEMA acceptance.
    Recommendation #96.--DHS should include DOS and foreign assistance 
management in domestic interagency training and exercise events. 
Inclusion in the new National Exercise Program (NEP) should occur 
before the end of fiscal year 2006.
    Status.--We refer you to DHS regarding its training and exercise 
events. We understand DHS is developing an international assistance 
training module for use in future exercises. DHS can provide more 
detailed information.
    Recommendation #97.--DHS should provide daily disaster response 
situational updates through the Secretary of State to all Chiefs of 
Mission or Charges d'Affaires. These updates should improve situational 
awareness and provide information to address host government concerns 
or questions.
    Status.--DHS has assured State it will provide appropriate updates 
to inform U.S. Missions overseas and, by extension, foreign 
governments.
    Question. If any recommendations were not implemented by the 
deadlines identified in the report, why were they not?
    Answer. Those recommendations involving other agencies and 
departments required extensive interagency coordination. We placed a 
premium on ensuring that our improvements in response to the 
modifications were developed in concert with other agencies. 
Additionally, fulfilling the recommendations linked to revision of the 
National Response Plan hinged on a timetable established by the 
Homeland Security Council.
    However, it is important to distinguish between the practical 
elements of the recommendations and the final, formal conclusion of 
each. Many of the professionals charged with fulfilling the 
recommendations had first-hand experience with the ad hoc arrangements 
employed in responding to Katrina. By the beginning of the 2006 
hurricane season, all of the major elements of the recommendations--
especially those suggesting improvements to assistance management--had 
been agreed informally and would have been employed had circumstances 
required.
    Question. What additional resources are needed to complete 
implementation of any as-of-yet unaddressed recommendations?
    Answer. All of the recommendations in the Federal Katrina Lessons 
Learned report have been addressed at this time.
    Question Specifically, when do you expect an amendment to the 
International Coordination Support Annex to the National Response Plan 
be complete and amended? What else must be addressed to satisfy that 
goal?
    Answer. An interagency group completed the first revision of the 
International Coordination and Support Annex in February 2007 and 
provided the revision to the Homeland Security Council. The 
International Coordination Support Annex, along with all other revised 
annexes, will be released for general comment in the near future. The 
revisions clarify expanded roles and responsibilities of USG agencies 
in managing the international aspects of a domestic incident.
    The group included representatives from the Departments of State, 
Homeland Security, Defense, Health and Human Services, Agriculture, and 
Transportation, and the Agency for International Development. Within 
the Department of State, we continue to ensure that relevant bureaus 
are familiar with the changes to the National Response Plan. However, 
the current NRP is in effect if an incident of national significance 
occurs prior to the NRP being finalized and formally approved by the 
Administration and NRP signatories.
    DHS is finalizing revisions to the entire National Response Plan 
and then the document will be circulated to the interagency community 
for comment prior to release to the general public for comment.
    Question. Of foreign assistance accepted following Hurricanes 
Katrina and Rita, how much has actually been distributed and used to 
date?
    Answer. The United States Government received $126 million of 
donations directly from foreign governments, political entities and 
individuals. All of these funds have been allocated.
    On October 20, 2005, the State Department transferred $66 million 
to FEMA. FEMA subsequently awarded a $66 million grant to the United 
Methodist Committee of Relief (UMCOR). UMCOR established Katrina Aid 
Today (KAT), a consortium of nine nongovernmental organizations, to 
provide case management services to individuals and families affected 
by Hurricane Katrina. This program filled a gap in the services 
available to victims under federally- or state-funded programs. FEMA 
has advised the Department that KAT has utilized $33 million of the 
funds to help over 149,000 people determine their specific needs and 
identify resources to help them overcome this tragedy. KAT has 
indicated to FEMA that it expects to provide similar services to 
additional people by March 2008 with the remaining funds available 
under this grant.
    On date March 17, 2006, the State Department transferred $60 
million to the Department of Education for subsequent donation to 
institutions of higher education and K-12 schools. The Department of 
Education has advised the State Department that it allocated these 
funds as follows:
    DoEd distributed $5 million to the Greater New Orleans Educational 
Foundation for the planning and implementation of a long range strategy 
for K-12 educational services.
    DoEd awarded grants totaling $30 million available to 14 Higher 
Education institutions in Louisiana and Mississippi. These institutions 
have been able to draw on those funds according to their own 
reconstruction timetables. We understand that as of April 27, 2007, 
some institutions had utilized their entire grants; others were still 
drawing on the available funds as they proceed with their 
rehabilitation plans.
    DoEd asked the Louisiana DoEd to develop a program to award grants 
totaling $25 million. On April 19, 2007, the Louisiana Board of 
Education approved grants of $190,000 each to 130 private and public 
schools. The current award period for use of these funds runs until 
November 30, 2007. Funds would be available on a year to year basis 
until all funds have been expended.
    The United States Government received over 5 million pounds in 
material contributions and relief supplies from 50 foreign governments 
and international organizations. The vast bulk of these supplies was 
transferred to FEMA upon arrival and was utilized for disaster relief. 
FEMA indicates that by April 4, 2006 all material donations were put 
into FEMA pipelines to determine disposition of resource based on 
disaster needs. Foreign governments also donated the use of highly 
specialized equipment, notably high-volume, high-pressure pumps and the 
services of personnel expert in their use. These services were utilized 
for up to 6 weeks after the storm's landfall.
    Question. As we understand the Department's Katrina task force has 
been disbanded, what process exists today to accommodate offers from 
foreign governments seeking to assist the ongoing recovery and 
rebuilding efforts along the Gulf Coast?
    Answer. The Department's crisis management system has functioned 
very well over the years; we have used it to manage an average of 13 
crises every year. This system was used to coordinate the evacuation of 
almost 15,000 American citizens from Lebanon in the midst of active 
hostilities, the largest evacuation of American citizens via primarily 
commercial assets in 60 years.
    The Department utilized this ``Task Force'' approach to support the 
Department of Homeland Security and FEMA during the immediate response 
to Hurricane Katrina. Once the immediate, acute phase of the crisis 
passed, the Department disbanded the Katrina task force. However, a 
core group of professionals with relevant expertise and with experience 
during the crisis, working under the overall direction of the 
Department's Executive Secretary, continued to address a wide range of 
Katrina-related issues, including managing ongoing operational 
coordination with FEMA and contributing to internal and USG-wide 
lessons learned' exercises.
    Should foreign governments wish to provide additional resources to 
assist .Katrina's victims directly to the U.S. Government, the 
Executive Secretary would ensure that appropriate experts at DHS and 
FEMA are engaged to ensure the foreign government's offer is promptly 
evaluated and responded to. As during the acute phase of the crisis, 
the Department would not itself evaluate the merits of a specific 
offer, but would instead assist the relevant experts at DHS and FEMA in 
soliciting sufficient information regarding the foreign government's 
offer to permit an informed decision by DHS and FEMA on whether to 
accept or decline the offer.
    Question. What additional steps is the Department of State pursuing 
to better manage foreign assistance following a domestic disaster, what 
is the status of implementing these actions and what additional 
resources are needed to complete this effort?
    Answer. The Department, together with partners at DHS/FEMA, AID, 
the Department of Defense and other Federal Departments, has developed 
detailed procedures to manage the solicitation, receipt, distribution, 
and use of foreign cash and in-kind donations prompted by a domestic 
disaster. These procedures have been agreed by all parties, are in 
place and would be used should a subsequent domestic disaster prompt 
offers of assistance from our international friends and allies.
    With respect to cash donations, FEMA has pre-identified response 
needs likely to arise soon after a domestic disaster for which cash 
donations could be quickly utilized, with the understanding that 
certain donations may be directed to longer term disaster recovery 
projects. An interagency Working Group would be convened as necessary 
to address fund management issues and make recommendations on funding 
longer term disaster recovery projects.
    The in-kind donation management system includes detailed procedures 
for coordinating with USG regulatory agencies for the entry, handling, 
and use of foreign resources during a disaster. Regulatory agencies 
provide technical advice and review offers of international assistance 
prior to FEMA acceptance. The procedures include guidance on acceptable 
and unacceptable items to assist the Department of State in 
communicating with the international community,
    Q#8: The U.S. Agency for International Development (USAID) has 
effectively managed the direction of billions of dollars in U.S. 
assistance to victims of and responders to international disasters such 
as the South Asia Tsunami and Central Asia Earthquakes. How is USAID's 
experience being applied to better manage aid following disasters here 
at home? What barriers exist to better leveraging USAID's knowledge and 
resources in this way, and what would be needed to more effectively 
draw on this expertise and infrastructure?
    Answer. USAID's role in domestic response operations is described 
in the National Response Plan (NRP), to which USAID is a signatory. The 
role described in the NRP relates to vetting, processing, and managing 
logistics for offers of foreign assistance.
    The USAID role described in the NRP is based on USAID's expertise 
in disaster logistics and its experience with, and contacts in, the 
international disaster response community. However, USAID does have 
other expertise which may be called upon for domestic response 
operations. Such skills include camp management, response planning, 
technical issues, economic recovery, reconstruction, and education. In 
addition, USAID stockpiles disaster commodities in the U.S. and around 
the world. This expertise and these commodities are available to FEMA 
for domestic operations.
    Due to the ongoing, close working relationship between FEMA and 
USAID's Office of Foreign Disaster Assistance (OFDA), FEMA is aware of 
these capacities at USAID. During Hurricane Katrina, in fact, some of 
these capacities were requested by FEMA--commodities, planners, 
translators, logisticians. In addition, FEMA has requested that USAID/
OFDA work with them in advance to establish agreements by which such 
assistance may be quickly requested and provided during a disaster--
this process is currently underway.
    USAID funding authorities prevent the Agency from expending 
resources for domestic activities. The International Disaster and 
Famine Account (IDFA) is legislated to fund only international 
disasters and famine. Nonetheless, during a domestic response 
operation, this funding issue is addressed through a FEMA Mission 
Assignment (MA) to USAID. The FEMA MA provides a funding source for 
USAID to carry out domestic operations under FEMA's legal authority. 
However, there is a significant barrier related to USAID preparations 
for domesticoperations. FEMA generally cannot provide an MA to USAID in 
the absence of an active disaster response operation. The result is 
that USAID cannot dedicate staff time or resources to preparing for its 
role in domestic response operations. For obvious reasons, preparation 
and training is critical to USAID's ability to respond to a disaster. 
This constraint is a serious one. USAID has not yet determined how to 
address this problem.
    Question. What other internal investigations, if any, have been 
conducted by the Department of State into its handling of foreign 
assistance following the 2005 hurricanes, and what is the status of 
those reviews?
    Answer. Hurricane Katrina was an unprecedented disaster that 
presented unique challenges to domestic agencies and foreign 
governments trying to assist. The State Department, working with other 
agencies, responded to foreign offers of assistance as quickly and 
flexibly as circumstances permitted.
    The State Department has participated in extensive interagency 
lessons learned reviews and exercises that addressed problems 
identified during Hurricane Katrina. As a result, the U.S. Government 
has developed significantly improved policies, procedures, and plans 
for managing international assistance for future domestic disasters.
    The Homeland Security Council (MSC) led an after action review of 
the U.S. Government response to Katrina, including how we handled 
offers of assistance from foreign governments. The HSC and key 
agencies, including the State Department, reviewed the response, both 
what went well and what we can do better, and updated the National 
Response Plan to guide agency actions if another major disaster were to 
strike the United States. The State Department, USAID, FEMA, the 
Defense Department and others contributed to the update.
    The Department also cooperated fully with the Government 
Accountability Office when it reviewed the handling of foreign 
assistance in response to Hurricane Katrina (GAO-06-460, April 2006). 
In its report, the GAO recognized that ``although DOS's procedures were 
ad hoc, they did ensure the proper recording of international cash 
donations that have been received to date, and [GAO was] able to 
reconcile the funds received with those held in the designated DOS 
account at Treasury.''
    The Executive Secretariat's Operations Center conducted a lessons 
learned exercise shortly after the acute phase of the Katrina crisis, 
as it does after every major crisis, to assess the Department's 
performance and to incorporate adjustments and refinements to 
procedures in order to improve our response to subsequent crises. The 
results of this exercise informed the subsequent, broader USG 
assessment and ensured the Department was better prepared to respond to
    similar situations, as early as the 2006 hurricane season, even 
before a formal set of agreed procedures were finalized through the 
interagency process.
    Question. What was communicated to foreign governments regarding 
assistance that went unused, or offers of assistance that were not 
accepted?
    Answer. For every offer of assistance, the Department, on behalf of 
the U.S. Government, accepted, politely declined the assistance, or 
referred the party offering to an alternative recipient (i.e., American 
Red Cross).
    The Department conveyed this information to the offering 
governments as soon as its partners at FEMA had evaluated the offer of 
assistance and determined whether or not it would address an unmet need 
before similar commodities or services could be identified and sourced 
within the United States.

                         United States Department of State,
                                     Washington, DC, June 28, 2007.
Hon. Mary L. Landrieu, Chairman,
Subcommittee on Disaster Recovery, Committee on Homeland Security and 
        Governmental Affairs, United States Senate.
    Dear Madam Chairman: Thank you for your letter of June 14 
concerning the State Department's performance in responding to 
Hurricane Katrina. I welcome the opportunity to provide additional 
information and to correct some of the persistent inaccuracies reported 
in the media concerning the receipt of foreign assistance following 
Hurricane Katrina.
    Hurricane Katrina presented an unprecedented challenge; the 
Department's efforts in response also were unprecedented. Over 500 
Department employees voltuiteered to help coordinate the outpouring of 
support and assistance from our friends and allies around the world. 
Many of them deployed into the region to work on the ground in the 
relief effort, including a group of Vietnamese speakers who worked 
closely with ethnic Vietnamese residents along the Gulf Coast. These 
volunteers were motivated by a rare opportunity to help their fellow 
citizens here in the United States, just as they and their colleagues 
help American citizens every day overseas.
    Your letter asked whether the Department is better prepared now to 
execute its responsibilities in responding to domestic emergencies. The 
answer is, unequivocally, yes. The State Department learned valuable 
lessons regarding how best to manage and integrate international 
assistance offers into the federal response to a domestic emergency. 
Working with other parts of the federal government, we have 
incorporated those lessons into our planning and have developed and 
implemented detailed procedures to manage international offers of 
financial and material assistance. The basic elements of these systems 
were in place for the 2006 hurricane season; the final, detailed 
versions are now in place for the 2007 season.
    As noted in our June 19 reply to your questions for the record 
following Secretary Rice's appropriations testimony, the State 
Department completed revisions to the International Support Annex of 
the National Response Plan in February 2007, The revised annex will be 
incorporated in the global revision of the National Response Plan 
currently in progress.
    I also would like to take this opportunity to clarify inaccuracies 
in the public accounts of the Department's performance to which your 
letter refers.
    First, the Department from the outset encouraged foreign 
governments and individuals to assist victims in the most efficient, 
effective way possible: through financial contributions to 
nongovernmental organizations expert in disaster response and recovery. 
An informal tally (we cannot require foreign governments to report 
donations to U.S. NGOs) indicates approximately $220 million in 
donations initially pledged to the USG was provided directly to the Red 
Cross, Bush-Clinton Katrina Fund and other NGOs.
    Some governments wish to contribute directly to the United States 
government, and from those governments we received a total of $126 
million. As the Secretary said in her testimony, these funds have been 
allocated (via FEMA and the Department of Education) to nongovernmental 
organizations, institutions of higher education and, via the Louisiana 
Department of Education, to 130 K-12 schools. The funds are being used 
to rebuild or restock laboratories and libraries, improve school 
physical plants and help over 148,000 individuals deterniine their 
needs and plan for their futures as they continue to recover from this 
tragedy.
    A second inaccuracy is that the U.S. Government rejected or ignored 
substantial quantities of materiel and other in-kind assistance offered 
by foreign governments. The State Department's main objective 
throughout the Katrina crisis was to act as the intermediary for 
foreign offers of assistance to the U.S. Government, so that the 
Department of Homeland Security and other federal agencies could best 
help the victims of Hurricane Katrina. With respect to material 
assistance, that meant efficiently conveying all offers to departments 
and agencies charged with responding to the hurricane and coordinating 
the U.S. Government's response to offers of foreign assistance made by 
foreign governments. All offers were conveyed promptly to the Federal 
Emergency Management Agency, which, working with USAID's Office of 
Foreign Disaster Assistance, then decided which commodities could he 
utilized quickly and efficiently.
    Public accounts of the Department's performance imply that all the 
foreign assistance offered was actually needed or could be used. In 
fact, seasoned disaster logisticians evaluated the commodities and 
services offered, and accepted only those that made sense given all of 
the normal considerations during a disaster--cost and time of 
transport, storage, processing and other factors. Moreover, much of 
what was offered, including foodstuffs, medical supplies and services 
of expert personnel, could not be accepted due to federal or state 
health, safety and licensing standards. Some of the equipment, notably 
generators, was not compatible with U.S. systems.
    More detailed responses to the additional specific questions and 
requests included in your letter will be provided in the next week. I 
hope you find this information useful.
            Sincerely,
                                        Jeffrey T. Bergner,
                           Assistant Secretary Legislative Affairs.

    Senator Leahy. Thank you, Senator Landrieu, Secretary Rice.
    Senator Bennett.
    Senator Bennett. Thank you very much, Mr. Chairman.
    Madam Secretary, as you know, I go to Europe quite often, 
and was there just a few weeks ago, participating in the 
Brussels Forum of the German Marshall Fund. It's an interesting 
thing to go back to Europe from time to time, as I'm sure you 
know. Last year, when I was there, they said to me, ``The war 
over the war is over. We don't want to talk about Iraq, we want 
to talk about Russia.'' The Russians had cut off the gas supply 
to Ukraine, and were making similar kinds of statements about 
Georgia, and the Europeans, at least the ones with whom I 
spoke, were very nervous.
    This year, I had a briefing with Secretary--or with 
Ambassador Boyden Gray and Tori Newland and Sam Fox, and they 
all talked about Russia and the concern that is there with 
respect to the turn that President Putin may be taking, a turn 
away from the kind of cooperation and admiration that was there 
fairly early in President Putin's administration and President 
Bush's administration. Can you give us a sense of where the 
Russian relationship is?
    Secretary Rice. Thank you, Senator, I can.
    As with any relationship, it's complicated, any big 
relationship. I would say, on some major strategic global 
issues, we are cooperating pretty well--on North Korea; we've 
had good cooperation on Iran, it's why we have the two Security 
Council resolutions. The President and President Putin have 
done work on global nuclear terrorism. We've done work on 
trying to--we're doing work on trying to modernize the Non-
Proliferation Treaty, to include, for instance, fuel assurances 
for countries that don't do what Iran is doing, in enriching 
and reprocessing. So, on many things, we're--we've done very 
well.
    But the fact is that on some others it's been a difficult 
period. The Russians, I think, do not accept fully that our 
relations with countries that are their neighbors, that were 
once a part of the Soviet Union, are quite honestly simply good 
relations between independent states and the United States, 
that we've tried to convince the Russians that the emergence of 
democracies on their borders, whether it's Georgia or Ukraine, 
would not be a problem, and that of course we're going to have 
good and sound relations with those countries, and we're going 
to continue to.
    It's even more difficult when one looks at what is 
happening domestically in Russia, where I think it's fair to 
say that there has been a turning back from some of the reforms 
that led to the decentralization of power out to the Kremlin, a 
strong legislature, strong free press, a--an independent 
judiciary. I think everybody around the world, in Europe, in 
the United States, is very concerned about the internal course 
that Russia has taken in recent years.
    That said, we continue to have that discussion. One of the 
advantages of President Bush's very good personal relationship 
with President Putin is he can raise those issues, and we can 
talk about them. We very much hope that there will be free--
truly free and fair elections as Russia moves forward with 
presidential and parliamentary elections next year. But it is 
the concentration of power in the Kremlin that has been 
troubling.
    Finally, we have been pressing, along with Europeans and 
others, that there be no sense that Russia uses its great 
natural resources as a political weapon rather than in 
commercial--a commercial way. So, the--it's a complicated 
situation, but I would say, on a number of issues, we've worked 
together very well; and it's a big and important power, and 
we'll continue to try to work with the Russians.
    Senator Bennett. Thank you. As you know, I've always been a 
strong supporter of microenterprise, microcredit. I simply 
can't let your appearance here pass without mentioning it one 
more time and just keeping it on the radar screen. I'm happy 
that the State Department, during the time that I've been on 
this subcommittee, has significantly increased microcredit 
every year, which means I can take credit for it.
    Secretary Rice. Absolutely.
    Senator Bennett. As long as it happened on my watch, I did 
it. Whether I had anything to do with it, in fact, or not, 
doesn't make any difference----
    Secretary Rice. Of course you did----
    Senator Bennett [continuing]. When you're on the campaign--
--
    Secretary Rice [continuing]. Senator.
    Senator Bennett [continuing]. Trail.
    Now, moving to another issue, let's talk about China. As I 
look at China, I think they have tremendous internal problems 
and long-term challenges, demographic challenges of nature, the 
likes of which no other country has. Maybe India. But in the 
short term, they are committed to short-term economic growth. 
If you worry about American CEOs concentrating on next 
quarter's numbers, you--they don't hold a candle to the 
Chinese.
    We're expanding our consular activities in China. We're 
doing what we can to increase the Embassy in China. Give me a--
give us an overview of where you think things are going with 
the Chinese.
    Secretary Rice. Well, I would start by saying what I said 
about Russia, also a very complex relationship. With these big 
countries, there tend to be good things and bad things, puts 
and takes. Again, on some of the global issues, we're doing 
very well. We are--with the Chinese, I think the way we've 
worked, now, on North Korea is very effective and quite 
remarkable, given China's history with North Korea. Similarly, 
we are, again, working well together in the United Nations on 
Iran. I wish that we could have a somewhat stronger Chinese 
role on Sudan.
    I think that that would be very helpful, and we've 
encouraged the Chinese to be much more active with the Sudanese 
to get them to accept the U.N. forces. That's one of the most 
important things that they can do. They say they will. There's 
some evidence of that. But that's very important.
    I think when you look at the total picture, though, you 
recognize that this is a country in the midst of a huge and 
major transition. Our goal has to be to help make that 
transition one that ultimately makes China a more stabilizing 
force in international politics than a destabilizing force. On 
the positive side of that, the integration of China into the 
international economic system, I think, will help, although 
we've had to hold China accountable for some of its WTO 
responsibilities that we think it, frankly, hasn't fully met; 
for instance, the efforts of--on intellectual property-right 
protection, which I find perhaps one of the most important 
things we can do is get countries to protect property rights.
    Similarly, on the currency issue, Secretary Paulson has 
worked very hard on that issue. So, China has to do things to 
show that this huge economy is not going to operate outside of 
the rules of the international economy. We spend a good deal of 
time on that.
    On human rights and religious freedom, there is certainly a 
lot of work to do. We've been concerned about the direction of, 
particularly, religious freedom. This is something that we 
bring up with our colleagues.
    Finally, I would just note that when it comes to the issues 
related to Chinese security, we--Secretary Gates and others--
have spoken to our concerns about transparency in Chinese 
military activities, because there is a rather outsized buildup 
of Chinese military activity.
    All of that said, it's our responsibility to try to make 
China--as Bob Zoellick once said, when he was Deputy 
Secretary--a stakeholder, a responsible stakeholder, in 
international affairs, because China is going to be 
influential. There's no doubt about that. Our policies have to 
be aimed at making it a--an influential power in a positive 
sense, not in a negative one.
    Senator Bennett. Thank you.
    Senator Leahy. Thank you, Senator Bennett. I do appreciate 
the Senator from Utah taking credit on the microcredit idea. 
Whenever I travel, I say it was a tall, bald Senator with 
glasses.
    Then I let people decide which of the two of us I'm talking 
about.
    Senator Alexander?
    Senator Alexander. Thank you, Mr. Chairman.
    Madam Secretary, welcome.
    My late friend Alex Haley used to say, ``Find the good and 
praise it.'' I have an--I'd like to do that, in one case here, 
in terms of the State Department. My staff in Tennessee has 
reported to me that the State Department has handled the new 
passport requirements very well, along with the increase in 
passport applications, and they sent me a number of examples, 
which--I won't read them all, but, for example--I will take one 
or two--on April 17, Kathy Smith, of Kingsport, contacted us 
about assistance with a passport. She was terminally ill and 
needed to go overseas for treatment. Her passport was pulled 
out of a stack of 32,000, and was FedEx'd to her within a few 
days.
    On April 19, Linda Hayes contacted our office. She's from 
Nashville. She had a plane ticket for a week later, to go see a 
brother who had a stroke, who couldn't be moved. Within 3 days, 
she had her passport.
    Our caseworkers say that in dealing with the passport 
office, even with the new requirements, it's always, ``Let's 
see how we could help.'' They especially pointed out the fact 
that, after Katrina, since we, in Tennessee, deal the New 
Orleans passport office, that instead of complaining about 
their circumstances down there, that they really--said they 
really didn't hear a word about that, that they found ways to 
deal with the problems, even though they had to move out and go 
to other offices and do different things.
    So, I just wanted to say that to you, and hope that you 
would pass it on to your passport office, and let them know we 
appreciate that very much.
    Secretary Rice. Thank you very much, Senator. I will pass 
it on. They'll greatly appreciate it. They've worked very hard, 
and I'm very proud of the job they've done.
    Senator Alexander. I also wanted to ask you a question and 
make a comment about the Iraq Study Group report, the work that 
former Secretary Baker and Lee Hamilton did recently. The 
President's talked about it recently in favorable terms. Just 
the other day, I noticed he had some nice things to say about 
the work of the report. As I look at the work we do here, it 
seems ironic that we, the oldest democracy, are busy lecturing 
Baghdad about--an infant democracy--about coming up with a 
political solution to what we do in Iraq, when we can't come up 
with one here, and that we ought to work a little harder to try 
to find a way to say to our troops and to the Middle East and 
to the world that we're united in the United States in our 
mission in Iraq, and we ought to work harder to find out what 
that might be.
    I've noticed that since the Iraq Study Group report was 
announced, in December, that both the administration and the 
Democratic majority seem to be using more and more elements of 
it in their different positions. For example, the 
administration has acted on recommendations by increasing the 
number of troops embedded with Iraqi forces. It's used 
milestones to help chart progress. It's even begun meeting with 
neighbors, even in meetings that might include Iran and Syria. 
The President's National Security Advisor has cited the fact 
that the Iraq Study Group said, on page 73, that a surge could 
be a part of a strategy, based upon that Iraq Study Group. On 
the other side, the Democratic Members of Congress have used 
milestones, they've limited the role of the United States in 
some of their proposals to training, equipping, and 
counterterrorism, they've used as their deadline the goal, not 
the deadline, that the Iraq Study Group mentioned, which was 
the early part of March.
    So, I wanted to let you know that later today Senator 
Salazar, of Colorado, and I are going to introduce a piece of 
legislation that would encourage the President to develop a 
plan based upon the recommendations of the Iraq Study Group. 
We're not going to introduce it today, we're going to wait 
until after--after the Congress has dealt with the current Iraq 
funding discussions.
    We know this is not the only plan that one could come up 
with about how we go forward in Iraq, but my purpose in 
bringing it up to you is to say to you, a little bit in 
advance, that we hope, at least from my point of view, that 
this is considered as a friendly gesture, as an option that the 
President could still consider, to embrace it, and that the 
advantage of it is that it doesn't come from the President, it 
comes from outside the President, and that it's not a sign of 
presidential weakness to say, ``Here's a good idea that seems 
to have bipartisan support. I accept it. I based my plan upon 
it. I ask you to accept it.'' The reason I like that is because 
I believe we have a long-term interest in Iraq, and I'm afraid 
that, if we don't get broader support for the President's 
strategy, that we won't be able to see that all the way through 
to the end.
    So, I hope that you and the President and others in the 
White House will consider what Senator Salazar and I are 
offering today as an option for the President. It won't be 
acted on in the next week or 2 or 3 or 4. Perhaps the President 
could embrace it, and there might be
    Democrats and Republicans in the Senate that could come 
behind it, support it, and provide the kind of bipartisan 
consensus that, so far, has seemed to elude us.
    Secretary Rice. Thank you very much, Senator.
    Senator Alexander. Thank you.
    Senator Leahy. Thank you.
    Senator Bond.

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Thank you very much, Mr. Chairman.
    I'm pleased to welcome the Secretary today, here. I was 
pleased to learn that the State Department has been designated 
a national security agency, and the importance of our 
diplomatic efforts in the war on terror, which, make no 
mistake, is an existential threat to our peace and security 
here. I--while I strongly support our military efforts, I 
believe that the diplomatic efforts of the State Department are 
a critical element in trying to protect us from the war. I 
would just comment, as a member of the Senate Intelligence 
Committee, which studied extensively--solid 2 years--on the 
prewar intelligence of Iraq, I want to congratulate you and 
other members of the administration--you, in a previous 
position--who used intelligence that may not have been totally 
accurate, but we found was truthfully reported both by the 
officials in the administration and those of us in Congress who 
overwhelmingly supported our efforts. We know, according to 
David Kay's report, that--from the Iraqi Survey Group--that 
Iraq was a far more dangerous place even than we knew.
    But I want to change and ask you about another area that we 
had the opportunity to discuss a couple of weeks ago, and 
that's southeast Asia. You have recognized, as I think any 
student does, of that area, that this is a critical area, 
sometimes called the second front in the war on terror, but of 
great strategic importance, and Indonesia is the keystone.
    We appreciate the support for Indonesia. I am concerned 
about the $50 million cut in the rest of the East Asia Pacific, 
and I'm going to ask this committee to restore that. also, I 
would ask you why we have not been able to create a U.S. 
Ambassador to ASEAN, reflecting our interest and our commitment 
to that area. This is critical. Your visits there are vital, 
but appointing a full-time Ambassador seems to me to make great 
sense. Could you comment on that?
    Secretary Rice. Well, thank you very much.
    First of all, on the region, I agree with you completely 
about the importance of the region. The President was, of 
course, there. I will be there in the Philippines for the 
meetings of the Asian Regional Forum in the summer. We have 
meet, several times, at both the ministerial and at the head-
of-state level, with the ASEAN countries. We're very actively 
engaged there, and--English-language training--and I've got New 
America's Corners--American Corners going into various places. 
Obviously it's a critical place in the war on terror. It's also 
a critical place because a place like Indonesia, which is a 
multiethnic, multireligious emerging democracy, can be a very 
important force for tolerance in the world. So, I could not 
agree with you more about the issues.
    It's a very interesting point, about somebody for ASEAN, 
and we'll take it under advisement, Senator. We've just 
recently appointed an Ambassador to the African Union, for 
instance. Of course, have one to the Organization of American 
States.
    Senator Bond. I hope you'll----
    Secretary Rice. Let me take it----
    Senator Bond [continuing]. What ASEAN----
    Secretary Rice [continuing]. Back, and we'll take it under 
advisement. It's an----
    Senator Bond. Let me----
    Secretary Rice [continuing]. Interesting idea.
    Senator Bond. Let me follow up on the Philippines. In 
Mindanao, the U.S. Institute of Peace has been facilitating a 
peace process between MILF and the Philippine Government; seems 
to be the best hope for getting that under control. I wrote to 
Ambassador Negroponte. Apparently, funding is being cut off for 
the U.S. Institute of Peace on this effort. Do you know why? 
Can this be restored? Because it is critical for that region.
    Secretary Rice. Well, we have very active programs in 
Mindanao. As a matter of fact, Karen Hughes was, herself, there 
to talk with our people. I'll have to check on the----
    Senator Bond. But the U.S. Institute----
    Secretary Rice [continuing]. Specific program----
    Senator Bond [continuing]. For Peace is the critical one 
bringing those----
    Secretary Rice. I'll check on the specific program, 
Senator. I'm not----
    Senator Bond. All right.
    Secretary Rice. I will get back to you with an----
    Senator Bond. Speaking----
    Secretary Rice [continuing]. Answer.
    [The information follows:]

                             The Deputy Secretary of State,
                                     Washington, DC, June 18, 2007.
Hon. Christopher S. Bond,
U.S. Senate.
    Dear Senator Bond: Thank you for your letter concerning the 
expiration of the United States Institute of Peace's (USIP) $3 million 
grant for its work in the Philippines. I share your view of the 
importance of supporting the peace process between the Philippine 
government and the Moro Islamic Liberation Front (MILF) as part of a 
multi-faceted approach in upholding U.S. interests in Southeast Asia.
    Since receiving the grant in 2003, USIP has achieved useful results 
in building understanding and support for the peace process, 
particularly through its seminars on ancestral domain. Nonetheless, the 
original rationale for USIP's grant no longer exists. In 2003, we 
believed the USIP could fill a key niche and were concerned that direct 
U.S. involvement in the peace process would be seen as interference by 
the parties. The situation has changed since then. Most importantly, 
the U.S. Embassy in Manila has increasingly been directly involved in 
the peace process, opening a dialogue with MILF leaders and actively 
engaging with Philippine officials on the peace process. Both parties 
support this increased and direct U.S. engagement.
    Although the Department of State would welcome the opportunity to 
continue to cooperate with USIP, it is our belief that the best use of 
scarce U.S. resources is in direct support of the reintegration of 
former combatants and other assistance projects. Should the Department 
decide in the future to seek technical assistance along the lines USIP 
has been providing, USIP will of course be invited to bid on any such 
proposal.
            Sincerely,
                                                John D. Negroponte.

    Senator Bond. Speaking of public diplomacy, we see the 
Chinese expanding and setting up throughout the world, 
throughout that region and elsewhere, the Confucius Centers, 
nonprofit public institutes promoting Chinese language and 
culture, local Chinese teaching.
    At the same time, we are closing, and, because of security 
reasons, barricading American centers because of the 9/11 
security setbacks, in Riyadh--they've been closed throughout 
the world. We're hearing where American centers, the access to 
American literature and books has to be behind great security 
barriers which prevent our--at least giving our culture an 
opportunity to be heard and understood. What can we do to--
given the security situation, is there anything this committee 
can do to help you if we--to find a way to make our libraries 
and our resources available to people in the world who, I would 
hope, have a legitimate question in learning about America and 
what we're doing?
    Secretary Rice. Well, we have put forth a very active plan. 
It starts with funding in the supplemental. Karen Hughes has 
about 15 countries, pilot countries, for--very high important 
countries in the war on terror for English-language camps, for 
English-language-focused programs. We believe that people will 
want their kids to learn to speak English, and that's one of 
our best ways to get in. So, it would be helpful to have the 
full funding for that.
    It's also the case that--I mentioned American Corners--they 
are exactly as you talk about, and we have a number of them. 
I'm--I--let's see, it's 10 in Indonesia, 14 in the Philippines, 
6 in Malaysia. They're around the world.
    We're also using virtual posts, virtual presence posts, 
because there are places where you can get on the Internet and, 
in effect, be like a post.
    Senator Bond. Well, I know, the Internet's very important. 
But, in many of these American centers, the security 
requirements are so great that the traffic has fallen off 
significantly. That's what we like to help.
    But one, just, quick question. We've discussed the IMET 
programs, International Military and Education Training. This 
is an area that I believe is very important. I would think that 
you would agree that this is one area where it is important 
that we continue to offer fledgling democracies and allies the 
access to our training. Is that----
    Secretary Rice. Yes, I'm very big supporter of the IMET 
programs, and we're trying to expand them and extend them into 
places where they don't currently exist, because being able to 
have our military engaged with other militaries really 
sometimes gives us a generational advantage down the road. We 
have a couple of cases where people have gone----
    Senator Bond. Right.
    Secretary Rice [continuing]. On to be president, so it's a 
good thing.
    Senator Bond. Yeah. Well, I--like SBY.
    Secretary Rice. Yes.
    Senator Bond. Final question. I--public diplomacy's very 
important. State Department is hindered by security concerns. 
Right now, this weekend, I was in Baghdad, and saw what the 
U.S. military is doing to repair and reopen the largest mosque, 
providing information, they're engaging local clerics and 
building relationships, they've established a women's council, 
helping local governments. The military is in a better--is in 
the position for security, but what we can do to help you get 
public diplomacy over the hurdles of security?
    Secretary Rice. Well, in places like Afghanistan and Iraq, 
it helps us to be able, through our Provincial Reconstruction 
Teams, to effectively embed with the military, and to provide 
protection in that way. In the case of Iraq, these new 
Provincial Reconstruction Teams that we have, we embed at the 
brigade command team level, and it allows us to be out with 
them. We have very good relations. I just got a very good 
letter from one of the heads of the civil affairs in the 
military, talking about how a couple of our officers who were 
really culturally sensitive were able to help when they go into 
a place, and they need to deal with women's affairs or--so, I 
think that's really our comparative advantage. We've got people 
who can embed. Sometimes they aren't people who have been in 
the Middle East or--but they've been in other conflict areas. 
So, having our officers in these Provincial Reconstruction 
Teams, out with the military, we think is one way to deal 
simultaneously with the security situation and to bring to bear 
our best assets.
    Senator Bond. Thank you very much, Madam Secretary. We are 
very grateful for your outstanding efforts, and wish you well.
    Secretary Rice. Thank you.
    Senator Bond. Thank you, Mr. Chairman.
    Senator Leahy. Thank you.
    Madam Secretary, let me ask you just a couple of questions 
about the Western Hemisphere Travel Initiative. I believe it's 
referred to as ``witty'' [WHTI], or, as a lot of our business 
and tourism industry call it, ``witless.'' It is, for those of 
us who live, as my wife and I do, less than an hour's drive 
from the Canadian border, and we see so many--so much of our 
business, our tourism, even families going back and forth 
across that border, and have, for generations, easily--here's 
what seems to have happened. Last week, the National Institute 
of Standards and Technology certified the ``vicinity read'' 
technology is appropriate for use in the so-called PASS Card as 
part of WHTI. I'm somewhat concerned that DHS has rushed that 
through and has overridden some technology concerns--just so 
they can use it at 39 of our busiest ports, it won't be 
necessary at the other 80 low-volume ports. But the State 
Department is going to have to pay to produce a card with a 
technology that's inconsistent with what's used in passports.
    Actually with security, it's inconsistent with our 
standards of security in this country, for privacy, just so 
somebody can pass through 39 ports out of 119, and do it 
faster. Even though, in my own State of Vermont, and Senator 
Gregg's State of New Hampshire, you wouldn't need it to cross 
some of the small crossing points, but you're still going to 
have to buy it. Out of the 39 ports of entry which you and DHS 
have agreed to upgrade for this, I believe 22 are on the 
southern border.
    What's the cost to the State Department to create the PASS 
Card and fully implement it?
    Secretary Rice. Senator, I'm not sure that I can give you a 
cost figure. I will get back to you with the specific cost 
figure.
    Senator Leahy. Well----
    Secretary Rice. But let me just say, we had a legal 
requirement----
    Senator Leahy. Well, the reason I ask, the administration 
wants to begin requiring a passport or a PASS Card within a 
year or----
    Secretary Rice. Yes.
    Senator Leahy [continuing]. Two of next year.
    Secretary Rice. Yes.
    Senator Leahy. Senator Stevens and I had passed 
legislation, which the administration has ignored, to push that 
back to June 2009----
    Secretary Rice. I'll----
    Senator Leahy [continuing]. For something that's going to 
be done within a year. I'd kind of like to know how much it's 
going to cost.
    Secretary Rice. I'll have to get you the specific number.
    [The information follows:]

    The passport card is adjudicated and issued by the Department of 
State. The year to date cost for the passport card initiative totals 
approximately $31 million. This includes $283,000 for initial passport 
card testing in fiscal year 2007 and $30.8 million for additional 
passport card testing, card stock and card printers in fiscal year 
2008, the first fiscal year in which we are accepting applications and 
printing cards. Our cost estimate for fiscal year 2009 is $34.5 
million, and for fiscal year 2010 is $43 million.

    Secretary Rice. But let me just say, Senator, we had a 
legal requirement, which was to have a verifiable way to--for 
people coming across the two borders--we were responding to the 
legal----
    Senator Leahy. I mean--whoa, whoa, whoa, whoa, whoa. Your 
reaction to this legal requirement is something that was 
slipped into a bill at the request of the administration 
without any hearings----
    Secretary Rice. No.
    Senator Leahy [continuing]. And nobody's come up to ask 
us--nobody's asked me, as chairman of the Judiciary Committee. 
Nobody's asked us here. Nobody's asked others. But we don't 
know what the cost is. We don't know how we're going to do it 
by June 2008. We know you've given us to June 2009 to work it 
out, but, ``The heck with that, we're going to do it by June 
2008, if it kills us, or all of you.''
    Secretary Rice. Senator, let me----
    Senator Leahy. Or hundreds of billions of dollars worth of 
trade and traffic across the U.S./Canadian border.
    Secretary Rice. Let me assure you, Senator, I believe the 
cost is known. I don't have the number at my fingertips----
    Senator Leahy. All right.
    Secretary Rice [continuing]. Right here. But the question 
of getting this done in 2008, we think it can be done in 2008. 
We believe that--I've talked with the people who are doing 
the--who have to oversee the validation of the technology. They 
believe that that validation of the technology can be done in 
time to make this PASS Card available. We've worked with DHS on 
publishing the rules, so that there can be comment about the 
rules for the Western Hemisphere Travel Initiative.
    Senator Leahy. When are they going to do that?
    Secretary Rice. The rule will be published--we're working 
now on some language concerning some issues that would be 
particularly, I would think, of interest to you, concerning how 
we would deal with the parental notification, so that we don't 
have the trafficking of children, for instance, across borders.
    Senator Leahy. Well, that raises a point. I mean, we've 
seen what happens when we rush into things and people screw up. 
An example I use, like TSA, where Senator Kennedy, stopped 10 
times or so, getting on a plane, because he's on a terrorist 
watch list. Now, I know all of us Irish look alike, but Ted's 
been taking that plane for years. Even the President called him 
to apologize. He said, ``Well, you know, I appreciate that, Mr. 
President. Just get me off the darn list.'' The President said, 
``I don't have that power.'' We've had a year-old child told to 
get a passport, because they're listed as a 45-year-old 
terrorist. Without making my usual comments for those of us who 
went to Catholic grade schools and high schools, we have 
Catholic nuns who are on that watch list. Now, we have 
differing views about whether it should be or not, but I 
suspect the ones who are on the watch list should not be. 
Department of Homeland Security has screwed up so badly in so 
many areas. I mean, why should we have any confidence that, in 
a year from now, when they don't even have the systems in 
place, they're going to do it right?
    Secretary Rice. Well, Senator, we've had very good 
cooperation with the Department, but the Department--the 
Department of Homeland Security actually is charged with 
determining the requirements. We then implement those 
requirements. The legislation----
    Senator Leahy. But the PASS Card won't be compatible with 
the computers that you use, for example, to read passports. 
Does that mean you have to have--are we going to get a bill for 
a whole second set of computers at every border crossing?
    Secretary Rice. Senator, the reason that we went to the 
PASS Card was that there was concern that if we required a 
passport of every American trying to travel across that border, 
that it would--the expense would be too great. As you note, 
there are people who go back and forth for hockey games or 
for----
    Senator Leahy. What's the PASS Card going to----
    Secretary Rice [continuing]. For whatever. So, the----
    Senator Leahy. What's the PASS Card going to cost?
    Secretary Rice. So, the PASS Card is a cheap alternative--
--
    Senator Leahy. What does it cost?
    Secretary Rice [continuing]. To the--I think, about--do we 
know the number? Thirty-five dollars or something like that, 
I've read? We'll get back to you with the exact number.
    Senator Leahy. Well, $35 is----
    Secretary Rice. But it--don't think that----
    Senator Leahy. A family of five----
    Secretary Rice. Senator----
    Senator Leahy [continuing]. Going shopping, ``Hey, guys''--
--
    Secretary Rice. Senator, don't get that----
    Senator Leahy [continuing]. ``Let's''----
    Secretary Rice [continuing]. Number in your head, because--
--
    Senator Leahy. Where do you get it?
    Secretary Rice. I----
    Senator Leahy. Where would you get it?
    Secretary Rice. Where would we get----
    Senator Leahy. This PASS Card.
    Secretary Rice. Where would you get the PASS Card? The same 
way you get any other card, through the United States 
Government. You apply for it, and you'll get it. But it's a 
cheaper----
    Senator Leahy. So, we have----
    Secretary Rice [continuing]. Alternative.
    Senator Leahy [continuing]. The efficiency of the United 
States Government standing behind us on this.
    [The information follows:]

    For first-time applicants, the card costs $45 for adult and $35 for 
children. For adults who already have a passport book, they may apply 
for the card as a passport renewal and pay only $20. The passport card 
has the same validity period as a passport book: 10 years for an adult, 
5 for children 15 and younger.

    Secretary Rice. Well, Senator, I'm not going to speak for 
the efficiency of the United States Government, but I will 
speak for the fact that this has been on the books--this law 
has been on the books, not since last year--we did have an 
extension from the time at which the legislation was made----
    Senator Leahy. Senator Stevens and I wrote that.
    Secretary Rice. We appreciate it very much. But we think we 
can meet this in 2008. We've worked with our Canadian 
counterparts, we've worked with our Mexican counterparts. The 
need for identification for air travel went, really, very 
smoothly. We've worked even with those in the Caribbean who had 
concerns about what might happen to their tourist industry if 
this did not go well.
    So, I think we have some record of having delivered, and we 
believe that we can validate----
    Senator Leahy. But the air traffic----
    Secretary Rice [continuing]. The technology and get it 
done.
    Senator Leahy [continuing]. Or the Caribbean traffic is a 
little bit different than the hundreds of thousands of people 
who go back across the border every single day, everything from 
going over to have lunch to doing business. I mean, you've 
encouraged the Canadians to apply for the NEXUS card, because 
they're interoperable with PASS. Is that correct?
    Secretary Rice. That's correct.
    Senator Leahy. But doesn't that require a background check?
    Secretary Rice. It will--that requires a background check, 
but----
    Senator Leahy. You know, I--I'm going to Ireland and--
Italy, briefly, at the end of this month. I can just see, if I 
had to go there, if they called me up and said, ``Well, we've 
got to do a background check on you before you go.'' I'd say, 
``The heck with that.''
    Secretary Rice. Senator, it's----
    Senator Leahy. I mean, how do we do background checks on--
--
    Secretary Rice. So, look at----
    Senator Leahy [continuing]. Canadians?
    Secretary Rice [continuing]. Fingerprints, look for--look 
in records to see if there's a problem. But I--but, Senator, 
let me just say, I really----
    Senator Leahy. Like----
    Secretary Rice [continuing]. Do believe----
    Senator Leahy [continuing]. Like Mahar?
    Secretary Rice. I believe we can get this done if we put 
the right resources to it. We believe we can get it done. DHS--
we are working very well with them. We did have a delay in 
determining which technology to use. That's now out for 
comment. The people who are working on this issue tell me we 
can validate the technology and have it ready to go by 2008. We 
think we ought to try to get this----
    Senator Leahy. So, in----
    Secretary Rice [continuing]. Requirement fulfilled.
    Senator Leahy [continuing]. In June 2008, none of our 
businesses, none of--nobody else is going to have to worry 
about having these PASS Cards for----
    Secretary Rice. Senator, I'm not going to----
    Senator Leahy. You're a very----
    Secretary Rice [continuing]. Comment on what we----
    Senator Leahy [continuing]. Optimistic person, Madam 
Secretary. You know, I----
    Secretary Rice. I am, Senator.
    Senator Leahy. I----
    Secretary Rice. I'm not going to tell you that there 
won't----
    Senator Leahy. I belong to----
    Secretary Rice [continuing]. Be problems.
    Senator Leahy [continuing]. A faith that believes in 
miracles, but even miracles----
    Secretary Rice. Senator, I understand, and we've worked 
very hard with our Canadian counterparts, we've worked very 
hard with our Mexican counterparts, but we have a legal 
requirement, and we're trying to meet it. We're trying to meet 
it in a way that is going to make us safer on the border, but 
doesn't hold people up who need to get back and forth.
    Senator Leahy. Madam Secretary, you say we have a legal 
requirement. Nobody from this administration has asked anybody 
up here to do anything to modify or change the requirement the 
administration slipped into a law, or was slipped in at their 
request. Makes me think of other things that have been done 
like that, one that allows for the easy firing of attorneys--of 
U.S. attorneys, for example. The--these are things--saying a 
legal requirement, with all due respect, is a bit of a copout, 
because you could ask for changes, if you want. Obviously, 
you've heard from the U.S. Chamber of Commerce and others, with 
their concern. I think there are justifiable concerns on this. 
I also am concerned about a signal we send to a country that 
has been a great friend, it becomes almost cliche to speak of 
the longest unguarded frontier in the world, but it is true--a 
friend and ally and supporter, our biggest trading partner, I 
believe. I believe it still is. We should talk some more about 
this.
    If Senator Gregg will allow me, I'm just going to mention a 
couple of quick things, then I'll yield to you whatever amount 
of time you want.
    Much of your written testimony is devoted to Iraq, 
Afghanistan, and the Middle East, and, at the very end, you--
and I understand the importance of those--at the very end, you 
mention other developing nations and vulnerable populations.
    In Nepal, a country where years of fighting has cost 
thousands of lives, there's a chance to end the Maoist 
insurgency, replace feudalism with democracy. But you propose 
to cut our aid.
    Democratic Republic of the Congo, a huge country, with 
every conceivable problem one can think of, has had its first 
elections in 40 years. I think it's going to influence central 
Africa for the next 20 years. Yet, we're proposing to cut their 
aid.
    Vietnam, a country of 80 million people, seeking closer 
ties, and the President went there last year, but, with the 
exception of HIV and AIDS, proposes to cut our aid. I've seen 
what even a little aid can help, the Leahy War Victims Fund 
that is used there.
    Congress has worked hard to increase funding for global 
environmental programs, protect forests in the Amazon, central 
Africa, where they're being destroyed, but you propose slashing 
funding for these programs and downgrading USAID's Mission in 
Brazil, the most populous country in the hemisphere, after the 
U.S. USAID's budget--operating budget is cut. I mean, I'm just 
worried. It seems like there's this huge vacuum cleaner in Iraq 
and Afghanistan and I can debate what works and what doesn't 
work there, sucking up all this money, and these other places 
are going to create either problems or opportunities for us for 
the next generation, but we're cutting back our money.
    Secretary Rice. Senator, this administration has almost 
tripled official development assistance since the President 
came to power. We have quadrupled assistance for Africa, and 
doubled assistance for Latin America. You can look at any given 
year, and whether we think there are specific programs that 
need funding or not in a particular place--and, in Brazil, for 
instance, yes, we have moved to a different kind of 
relationship with Brazil, which is a large and increasingly 
prospering country, where we're engaged in more partnerships 
with Brazil than direct foreign assistance. But the numbers 
really do speak for themselves when you look at the commitment 
of foreign assistance by this President to the--to development.
    Senator Leahy. I've publicly praised the President----
    Secretary Rice. We appreciate----
    Senator Leahy [continuing]. As you know----
    Secretary Rice [continuing]. That.
    Senator Leahy [continuing]. On a number of areas, where he 
has, and where I have supported him. But the main increases are 
in AIDS and in the Millennium Challenge, and we still have 
questions that have been asked by both Republicans and 
Democrats, what the Millennium Challenge has accomplished.
    The point is, in a number of these very specific areas, 
where we could be helpful, we've had private philanthropists 
who have given more money, whether it's been the Gates 
Foundation or others. AIDS has been our biggest increase, and 
that's--you've had strong bipartisan support for money there. 
We're also doing things, as you know, in the Judiciary 
Committee to make it more possible to change our patent laws 
and copyright laws and what not, to move drugs into these areas 
at a much lower cost, both to us and to the receiving 
countries, who are all working together on these.
    But I worry about--whether it's Congo, Darfur, all these 
others--so----
    Secretary Rice. Well, Senator, we're putting--in Africa--
for instance, in Latin America, the doubling of aid is not MCC 
aid. That's less MCC aid. We really have put a great deal of 
financial--of foreign assistance into these places. Yes, 
sometimes a place will--like Brazil, will, in a sense, change 
the kind--we will change the kind of relationship that we have 
with a Brazil. But if you look at the amount of money that is 
going into the Great Lakes region, the amount of money in 
Africa, the amount of money that is going into Liberia, the 
amount of money that is going into countries in Latin America, 
this administration, thanks to the support of the Congress, has 
been extraordinarily generous.
    We are trying to make better use of the resources, to go 
back to a point that we talked about early on, by being certain 
that the USAID and the State Department funds can create a 
total picture of what's going into any particular country. But 
the increases that I'm talking about are not in MCC--for 
instance, for Latin America.
    Senator Leahy. Secretary Rice, I've gone over my time, and 
you and I should probably chat about this a little bit further. 
You've--as I said, you've always been available, when I've----
    Secretary Rice. Certainly. Anytime.
    Senator Leahy [continuing]. When I've called, and we will 
talk.
    Senator Gregg?
    Senator Gregg. Thank you, Mr. Chairman.
    I wish to join you in your skepticism about the border 
cards crossing into Canada. Before I had the good fortune to 
become ranking member of this subcommittee, I was chairman of 
the Homeland Security Subcommittee, and this was a major issue. 
I think the jury's out on this technology. The responsibility 
for it is also--there's no clear line of responsibility, in my 
opinion. So, we've--we're going to need to--I'm very concerned 
that we're going to see a replication of the event when we 
stood up TSA, and it was basically, as the chairman alluded to, 
a real disruption in traffic, commercial traffic and 
individuals' traffic and in the lifestyle of Americans and 
Canadians.
    So, we should do this through demonstration exercises. We 
should not just say, ``x date, we're going to move to this 
program.'' We should try a demonstration exercise here, a 
demonstration exercise there, and work our way up to the 
Freedom Bridge in Detroit before we suddenly arrive there one 
day and say, ``This is the way it has to be.'' So, I do hope 
we'll come at that in a different way. I don't--it's not really 
your responsibility, but you're drawn into the exercise.
    On another subject, I'd be interested in your thoughts on 
what's happening in Turkey. This is a key country for us. 
They've always been a very strong ally. They're somebody we 
rely on in the region for stability. Yet, they appear to be 
going through, as many of those states are in that region, a 
resurgence of religious movement that was inconsistent with 
their, certainly, 20th century history. What do you see 
happening there? What should be our role? Obviously, it's 
internal domestic event, but what should----
    Secretary Rice. Well, I think our role has to be to stand 
for the democratic processes there, the constitutional 
processes. The government that was elected by the people there 
has actually been a government that's been dedicated to pulling 
Turkey west toward Europe. It has been the policy of that 
government, even though it is led by leadership from the AKP 
Party, which has Islamist--Islamic roots--it has been trying to 
integrate into Europe. It's been changing its laws to try to 
become consistent with European Union requirements for laws on 
individual and religious freedom and other issues of that kind. 
So, I think it's very important that we just--that we support 
their democratic processes. They are going to have new 
elections, and to stand for those elections to take place in 
the way that we would expect elections to take place in any 
democracy will be very important.
    But I think the history of the last few years has been of a 
good relationship with Turkey, probably stronger support, for 
instance, for Turkey--from Turkey for the new democracy in Iraq 
than one might have expected, given the history of Turkey in 
Iraq. Good support for policies in Afghanistan. And, of course, 
they're a strong NATO member.
    But, again, I would just note that the last few years have 
actually not been years in which one could say that Turkey was 
pulling away from its European traditions, but, I think, trying 
to move more actively toward it, which is why we've also been 
very supportive of Turkey's efforts to European Union 
accession.
    Senator Gregg. Wouldn't one of the potential consequences, 
which would be fairly dramatic and unfortunate, of leaving Iraq 
precipitously and having a breakdown in the stability, to the 
extent we can maintain it in Iraq, wouldn't it be that there 
would be a huge pressure relative to the Kurdish relationships 
with Turkey and, potentially, a very significant military 
concern there?
    Secretary Rice. Absolutely. Because Iraq sits as it does on 
the fault lines between Shi'a and Sunni, and with Kurds to the 
north, I think if you had a vacuum there, you would see that 
there--it would be pretty irresistible for Iraq's neighbors to 
try and secure their interests by meddling in Iraq's affairs.
    Now, if you have a Iraq that's able to manage its affairs, 
then I think those neighbors will be more likely to simply 
cooperate with that stable government. That was very much the 
message, Senator, when I was at Sharm el Sheikh for the 
neighbors conference, that the Iraqis need, very much, to 
pursue urgently their national reconciliation and to bring the 
various groups together, but the neighbors need to allow them 
the space in which to do that; the neighbors need to be devoted 
to helping stabilize Iraq, not destabilize it; and the 
neighbors need to have, kind of, rules of the road, which is 
really what Sharm el Sheikh was about, about they're going to 
deal with a democratic and sovereign government in Iraq. 
Because I think if we were to leave precipitously, we would 
encourage not just chaos in Iraq, but we would encourage chaos 
in the region, as well.
    Senator Gregg. On another subject, and then I'll--I know 
the Senator wants to move on--but independent of the issue of 
leadership right now, which is obviously in flux, for a variety 
of reasons, at the World Bank, do you believe the World Bank 
should be taking a different tack than what it's been taking in 
the last 20 years, that it should no longer--that it should 
restructure itself and refocus itself relative to poverty and 
alleviating poverty and addressing nations and--how it 
prioritizes nations, and how it prioritizes regions that it 
focuses on?
    Secretary Rice. Well, we've had a very good working 
relationship with the World Bank, under the leadership of Paul 
Wolfowitz, and, before that, under the leadership of Jim 
Wolfensohn. I do think that the World Bank has been--has had an 
important anticorruption agenda. That's extremely important. I, 
myself, think that there needs to be discussion about how the 
World Bank's assets can best support what is a very changing--a 
changing profile of assistance to the developing world, where, 
for instance, we are learning that, in parts of the world, the 
biggest problem may be infrastructure development, issues like 
roads or electricity, and looking at that.
    I think, also, for the World Bank, the fact that there are 
a number of countries that have graduated should be considered 
to be a very good thing, and to perhaps look, as has been the 
case when we've looked at debt relief, to what we can do for 
the poorest of countries that are not capable of dealing with 
debt--that often was brought to them by dictators or bad 
regimes--than leaving young democratic regimes with 
overwhelming debt. So, for instance, we had a joint donors 
conference for Liberia, just a little while ago, in which 
their--first and foremost, their biggest concern is to get debt 
relief.
    So, I think there is an agenda out there for the World 
Bank, but, frankly, we are, in a sense, the World Bank, as 
well, since we're all members of the board and contributors, 
and it is a discussion that needs to go on, and needs to be, I 
think, accelerated among all of the big international financial 
institutions, because the landscape for development is 
changing.
    Senator Gregg. Well, I just think we need to put some 
pressure on them to reduce their overhead and to actually get 
the money to where the rubber hit the road, as versus have it 
used up in the people between the road and the rubber.
    Thank you, Mr. Chairman.
    Senator Leahy. Thank you.
    I will submit questions. But, you know, the Republican 
leader, Senator McConnell, and I have joined together for years 
on an amendment conditioning a portion of our aid to Serbia in 
its cooperation with the War Crimes Tribunal at the Hague, 
especially to transfer Ratko Mladic and Radovan Karadzic. The 
Serb army helped protect Mladic. He remains at large. They say 
that Karadzic is not in Serbia, but suggest he--they know where 
he is. I hope we'll continue to make clear to them that the 
United States will oppose their entry into NATO and other 
regional economic and security organizations until we find out 
what's going on. I'm going to ask you questions.
    I'll submit questions about Cuba, which is listed as a 
state sponsor of terrorism. Your report said they did attempt 
to track, block, or seize terrorist assets, and I want to know 
what evidence we do have of terrorist assets actually being 
there. They did not undertake counterterrorism efforts. I would 
hope that is not the criteria, by itself, to make somebody a 
state sponsor of terrorism because they don't undertake 
counterterrorist activities. We have an awful lot of friendly 
nations that don't even have the ability to do that, would be 
on the list otherwise.
    Then, your report says they continue to provide safe haven 
for members of Colombian rebel groups, but the Colombian 
Government says they've been a facilitator in talks between 
these groups and the Colombian Government. I just want to know 
which it is.
    I have questions on aid to Russia, because of a whole host 
of problems there that we don't have to go into.
    I've got a Middle East question about both the wall and the 
property held by Israeli settlements, and whether that's theirs 
or Palestinians'.
    Peacekeeping force in Darfur--as you can see, quite a few 
things. But I would hope you'll ask your staff to get back to 
us as quickly as possible on those questions.
    Secretary Rice. Of course, Senator, I will.
    Senator Leahy. Thank you.
    Madam Secretary, thank you very much. I suspect you and I 
will be on the phone a lot in the coming weeks.
    Secretary Rice. Anytime, Senator. I look forward to your 
call.
    Senator Leahy. Thank you.
    Secretary Rice. Thank you very much.

                    ADDITIONAL SUBMITTED STATEMENTS

    Senator Leahy. We have received statements from the 
Alliance for International Educational and Cultural Exchange 
and the United States Conference of Catholic Bishops and 
Catholic Relief Services that will be made a part of the record 
at this time.
    [The statements follow:]
 Prepared Statement of the Alliance for International Educational and 
   Cultural Exchange and the Association for International Practical 
                            Training (AIPT)
    As Chair of the Board of the Alliance for International Educational 
and Cultural Exchange, I appreciate the opportunity to submit testimony 
in strong support of the budget request of $486.4 million for the 
educational and cultural exchange programs administered by the 
Department of State's Bureau of Educational and Cultural Affairs (ECA) 
in fiscal year 2008. If additional funds are available, the Alliance 
urges an increase in the investment in State Department exchange 
programs to $500 million to further strengthen U.S. public diplomacy.
    The Alliance comprises 78 nongovernmental organizations, with 
nearly 8,000 staff and 1.25 million volunteers throughout the United 
States. Through its members, the Alliance supports the international 
interests of 3,300 American institutions of higher education. The 
Alliance is the leading policy voice of the U.S. exchange community. We 
look forward to continuing our productive working relationship with the 
subcommittee, and appreciate the opportunity to offer this testimony.
    U.S. ambassadors consistently rank exchange programs among the most 
useful catalysts for long-term political change and mutual 
understanding, and as our experiences since September 11, 2001, 
demonstrate clearly, we need public diplomacy and exchanges more now 
than ever. Poll after poll continues to indicate rising anti-
Americanism, even in nations we count among our closest allies. We must 
work to build trust and understanding for our people and our policy 
goals not just in the Muslim world--an effort that is of critical 
importance--but around the globe. To defeat terrorism and address other 
critical global issues, we will need the help of our friends and allies 
in every region of the world.
    The Alliance therefore urges the subcommittee to fund the 
Department of State's exchange budget at $486.4 million in fiscal year 
2008. If additional funds are available, we urge you to increase the 
allocation to $500 million in order to deepen the public diplomacy 
impact of these important programs and to sustain and strengthen the 
Department's core exchange programs worldwide while continuing to 
develop new and innovative proposals. A $500 million level of spending 
will allow robust funding for targeted, meaningful growth in every 
region of the world for the State Department's core exchange programs, 
provide additional resources for Islamic exchange, sustain funding for 
Eurasia and Eastern Europe, fund the administration's request for a new 
initiative for Latin America, and encourage the development of new and 
innovative programs worldwide, including the National Security Language 
Initiative (NSLI).
                         core exchange programs
    The following data define the context for increased exchange 
program funding:
  --A recent BBC poll shows that just 29 percent of those polled in 25 
        countries feel the United States exerts a mainly positive 
        influence on the world, compared with 40 per cent 2 years ago. 
        We clearly are losing ground in world public opinion. Exchanges 
        are a proven--means to change that impression. (*BBC World 
        Service poll of 26,000 people in 25 countries--mostly non-Arab)
  --A Congressional Research Service review of 29 reports on public 
        diplomacy revealed that the most common recommendation of these 
        reports was to increase exchange funding.
  --State Department evaluations repeatedly show that foreign exchange 
        participants complete their programs in the United States with 
        enhanced positive impressions of the United States, its people, 
        and its values.
    The administration has requested $486.4 million in exchange program 
funding for fiscal year 2008. The Alliance urges the subcommittee to 
support the request, and if possible, to increase it to $500 million. A 
funding level of $500 million will allow for meaningful growth in the 
Department of State's time-tested exchange programs that remain at the 
core of our efforts to build mutual understanding and respect between 
the United States and critical nations around the world. These well-
established programs--Fulbright and other academic programs, 
International Visitor Leadership, and citizen exchanges--continue to 
demonstrate their relevance and effectiveness in a rapidly evolving 
world.
    The Fulbright Program has unique value in deepening mutual 
understanding between the United States and 150 countries. Visiting 
Fulbright students report the program's deep impact: 99 percent say the 
program increased their knowledge and understanding of the United 
States and its culture; 96 percent shared their Fulbright experiences 
in their home country through media or community activities; 89 percent 
report that their Fulbright experiences allowed them to assume 
leadership roles after their programs. U.S. Fulbright students strongly 
agree (97 percent) that the program strengthens bilateral 
relationships, and deepened their understanding of their host country 
(100 percent). By several indices, American Fulbright students say the 
program enhanced their leadership skills. Upon returning, U.S. 
Fulbright scholars make their campuses and communities more 
international: 73 percent have incorporated aspects of their Fulbright 
experience into courses and teaching methods. Visiting Fulbright 
scholars are also likely to incorporate their experiences in America 
into their professional lives at home: nearly two-thirds of those 
surveyed said that they ``broadened the international aspects of their 
teaching and research in general'' and ``became . . . a resource for 
their colleagues with regard to knowledge and skills learned.''
    Approximately 279,500 United States and foreign nationals have 
participated in the Fulbright Program since its inception over 50 years 
ago. The Fulbright Program awards approximately 8,000 new grants 
annually. In 2007, over 6,000 U.S. students and young professionals 
applied for 1,400 available Fulbright grants, demonstrating the desire 
of U.S. citizens to be internationally engaged. One hundred and fifty 
students will receive on-the-ground training in critical languages in 
advance of their research grants. Of over 2,000 incoming foreign 
students from 135 countries, 300 are teaching their native languages at 
U.S. colleges and universities. Other recent program changes include: 
the cutting-edge research conducted by New Century Scholars, which 
provides deep focus on a single global problem by leading scholars from 
around the world; global expansion of the Fulbright Language Teaching 
Assistants for U.S. Students; and enrichment programs throughout the 
United States exposing students from abroad to local communities 
throughout the United States.
    Other critical academic exchange programs include the Humphrey 
Fellowships Program, which provides powerful academic and professional 
training experiences for professionals in the developing world; 
Overseas Educational Advising, through which prospective foreign 
students receive reliable information about American higher education 
and professional assistance in the application process; the Gilman 
International Scholarship Program, which enables American students with 
financial need to study abroad; and English teaching and U.S. Studies 
programs, designed to enhance understanding of American society and 
values.
    The International Visitor Leadership (IVLP) program continues to be 
ranked by many U.S. ambassadors as their most effective program tool. 
This results-oriented program allows our embassies to address directly 
their highest priority objectives by bringing emerging foreign leaders 
to the United States for intensive, short-term visits with their 
professional counterparts. The program also exposes visitors to 
American society and values in homes and other informal settings.
    Thirty-three current heads of government and chiefs of state are 
alumni of the IVLP, including Prime Minister Tony Blair of the United 
Kingdom, President Hamid Karzai of Afghanistan, and Prime Minister Ehud 
Olmert of Israel. Georgian President Mikheil Saakashvili is an alumnus 
of the IVLP and Muskie programs, and many of his cabinet members either 
attended a university in the United States or participated in exchange 
programs. Saakashvili and his colleagues were among the leaders of the 
peaceful ``Rose Revolution'' in 2003 and Georgia's subsequent 
transition to democracy.
    According to State Department evaluations, IVLP alumni returned to 
their home countries with positive feelings about democratic values, 
overwhelmingly agreeing with the following statements: citizens should 
have equal rights (99 percent); rule of law is fundamental to democracy 
(99 percent); free and fair elections are cornerstones of democracy (98 
percent); individuals and organizations have the right to free speech 
(97 percent); and independent media are important (95 percent).
    Citizen exchanges continue to engage American citizens across the 
U.S. in productive international activities. In addition, these 
programs leverage their relatively modest federal dollars into 
significantly more funding through the participation of local 
communities, schools, businesses, and nongovernmental organizations. 
Increased funding for citizen exchanges would permit an expansion of 
these highly cost-effective activities, particularly in the critical 
area of capacity building in communities across the United States There 
is no doubt that the United States needs more ``citizen diplomats.''
                           regional programs
    The Alliance strongly supports growth in exchanges world-wide. Both 
public opinion polling and the global nature of most current issues--
e.g., terrorism, the environment, public health--demand that we 
strengthen our public diplomacy in all world regions. In this brief 
testimony, however, we wish to draw attention to three particularly 
critical areas.
    While the need for exchanges is worldwide, increased engagement 
with the Islamic world is particularly critical as we seek to enhance 
our national security and build understanding, trust, and a sense of 
shared interests between the people of the Islamic world and the 
American people.
    The State Department has created a continuum of programs to reach 
out to Muslim participants, particularly diverse and underrepresented 
populations. The Department has instituted a very successful program of 
micro-scholarships to stimulate in-country English study by teenagers. 
In addition, the Youth Exchange and Study Program (YES), also known as 
the Cultural Bridges Program, brings high school students from the 
Islamic world to live with American families and attend American 
schools for an academic year. For the 2006-07 academic year, the 
program includes nearly 675 students from 25 countries, the West Bank 
and Gaza. We urge funding of $25 million for YES, which would allow the 
program to reach its long-term goal of 1,000 students.
    The Department has devised a variety of undergraduate exchanges 
including summer institutes, community college programs, and semester 
and year-long programs at four-year institutions, and expanded the 
Humphrey fellowships for the Muslim world. Under the National Security 
Language Initiative (NSLI), the Department has used summer institutes 
and existing programs such as Fulbright and Gilman to increase U.S. 
capacity in Arabic, Farsi, and Indic languages. The International 
Visitor Leadership Program has targeted ``key influencers'' in 
predominantly Muslim nations, bringing hundreds of clerics, 
journalists, and women and student leaders to the United States for 
programs emphasizing tolerance, interfaith dialogue, and diversity. 
These programs have had remarkable and consistent impact, and U.S. 
embassies would welcome many more if funding were available.
    We strongly support the Administration's initiative to focus 
additional exchanges on Latin America. The Bureau of Educational and 
Cultural Affairs (ECA) intends to apply its continuum approach to Latin 
America to reach out effectively to non-elite groups in this very 
important region. Program elements would include micro-scholarships for 
English language study, summer institutes for student leaders, an 
expanded Youth Ambassadors program, ``supplementary scholarships'' 
covering incidental and travel expenses to allow talented but needy 
students to accept financial aid offered by U.S. colleges and 
universities, and scholarships to attend U.S. community colleges.
    In addition, the Alliance supports continued funding for exchanges 
with the countries of Eurasia and Eastern Europe at no less than the 
fiscal year 2007 levels. Funding in this area of the world has 
dramatically declined in the last several years even as on-going 
transition and challenges to democratic change grab international 
headlines. The cuts for these programs have resulted in reductions of 
more than 50 per cent for some programs and the elimination of others.
    Exchange programs have provided sustained opportunities to expose 
future leaders to American civil society and values, and to foster 
personal and professional relationships between Americans and citizens 
of the region. We must continue to employ exchanges to engage with a 
broad range of future leaders in these critical nations. Elections in 
recent years in Ukraine and Georgia are a testament to the need to keep 
active programs in this region. The peaceful government transition in 
Georgia demonstrates the ongoing value of vibrant exchange programs in 
this region. As political change continues to occur, the Alliance urges 
sustained U.S. engagement throughout the region.
    Beyond the appropriations process, we wish to recognize and commend 
ECA for the creation of a new internship category within the Exchange 
Visitor Program. The opportunity for internships with U.S. companies, 
universities, and organizations will likely prove very attractive 
around the world, and will bring many students to the United States for 
substantive experiences at virtually no cost to the taxpayer. The State 
Department developed this creative regulatory package, now pending 
approval at OMB, in close consultation with the exchange community and 
private sector, and we believe the Department is to be commended for 
this initiative, which will enhance our public diplomacy with a new 
generation of leaders around the world.
    Thank you again for this opportunity to voice the Alliance's 
support for a robust appropriation for the educational and cultural 
exchange programs administered by the Department of State's Bureau of 
Educational and Cultural Affairs in fiscal year 2008. We look forward 
to working with the Subcommittee throughout the year ahead to ensure 
that the United States continues to vigorously support the traditional 
exchange programs that have proven their success for the past 50 years, 
while also developing new and innovative programs.
                                 ______
                                 
Prepared Statement of the United States Conference of Catholic Bishops 
                      and Catholic Relief Services
    The United States Conference of Catholic Bishops (USCCB) and 
Catholic Relief Services (CRS), the relief and development agency of 
the U.S. Catholic Bishops, thank the Subcommittee for the opportunity 
to present testimony on the fiscal year 2008 International Affairs 
appropriations process.
    Our Nation's commitment to foreign aid is particularly important at 
this time when our country's global role is a focus of intense 
discussion. We appreciate this opportunity to share the values 
contained within the Church's social teaching that underline our 
nation's moral responsibility to those in need around the world. In 
addition, our perspective is informed by the practical experience of 
the relief and development work of CRS in 99 countries throughout the 
world.
                          specific priorities
    Our specific priorities for international affairs appropriations in 
fiscal year 2008 seek to uphold human life and human dignity, support 
the development of poor nations, foster peace and improve our national 
and global security. They include:
  --$3 billion for the Millennium Challenge Corporation (MCC);
  --$2 billion for Title II Food Aid;
  --$5.78 billion (including funding from Health and Human Services 
        appropriations) for morally and culturally responsible programs 
        to combat HIV/AIDS, malaria and tuberculosis, with particular 
        attention to Africa;
  --substantial funding for humanitarian needs in Iraq, in addition to 
        $2.1 billion for reconstruction;
  --$1.1 billion for reconstruction needs in Afghanistan;
  --priority funding for economic and social development in post-
        conflict countries transitioning towards better governance, 
        including: Haiti, Liberia, the Democratic Republic of Congo 
        (DRC), Sierra Leone (with substantial portions of the funding 
        channeled through proven partners in the NGO community), as 
        well as for continued implementation of the Comprehensive Peace 
        Agreement in Southern Sudan;
  --full funding for contributions to U.N. peacekeeping activities, 
        especially in Sudan, Lebanon, the DRC and Haiti;
  --an increased proportion of U.S. aid dedicated to social and 
        alternative agricultural development and to victim assistance 
        in Colombia, and strict human rights conditions on all U.S. 
        military aid to Colombia and the Philippines;
  --increased funding for the Migration and Refugee Assistance (MRA) 
        and Emergency Refugee and Migration Assistance (ERMA) accounts 
        to bring total funding to $1.135 billion and $90 million 
        respectively to meet the needs of an ever-increasing global 
        refugee population;
  --$1.06 billion for the International Development Association (IDA) 
        for debt cancellation and poverty reduction programs in the 
        world's poorest countries; and
  --at least $207 million for debt relief primarily for the DRC and 
        Liberia whose huge debt burdens create a major obstacle to the 
        efforts of their new democratically-elected governments to 
        restart economies ravaged by war.
    Mexico City Policy.--We reiterate our strong support for retaining 
the Mexico City policy, which prevents our foreign aid program from 
being misused to subsidize organizations that perform or promote 
abortions in developing nations. The Kemp-Kasten provision preventing 
the support of organizations involved in coercive population programs 
should also be retained. Under this provision, funding is denied to any 
organization determined by the President to be supporting or 
participating in the management of a program of coercive abortion or 
involuntary sterilization. To ensure that the President is free to make 
this determination the subcommittee should not earmark funds to the 
United Nations Population Fund (UNFPA), whose support for the coercive 
program in the People's Republic of China has rendered it ineligible 
for U.S. funds in recent years.
                   foreign aid: our moral imperative
    Solidarity with those in need expresses a common hope for a stable 
and peaceful world. Despite the effectiveness of many U.S. foreign aid 
programs, much more needs to be done to respond to this challenge. 
Before us there is an opportunity to use our nation's wealth and 
resources to uplift human life and dignity around the globe and to work 
for the common good.
    In this year's address to the Diplomatic Corps accredited to the 
Holy See, Pope Benedict XVI specifically focused on the level of 
international aid committed by the richer nations. He said, 
``[I]nitiatives have been undertaken to which the Holy See has not 
failed to pledge its support, at the same time reiterating that these 
projects must not supplant the commitment of developed countries to 
devote 0.7 percent of their gross domestic product to international 
aid.'' \1\
---------------------------------------------------------------------------
    \1\ Address of His Holiness Pope Benedict XVI to the Diplomatic 
Corps Accredited to the Holy See for the Traditional Exchange of New 
Year Greetings, January 8, 2007.
---------------------------------------------------------------------------
    Achieving authentic human development requires that the basic human 
needs of all are met; that social, cultural, economic and political 
rights are protected; and that all peoples participate in shaping their 
own future. Meeting these moral obligations will help our nation build 
a safer and more secure world. As the late beloved Pope John Paul II 
said: ``Development ultimately becomes a question of peace, because it 
helps to achieve what is good for others and for the human community as 
a whole.'' \2\
---------------------------------------------------------------------------
    \2\ Pope John Paul II, Development and Peace, January 1, 1987.
---------------------------------------------------------------------------
    Development is not just an aspiration but a right common to all 
people. It corresponds, then, to a duty imposed upon all of us, as 
peoples and nations, to collaborate in development, and in this, it is 
the responsibility of those who are stronger and richer to seek out, 
assist and empower those who are less so.
    This teaching informs the work of two agencies of the United States 
bishops: Migration and Refugee Services (MRS) and Catholic Relief 
Services (CRS). MRS works to address the needs of those who flee terror 
in their homeland and seek international protection, and helps settle 
one-quarter of the refugees who enter the United States each year. CRS 
works in 99 countries throughout the world, including more than 30 in 
Africa, and provides programs to address HIV/AIDS, health, education, 
building civil society, food security, agriculture, emergency relief 
and peace building. With 60 years of development experience, CRS knows 
firsthand both the tremendous needs and also the great potential of 
millions who live in poverty. CRS knows from experience how effective 
development programs can bring very real hope for prosperity and peace.
    With a greater awareness that our well-being as Americans is 
intrinsically linked to the well-being of those who live far from our 
shores, foreign aid is increasingly seen by many as capable of lifting 
up the weak and empowering people to realize their own dignity and 
destiny at the same time that it improves global security and peace.
           foreign aid reform and transformational diplomacy
    USCCB and CRS have repeatedly focused on the importance of the 
effectiveness of foreign aid programming with the Committee. We welcome 
efforts to promote coherence in foreign assistance through a country-
driven process that addresses duplication, complex delivery and 
procurement procedures and other inefficiencies. We acknowledge the 
relationship of development programs to broader strategic objectives, 
and have been monitoring the reform process closely since Secretary 
Rice's articulation of the doctrine of transformational diplomacy in 
January 2006. However, we have always maintained that the interests of 
poor and vulnerable people lie at the foundation of all foreign aid. We 
welcomed, therefore, the modified Framework for U.S. Foreign Assistance 
Programs that now includes the goal of ``reducing widespread poverty.''
Country-Focused, Objective-Based Framework: An Important First Step 
        Forward
    Now that poverty reduction has become an explicit goal of foreign 
aid, we look forward to programs that give priority to the needs of the 
poor and vulnerable even for countries with limited relationships with, 
or little strategic importance to, the United States. The adoption of a 
country-focused approach and framing aid programs in terms of specific 
objectives are welcome improvements. We hope that the categorization of 
countries in the Foreign Aid Framework will help identify more clearly 
the specific challenges to progress in reducing poverty, promoting 
human development and building security in troubled parts of our world. 
We thus believe the new assistance framework represents an important 
first step in foreign aid reform, a step we hope will be followed by 
broader and deeper reforms.
Concentration of Bilateral Aid in Too Few Countries
    We note that 40 percent of the entire bilateral aid program is 
concentrated in six countries important to U.S. strategic interests 
related to either the ``War on Terrorism'' or the ``War on Drugs.'' 
Only two of the six (Afghanistan and Pakistan) are classified by the 
World Bank as low income. While we strongly support reconstruction and 
peace-building in Iraq and Afghanistan, we believe that a greater share 
of foreign aid should be assigned particularly to the very poor among 
the more than 150 other developing countries. If U.S. strategic 
interests will continue to require a major injection of foreign aid 
resources into the six priority countries, and if poverty reduction is 
in fact to be a fundamental objective of U.S. foreign aid, this 
inevitably means that the overall foreign aid budget must be 
substantially increased.
Avoid Trade Offs in Funding
    With regard to the composition of country programs, we are pleased 
that there has been a substantial increase over fiscal year 2006 levels 
for activities related to the long-term development objectives:
    Governing Justly and Democratically, Investing in People and 
Economic Growth. At the same time we note that this increase is 
attributable almost entirely to increases in funding for combating HIV/
AIDS and other infectious diseases and for the Millennium Challenge 
Corporation. We support robust funding for these important initiatives, 
but we believe that a country-focused approach would require 
complementing HIV/AIDS funding with resources for other sectors. While 
HIV/AIDS funding for Africa, for example, is being increased, funding 
for basic education, safe water and economic growth on the continent 
actually decline from fiscal year 2006 levels.
    We support full funding of the Administration's request for $3 
billion for the MCC. Any reduction in funding would undermine the MCC 
as channel of support for well-governed countries through multi-year 
funding. Disruption in this program through insufficient funding would 
pose serious setbacks for countries that have worked hard to prepare 
eligibility, in many cases by enacting difficult policy reforms. The 
United States must continue to plays its part.
    At the same time, the MCC should not be funded at the expense of 
the large number of non-MCC low income countries with critical needs, 
including those emerging from conflict and moving towards better 
governance, such as Liberia, Haiti, the DRC and Sierra Leone. Funding 
for basic education and other sectors critical to poverty reduction 
should be increasing. At a minimum, the President's promise that MCC 
resources will be in addition to, and not in substitution for, other 
development and humanitarian funding should be kept.
Planning Cannot be Concentrated in Washington
    Finally, we are concerned by initial indications that the new 
process for determining priorities has resulted in decisions that are 
the byproduct of top-down decision making, as opposed to a truly 
country-driven process. Our counterparts at USAID missions have 
expressed frustration with the lack of meaningful participation in the 
planning process. We understand the abbreviated timeline involved this 
year, and the tremendous work done to coordinate this new process; but 
the decision to base program and budget decisions almost entirely on 
strategic priorities crafted at Headquarters risks failing to 
incorporate the rich expertise and experience developed in the field.
    A related concern is the absence of a clearly defined role for 
civil society. Adopting a country-needs focus highlights the need to 
take into account the experience and insight of local organizations 
closest to the reality that foreign aid is intended to impact. While 
the host government has the central role in designing and implementing 
a country's development policies and programs, close collaboration is 
needed also with civil society organizations, especially those who work 
on a daily basis with the poor and marginalized and are thus in a 
unique position to give voice to the needs of the weakest members of 
society. CRS, through its network of partners in 99 countries, has the 
ability, through direct relationships with target beneficiaries, to 
provide USAID missions with information about the needs of the people 
most directly affected.
    Experience both in Washington and in the field reveals an often 
deficient process of consultation. In the absence of close 
collaboration with civil society and governments in both planning and 
implementing foreign assistance programs, aid programs will fail to 
reach their goal of reducing widespread poverty. We urge you to ensure 
that robust consultation--especially with civil society--be not only 
mandated for foreign assistance programming, but meaningfully 
undertaken by U.S. Government agencies involved in the entire process.
                                 ______
                                 
   Prepared Statement of Hon. Douglas Bereuter, President, The Asia 
                               Foundation
    Mr. Chairman & Members of the Subcommittee: I will begin my 
testimony as President of the Asia Foundation, with a personal 
perspective which I thought the Members and staff may find interesting 
since I served 26 years in the U.S. House, 20 years on the Foreign 
Affairs Committee, led the Asia Pacific Subcommittee for 6 years, and 
also chaired the ``International Institutions'' Subcommittee of the 
Financial Services Committee. For fiscal year 2008, the Asia Foundation 
is requesting $18 million.
    When I announced I would not seek re-election to the 109th Congress 
I was unaware that the position of the presidency of The Asia 
Foundation would open, but I had long admired the work of the 
Foundation. In fact, I told my wife years earlier it was one of only 
two positions that would interest me after Congress. What I have found 
in my 2.5 years at the helm of the Foundation is what I hoped and 
expected to find: there is a strong commitment to Asian development and 
a pervasive sense of altruism among the Foundation's experienced and 
highly professional staff. Its long-term, on-the-ground presence 
through 17 Asian field offices and its work with and through literally 
hundreds of established and emerging Asian partner organizations make 
it highly knowledgeable, effective, and trusted by Asians. This 
experience base, coupled with a staff of more than 80 percent Asian 
nationals who have a sensitivity and understanding of the local 
context, makes us different from nearly all other nongovernmental 
development organizations. We do not bring in our development staff for 
work on a short-term basis and then leave. We are there for the long 
term and we are committed to building and sustaining the kinds of 
institutions and practices that enable Asians to replicate these 
successes and thereby help themselves after a funded project ends. In 
short, The Asia Foundation is the premier development organization 
focusing on Asia.
    Of perhaps particular interest to the Congress today is the fact we 
have been working with Muslims and Islamic civil and higher education 
organizations for more than 35 years. Generations of Asians know us 
from our education grants and exchange programs and through the more 
than 40 million English-language books we have provided in more than 20 
countries (920,000 last year alone). The result is that Asians respect, 
trust, and like the Foundation at a time when much of what they hear 
and think about our country is not very positive. In short, The Asia 
Foundation has an unmatched credibility. It is an irreplaceable 
American and international asset.
    My research has shown me that seven significant American task 
forces, commissions and blue-ribbon committees made policy 
recommendations to our country for the post-9/11 world. All recommended 
an accelerated and more effective public diplomacy program, especially 
for the Islamic world. All but one specifically suggested that the 
expertise of nongovernmental organizations and the private sector must 
be enlisted, suggesting explicitly or implying that effective public 
diplomacy was too important and nuanced to be the exclusive domain of 
the U.S. Government. Members of the subcommittee, much of what The Asia 
Foundation does properly may be categorized as public diplomacy. We 
don't advocate U.S. foreign policy; however, while pursuing effective 
development programs, our work and staff remind Asians of what they 
have liked most about America and Americans--that we are an innovative, 
opportunity-oriented country and people, with a respect for the rule of 
law, the freedom of expression, and an openness and expectation for 
citizen participation in a democratic society.
    It is instructive to review the Foundation's appropriations 
history. Although the Foundation has been in operation since 1954, The 
Asia Foundation Act, which was passed in 1983, provides for an annual 
appropriation from the Congress. That Act acknowledged the importance 
of stable funding for the Foundation and endorsed its ongoing value and 
contributions to U.S. interests in Asia. For a decade until 1995, the 
Foundation's annual appropriation was at least $15 million. In fiscal 
year 1996, during the government shutdown year, despite broad 
bipartisan support commending its work, the Foundation's appropriation 
was cut by two-thirds, to $5 million. The Foundation painfully was 
forced to sharply cut back its programs, but struggled to maintain 
nearly all of its most important asset, its field operation structure. 
Since that low point, the Committee, in support of the organization's 
mission, has gradually expanded funding for the Foundation to its 
current level of nearly $14 million. Past committee report language has 
commended our grant-making role in Asia, and the Foundation, at the 
Committee's encouragement, has expanded its programs in predominantly 
Muslim countries, including Afghanistan, Indonesia, and Pakistan. 
However, the Foundation has remained at a funding level below that of 
10 years ago, despite its important contributions in support of 
democracy and reform in Asia, the escalating costs of maintaining 
overseas offices, the impact of inflation, the less favorable currency 
exchange rates, and growing needs in the region.
    Despite a very positive attitude about the Foundation in the State 
Department, USAID, and especially among those U.S. ambassadors with 
deep Asian experience who often turn to our country representatives for 
information and advice, past and present administrations consistently 
have used previous year requests as the baseline for future requests, 
rather than the previous year Congressional appropriations. This has 
resulted in a low appropriation recommendation in the past and again 
for fiscal year 2008. We don't have nearly the U.S. funding base we 
once had--in either relative or absolute dollar terms. We have the 
experience, expertise, and office/staffing base to do so much more of 
great value to the United States and those Asians who need our help; we 
only need the resources to restore some of the funding base we once 
had. Our development counterparts in multilateral development 
organizations express their amazement at what we accomplish with what 
they regard as a paltry funding base. Therefore, I respectfully urge 
the Committee to sustain and increase its support for the vital work 
the Foundation is engaged in on behalf of the U.S. interests in this 
complex region. The Asia Foundation is requesting a modest increase 
back to an earlier appropriations level of $18 million.
    In making this request, we are very cognizant of the fiscal year 
2008 budgetary pressures on the Committee. However, an increase would 
enable The Asia Foundation to strengthen program investments it has 
begun in recent years with Congressional encouragement, notably in the 
areas of protecting women and children against trafficking; promoting 
women's rights; building democracy and critical government capacity in 
Afghanistan and East Timor; increasing tolerance in predominantly 
Muslim nations like Indonesia, Bangladesh and Pakistan; securing human 
rights in Cambodia, Sri Lanka, and Nepal; and strengthening good 
governance and civil society throughout Asia.
                           regional overview
    The United States and Asia face new challenges and pressing needs, 
complicated by the war on terrorism and fragile democracies. More than 
ever, we must support political stability and economic reform, and give 
attention to countries where recent events have exacerbated bilateral 
relations, specifically in the new democracies of Asia and in countries 
with predominantly Muslim populations. Challenges to governance in 
Thailand, the Philippines, Mongolia, Indonesia, and Sri Lanka require 
different approaches than in countries struggling to achieve democracy, 
peace and stability, such as Afghanistan, Pakistan, Nepal and East 
Timor. Potential ties to regional terrorist networks threaten regional 
stability. Human rights abuses continue with impunity in parts of Asia. 
Even though women have made gains in many places, such as Cambodia, 
Thailand, Nepal and India, they still face economic and political 
inequities, and in the worst cases, are victims of trafficking and 
abuse.
       the asia foundation's mission, capabilities, and approach
    We are committed to the development of a peaceful, prosperous, 
just, and open Asia-Pacific region. Our core capabilities and primary 
program concentrations are central to U.S. interests in the region. 
They are as follows:
  --Democracy, human rights and the rule of law.--Strengthening 
        democratic and civil society institutions; encouraging an 
        active, informed and responsible nongovernmental sector; 
        advancing the rule of law; and building institutions to uphold 
        and protect human rights;
  --Economic Reform and Development.--Reducing barriers at the national 
        and regional level to the formation and productive functioning 
        of small business and entrepreneurship;
  --Women's Empowerment.--Encouraging women's participation in public 
        life; protecting women's rights and supporting advocacy 
        training; and prevention of trafficking and domestic violence, 
        including supportive efforts to protect and provide shelter to 
        victims;
  --Peaceful and Stable Regional Relations.--Promoting U.S.-Asian and 
        intra-Asian dialogue on security, regional economic 
        cooperation, law and human rights.
    While the Foundation does considerable development work directly 
with its own staff, the Foundation remains faithful to its primary 
focus on its grant-making role, steadily building institutions and 
strengthening Asian leadership for democratic societies. Foundation 
assistance provides training, technical assistance, and seed funding 
for new, local organizations, all aimed at promoting reform, building 
Asian capacity and strengthening U.S.-Asia relations. Foundation 
grantees can be found in every sector in Asia, leaders of government 
and industry and at the grassroots level, and in an increasingly 
diverse civil society. The Foundation is distinctive in this role, not 
only providing the technical assistance necessary, but also in 
providing grants that cover the nuts and bolts necessities to support 
that capacity-building effort. Urgent political and security needs in 
Asia have increased the need for experienced and credible American 
actors in the region. The Asia Foundation is a well recognized American 
organization, but its programs are grounded in Asia, helping to solve 
local problems in cooperation with Asian partners.
                                programs
    The Asia Foundation makes over 800 grants per year, and facilitates 
programs, provides technical assistance and leverages funding from 
public and private donors, to increase program impact and 
sustainability. With additional funding in fiscal year 2008, the 
Foundation's expanded activities include:
    Legal Reform.--In Afghanistan technical assistance on policy and 
management operations for the Office of Administrative Affairs of the 
President, Council of Ministers Secretariat and Ministry of 
Parliamentary Liaison, Independent Election Commission, in East Timor 
access to justice programs and public consultation in lawmaking; in 
China legal aid services and worker rights education for migrant women 
workers; in Indonesia reform of the Supreme Court including civil 
society input into the reform process; in Nepal, supporting the new 
constituent assembly process, legal analysis of constitutional issues 
engaging citizens' groups, civic and voter education, and mediation 
programs in rural areas.
    Human Rights, Conflict and Islam.--In Cambodia, Sri Lanka and the 
Philippines, human rights monitoring, and documentation through new 
information technology networking; in Indonesia, the International 
Center for Islam and Pluralism (ICIP) a unique regional center in 
Jakarta for progressive Muslim scholarship, exchange, start-up 
activities and action plans of the Thailand Center for Muslim and 
Democratic Development (TCMD), the Philippine Council for Islam and 
Democracy (PCID) and Jamaah Islah Malaysia (JIM) and International 
Islamic University (IIU) in Malaysia, to support regional Southeast 
Asian networking and strengthening democracy under Islam; education 
reform in 1,000 schools including training on pluralism, human rights 
and civic education for 160 madrassa (day schools) teachers; curriculum 
reform for 800 pesantren (boarding schools), part of the Foundation's 
education reform of 625 Islamic schools nationwide, with over 215,000 
students; and in over 70 Islamic universities, for over 120,000 
students where the Foundation has pioneered civic education on the role 
of democracy; in Bangladesh, groundbreaking training programs in 
development practices for over 4,000 imams, expanding their 
understanding of their role in national development through exposure to 
USAID programs, and advancing public diplomacy with this critical 
leadership group.
    Civil Society.--In Afghanistan, support for the Ministry of Women's 
Affairs organizational strategic planning and communications strategies 
with regional Departments of Women's Affairs across the country, girl's 
education, and civic education; in Cambodia, human rights and legal 
services; in Indonesia, promote pluralism, tolerance and moderation by 
Muslim organizations, radio programs on religion and tolerance on 
community radio stations reaching 5 million listeners a week through 
radio talk shows and education reform.
    Women's Programs.--Region wide, with particular emphasis on 
Indonesia, Cambodia, Thailand, Vietnam and Mongolia, anti-trafficking 
program including prevention, services for victims, legal drafting and 
advocacy to support increased prosecutions; technical assistance and 
grants for services and advocacy for women victims of domestic 
violence; in Afghanistan, India, Pakistan, Bangladesh, Sri Lanka, 
Indonesia, Nepal, Thailand, and Malaysia projects to advance women's 
rights within Islam through analysis, public education and outreach; in 
Afghanistan donation of 10,000 books to the Ministry of Women's 
Affairs; in Cambodia and Afghanistan, support for scholarships for 
girls' education.
    Economic Reform.--In Indonesia, Vietnam, Nepal, Bangladesh, small 
and medium enterprise policy reform; in Indonesia and Vietnam pioneered 
economic performance rating tools for local governments; in Korea, 
Japan, China, Thailand and the Philippines, corporate governance reform 
and e-government efforts to counter corruption.
    International Relations.--In China, Vietnam and India, scholarships 
for young Ministry of Foreign Affairs leaders, exchange and study 
programs for Southeast Asian and American young leaders, and support 
for programs on cross-straits relations and Council for Security 
Cooperation in the Asia Pacific (CSCAP).
    A full listing of programs may be found on our website 
www.asiafoundation.org.
                               conclusion
    The Asia Foundation is first and foremost a field-based, grant-
making organization, committed to maximizing program impact in Asia 
while keeping costs low, despite the growing challenge of providing 
security to field offices and protecting staff. If the Committee 
provides additional funding for Foundation programs in this fiscal 
year, we pledge to use those funds to expand programs that build 
democratic capacity, strengthen civil society, increase economic 
opportunity, protect women, and work with moderate Muslim groups as 
described above. The Foundation budget needs to grow in order to meet 
the growing challenges to American interests in the Asian region.
    Public funds are critical to our capacity to do more to advance 
American interests in Asia. The Foundation has expanded its private 
funding, but potential private donors need to be assured that the U.S. 
Government supports the Foundation's efforts, and private funds are 
always tied to specific projects. Only public funding provides the 
flexibility that allows the Foundation to maintain its field presence 
and respond quickly to new developments, as we did in supporting the 
Emergency Loya Jirga in Afghanistan, where we were the first U.S. 
organization on the ground in spring 2002.
    The increase in funding to $18 million that we seek is essential if 
the Foundation is to succeed in contributing to the development of 
stable, democratic and peaceful societies in Asia. I respectfully urge 
that the Committee sustain its support for the Asia Foundation, and 
demonstrate our shared commitment to addressing the challenges and 
opportunities in Asia today.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Leahy. There will be some additional questions 
which will be submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Patrick J. Leahy
    Question. The President's request significantly under-funds the 
United States assessed contribution to U.N. peacekeeping by projecting 
reduced costs for every mission except Sudan which is increased by only 
$10 million. This is completely unrealistic--in fact, some of these 
missions are not only being extended but the costs are going to 
increase.
    When this shortfall is added to approximately $50 million in fiscal 
year 2007 arrears, the United States could have a shortfall of at least 
$430 million owed to the United Nations. That is if the United States 
and the United Nations decide not to create any new missions in places 
that need assistance, like Somalia, Chad and the Central African 
Republic. The shortfall in fiscal year 2008 could grow to $850 million 
if this happens.
    The total fiscal year 2008 request for peacekeeping is $1.1 
billion, a decrease of $28 million from fiscal year 2007. This is 
likely to fall short of our actual 2008 dues in every mission. How did 
the Department formulate the budget request for the U.S. assessed 
contribution to U.N. peacekeeping missions? How do we avoid going 
further into arrears?
    Answer. The President's budget includes a request for $1.107 
billion for contributions to U.N. peacekeeping activities in fiscal 
year 2008. The exact requirements for U.N. peacekeeping funds for 
future years cannot be predicted, because the size and cost of U.N. 
peacekeeping missions depend on U.N. Security Council decisions based 
on conditions on the ground and U.N. General Assembly review of the 
financial implications associated with those decisions. Within the 
President's overall budget, our fiscal year 2008 request is based on 
our estimate of the requirements that take into account such relevant 
factors as uncertainties about the future size of missions, as well as 
the U.N. assessment rate and the 25 percent rate cap consistent with 
current law. The United States uses regular reviews to explore whether 
missions can be downsized or eliminated, and will continue to work with 
our partners and the United Nations to identify cost savings wherever 
possible. The request for fiscal year 2008 reflects assumptions that we 
will be able to reduce costs of many missions while maintaining the 
U.N.'s essential role in peacekeeping activities.
       u.s. assessed contributions to u.n. peacekeeping missions
    Question In response to my question about U.S. assessed 
contributions to U.N. peacekeeping missions, you noted that ``the 
request for fiscal year 2008 reflects assumptions that we will be able 
to reduce costs of many missions.''
    Does the Department still believe that the budget request levels 
are realistic given the current situation in each country? Please 
provide a justification for and the assumptions underlying the proposed 
reduction in each mission?
    Answer. The fiscal year 2008 President's budget includes a request 
for $1.107 billion for contributions to U.N. peacekeeping activities. 
The exact requirements for U.N. peacekeeping funds for future years 
cannot always be predicted and the fiscal year 2008 request was our 
best estimate of the requirements. Based on the U.N. approved budget 
for existing missions for the 12 month period from July 1, 2007 through 
June 30, 2008, and preliminary estimates for the cost of the U.N.-AU 
Hybrid Mission in Darfur (UNAMID) to be assessed to member states 
during fiscal year 2008, fully funding our assessments in fiscal year 
2008 will be challenging. We are carefully reviewing these requirements 
and are having ongoing discussions with the United Nations regarding 
the Darfur costs as well as other U.N. mission costs for fiscal year 
2008.
    Question. Do you believe your fiscal year 2008 budget request 
contains sufficient funds to provide each U.S. embassy with the number 
of staff, equipment, vehicles and other resources necessary to 
effectively promote the myriad of U.S. foreign interests in each 
country?
    Answer. The fiscal year 2008 budget request, including the $230 
million in program increases requested for State Programs would provide 
the Department with the necessary resources to further our world-wide 
diplomatic efforts. These operating resources are critical in ensuring 
diplomats are properly trained and equipped--most notably with enhanced 
foreign language skills--in order to advance U.S. national security 
efforts overseas. Additionally, continued construction of secure 
buildings overseas requires Embassy Security, Construction and 
Maintenance resources which the President has requested to increase the 
near and long term security of U.S. personnel overseas.
    Question. Can you assure us that any foreign aid program 
implemented by the Department of Defense, whether humanitarian, 
reconstruction, train and equip, or other, will be subject to the prior 
concurrence of the Secretary of State?
    Answer. Under the direction of our Director of U.S. Foreign 
Assistance, and based on the President's policy priorities for foreign 
assistance as informed by consultations with the Department of Defense, 
we formulate and submit our budget for Foreign Military Financing (FMF) 
and International Military Education and Training (IMET) as part of the 
State Department's Foreign Operations budget request. Once approved by 
the Congress, this State Department funding is transferred to the 
Defense Department for actual execution.
    Select new Department of Defense authorities, coordinated closely 
with the Department of State, are an essential means of addressing 
rapidly evolving security challenges, particularly with respect to 
building the capacity of our global partners. The Secretary has 
expressed support for such select new authorities contingent upon the 
explicit preservation of her statutory role with respect to foreign 
assistance, through their exercise with the concurrence of the 
Secretary of State, and in practice through joint development 
procedures. Such new authorities should also be tailored toward the 
common goal of providing for closer integration of the administration's 
foreign assistance efforts, consistent with the Secretary's 
responsibility for the overall supervision and general direction of 
U.S. foreign assistance.
    We continue discussions with the Defense Department regarding this 
issue.
    Question. Please provide an accounting of funds appropriated for 
the Afghan Civilian Assistance Program, since its inception in 2002. 
Such an accounting should indicate the total amount obligated and 
disbursed, through which organization(s), for what types of activities. 
Please also provide your assessment of the merits of this program.
    Answer. Since 2002, funding obligations for the Afghan Civilian 
Assistance Program (ACAP) have totaled $8.6 million, of which $8.3 
million has been disbursed. In June 2007, an additional $4.5 million 
will be obligated for the program. The International Organization for 
Migration has implemented the Afghan Civilian Assistance Program since 
2002.
    Afghan Civilian Assistance Program provides direct assistance to 
Afghan civilians or their families wounded or killed either by 
Coalition/NATO forces or improvised explosive devices targeting those 
forces. The program also supports communities to rebuild public 
infrastructure damaged or destroyed by Coalition or NATO forces. 
Program activities have included infrastructure rehabilitation, 
vocational training, psycho-social care, and medical prostheses 
distribution.
    Afghan Civilian Assistance Program has been successful at providing 
rapid relief to civilian victims of war in Afghanistan. The program 
contributes to overall stabilization efforts in Afghanistan by 
redressing unintentional damage to civilian life and property, thereby 
reducing mistrust and resentment of military operations, the Afghan 
Government, and the international community.
    Question. Aside from the reduction in size of the Guatemalan Armed 
Forces, what actions have been taken to redefine the mission and reform 
the Armed Forces?
    Answer. The Guatemalan military has changed drastically since the 
days of the internal conflict. The size of the Guatemalan military has 
been reduced by two thirds since the 1996 Peace Accords and the 
military budget is under 0.38 percent of GDP, well below the level 
stipulated by the Peace Accords. The Guatemalan military abolished its 
territorial system of deployment and is now organized along functional, 
rather than geographical, lines. Many regional military bases were 
converted to civilian uses. The military developed a new military 
doctrine that eliminated internal security as a role of the military. 
The Guatemalan civil sector took part in the consultative process in 
formulating this new doctrine, as called for in the Peace Accords. The 
military's doctrine, training, and education all reflect the new limits 
on the Guatemalan military's roles to defense of sovereignty and 
territorial integrity. Military training now includes mandatory human 
rights training as an integral part of the military education system. 
During the last 10 years, there have been no credible reports of human 
rights abuses by Guatemalan military units. The Guatemalan military is 
responsive to civilian political authorities and earned significant 
international and Guatemalan public respect for its excellent work in 
support of Hurricane Stan disaster response and recovery efforts. As 
allowed under the 1996 Peace Accords,\1\ Guatemalan presidents over the 
last 10 years have deployed the military in joint patrols with the 
police in an effort to curb escalating and signficant street crime. The 
military also plays a critical role in providing air and naval support 
for counter-narcotics operations, including through participation in 
two ``Mayan Jaguar'' operations in 2006 with DOD's Joint Interagency 
Task Force South. The Guatemalan military has also earned the respect 
of the international community for its professional performance in 
peacekeeping operations in Haiti and the Democratic Republic of the 
Congo, deployments that were frequently praised at the U.N. during 
Guatemala's 2006 candidacy for a rotating UNSC seat.
---------------------------------------------------------------------------
    \1\ Article 45(a) of the Agreement on the Strengthening Civilian 
Power and Role of the Army in a Democratic Society, signed in Mexico on 
September 19, 1996.
---------------------------------------------------------------------------
    Question. Is the Embassy satisfied with the investigation and trial 
in the murder of Gilberto Soto in El Salvador? What progress has there 
been in solving this crime, and what efforts are currently underway?
    Answer. On February 17, 2006, a sentencing tribunal exonerated two 
of the three suspects in the murder of Mr. Soto. The third suspect was 
convicted and sentenced to 25 years in prison. While we believe that 
the police and prosecutors carried out a professional and thorough 
investigation, the Department did expressed disappointment at the 
decision to exonerate two of the suspects.
    The Embassy closely monitored all stages of the investigation and 
the trial itself. In addition, the Embassy established a hotline to 
collect additional information about the murder. Although the 
International Brotherhood of Teamsters offered a reward of $75,000 to 
anyone providing information that would solve the crime, no credible 
tips have been received to date. The case is still open, and the 
Embassy is willing to facilitate the participation of any witnesses who 
choose to come forward.
    Question. There are increasing concerns about the conduct of the 
Sri Lankan military. While it is fighting the Liberation Tigers of 
Tamil Eelam, an organization that has committed acts of terrorism 
against civilians, the military has also engaged in a pattern of 
violations of human rights. What amounts and what types of military 
equipment is the United States providing to Sri Lanka through the FMF 
program and through the FMS or other sales program?
    Answer. U.S. military assistance to Sri Lanka is largely focused on 
maritime activities to improve Sri Lankan armed forces capabilities to 
defend their territorial waters and interdict arms shipments to the 
Tamil Tigers, a designated Foreign Terrorist Organization. Our fiscal 
year 2007 Foreign Military Financing funding totals $890,000 and will 
be used primarily for providing equipment such as surveillance radars 
and communication linkages to the Sri Lankan armed forces. Our fiscal 
year 2007 International Military Education and Training funding totals 
$518,000 and will be used for professional military education to 
include the staff college and Non-Commissioned Officer academy, human 
rights, counter-terrorism, and maritime interdiction training. 
International Military Education and Training funding will also fund 
training to increase interoperability with U.S. forces. Foreign 
Military Financing disbursed in 2007 to date totals $310,000.
    All recipients of military assistance undergo Leahy human rights 
vetting in accordance with the provisions of the Leahy Amendment and 
the Department's policies and procedures for Leahy vetting.
    Question. In your response to this question, you noted that ``all 
recipients of military assistance undergo Leahy human rights vetting in 
accordance with provisions of the Leahy Amendment and the Department's 
policies and procedures for Leahy vetting.''
    What are the procedures for vetting Sri Lankan recipients of U.S. 
military assistance, consistent with the requirements of the Leahy 
Amendment? Which, if any, units of the Sri Lankan military have been 
credibly alleged to have committed gross violations of human rights, 
and are therefore ineligible to receive U.S. assistance?
    Answer. We look at Leahy requests on a case by case basis, using 
available information from a wide range of sources, including post 
reporting, intelligence reports, and publicly available information 
from human rights non-governmental organizations such as Human Rights 
Watch, the Asian Human Rights Commission and Amnesty International. As 
a practical matter, in the case of Sri Lanka, we normally vet 
individuals nominated for training.
    The Human Rights Officer in Embassy Colombo's political section 
takes the lead in vetting. The Consular Section, the Defense Attache, 
the Regional Security Office, and USAID also contribute to the vetting 
process. Each of these offices checks for evidence of gross human 
rights abuses by a proposed participant.
    To date in 2007, two Sri Lankan candidates were denied training. 
One was refused because there is a criminal case pending against him 
for human rights violations allegedly committed in 1997. The other was 
denied because of credible information received from a reliable source 
about his actions as the Military Intelligence Commander in Jaffna.
    We have given particularly close scrutiny to those individuals who 
have served in Jaffna or whose service records indicate they may have 
been in proximity to known, egregious human rights violations.
    Question. Why did you only request $300 million for a U.S. 
contribution to the Global Fund in fiscal year 2008, and why in the 
Labor, Health and Human Services budget which funds domestic programs, 
rather than through the State, Foreign Operations budget which funds 
contributions to international organizations?
    Answer. The Global Fund is an important part of the strategic plan 
that guides implementation of the President's Emergency Plan for AIDS 
Relief (Emergency Plan/PEPFAR). The U.S. Government (USG) share of 
total Global Fund contributions has held consistently at approximately 
30 percent. The USG initially made a 5-year pledge of $1 billion for 
the Global Fund in years 2004-2008. If the $300 million in the 
President's 2008 Budget is approved, the USG will have nearly tripled 
that commitment to the Global Fund by contributing about $2.5 billion.
    In order to provide adequate financial and human resources to 
complete the goals of PEPFAR as well as maintain U.S. leadership in the 
Global Fund, the President has spread the request for HIV/AIDS-related 
resources across the two appropriations bills (Foreign Operations and 
Labor-Health and Human Services).
    We consider this interagency approach in representing the United 
States on the Global Fund to be one of our coordination success 
stories. Through the Global Aids Coordinator, who has overall 
responsibility for ensuring that all statutory benchmarks have been met 
before any USG contribution is made, USAID, State, and HHS regularly 
meet and fully coordinate on all aspects of the Global Fund.
    The Department of Health and Human Services (HHS) was instrumental 
in the administration's efforts to establish the Global Fund and 
continues to have an active role on its Board. The National Institutes 
of Health (NIH) makes a significant contribution to global HIV/AIDS, 
TB, and Malaria activities. Requesting the USG contribution within NIH 
continues HHS' longstanding role in the advancement of the Global Fund.
    Question. How does the United States maintain leadership in the 
Global Fund, as you maintain, if we cut our contribution from $725 
million in fiscal year 2007 to $300 million in fiscal year 2008? Why 
does requesting the U.S. Government contribution within NIH, an agency 
focused on domestic health care, make more sense than within the 
Department of State, where the President's Global HIV/AIDS Initiative 
focuses on international HIV/AIDS?
    Answer. Although the United States continues to be the largest 
single source donor to the Global Fund, leadership is not determined by 
the size of contributions. The United States is one of only three 
donors to hold its own Board seat (the other two are Japan and Italy); 
the Board operates on a one seat, one vote basis. The U.S. Government's 
leadership is based on our pro-active involvement with the Fund at all 
levels, starting with chairmanship of key Board committees. Ambassador 
Mark Dybul, the U.S. Global AIDS Coordinator, currently chairs the 
Fund's Finance and Audit (FAC) Committee, while Dr. William Steiger, 
Special Assistant to the Secretary for International Affairs at the 
Department of Health and Human Services, chaired the powerful Policy 
and Strategy Committee from 2005-2007. The United States also holds 
regular committee seats on both the FAC and the PSC, and our 
representatives have served on a variety of ad hoc sub-committees, e.g. 
to identify a new Executive Director for the Fund, to shape a documents 
disclosure policy for the Office of the Inspector General, and to 
develop performance indicators to measure overall Fund progress.
    As mandated by Congress, the interagency Global Fund Core Group 
also works together with our U.S. Embassies and USAID Missions overseas 
to conduct a parallel review of new Global Fund grant applications, and 
the Global Fund Secretariat has commented more than once on the 
relevance and usefulness of insights gained during these reviews. The 
United States also conducts reviews of the Global Fund's Phase Two 
proposals, and frequently takes the lead in mobilizing Board opinion 
during this key stage in the Fund's performance-based process.
    Furthermore, the United States provides significant technical 
assistance (TA) to Global Fund grants. PEPFAR bilateral programs in 
both Focus and non-focus countries include such TA in their country 
operating budgets, in amounts ranging up to $1 million. Such TA is 
vital to the success of closely-coordinated programs in which PEPFAR 
and the Global Fund are often working together even at the site level. 
As part of this in-country coordination, U.S. Government 
representatives are well-represented on Global Fund Country 
Coordinating Mechanisms, including 59 percent of the CCMs that 
submitted round six grant proposals. U.S. country teams are also 
required to describe how they plan to coordinate with the Global Fund 
in their annual Country Operation Plans (COPs).
    Finally, the United States is authorized by Congress to use up to 5 
percent of the annual Global Fund appropriation to provide targeted, 
short-term technical assistance (TA) to Global Fund grants experiencing 
bottlenecks. Because of the success of this United States-provided TA 
in its first 2 years, the donor community is increasingly turning to 
the United States to provide leadership for global technical support 
efforts, including through the multilateral Global Implementation and 
Support Team (GIST).
    As mentioned in my previous response, in order to provide adequate 
financial and human resources to complete the goals of PEPFAR as well 
as maintain U.S. leadership in the Global Fund, the President has 
spread the request for HIV/AIDS-related resources across the two 
appropriations bills (Foreign Operations and Labor-Health and Human 
Services).
    We consider this interagency approach in representing the United 
States on the Global Fund to be one of our coordination success 
stories. Through the Global Aids Coordinator, who has overall 
responsibility for ensuring that all statutory benchmarks have been met 
before any USG contribution is made, USAID, State, and HHS regularly 
meet and fully coordinate on all aspects of the Global Fund.
    The Department of Health and Human Services (HHS) was instrumental 
in the administration's efforts to establish the Global Fund and 
continues to have an active role on its Board. The National Institutes 
of Health (NIH) makes a significant contribution to global HIV/AIDS, 
TB, and Malaria activities. Requesting the USG contribution within NIH 
continues HHS' longstanding role in the advancement of the Global Fund.
    Question. The fiscal year 2008 budget proposes to shift a 
significant amount of funding from Development Assistance to the 
Economic Support Fund. This would enable the Department to reallocate 
funds more easily, without the consent of Congress.
    Why do you need this added flexibility?
    Answer. In the fiscal year 2008 budget request, we sought to 
maximize the use of account authorities and establish clear priorities 
in support of effective implementation of foreign assistance programs. 
We, therefore, matched accounts with country circumstances and the 
priorities the county categories are designed to address.
    This means that, overall, funding for Development Assistance (DA), 
which has traditionally supported poor countries that demonstrate 
performance or a commitment to development, has been prioritized to 
Developing and Transforming countries. Economic Support Funds (ESF), 
which focus primarily on providing economic support under special 
economic, political, or security conditions, have been prioritized to 
support activities in the Rebuilding and Restrictive Country 
Categories.
    Under the Foreign Assistance Act of 1961, as amended, Congress 
established the Economic Support Fund to provide ``assistance to 
countries and organizations, on such terms and conditions as [the 
President] may determine, in order to promote economic and political 
stability.'' We are committed to working within current statutory 
authorities to use ESF and all other funds in a responsible, 
accountable manner that is consistent with the Secretary's 
transformational diplomacy goal and Congress' authorization.
    The intent in shifting funds from DA to ESF is to draw cleaner 
lines around their use, as identified by country characteristics. These 
cleaner lines allow us to justify to Congress why we have requested 
amounts for each account. The primary goal of this shift is not 
increased flexibility, and we will of course continue to notify 
Congress of significant shifts in country funding and to comply with 
any and all notification requirements. The primary rationale for using 
ESF rather than DA resources in Rebuilding Countries is that conditions 
in these countries are not stable and the primary reason for providing 
these funds contributes to objectives beyond their development impact. 
Therefore, in rebuilding countries, it is more appropriate to hold 
State and USAID accountable for the shorter-term results typically 
associated with ESF-funded programs rather than the medium to long term 
results expected from DA.
    Question. As you know I am concerned about the threats to 
scholars--university teachers, scientists, and other academics, in 
countries where they have been threatened and killed. This is 
particularly the case in Iraq today, where many have been assassinated, 
including officials at the Ministry of Education.
    The fiscal year 2007 supplemental appropriations bill includes some 
funding to resettle Iraqi scholars. I would appreciate it if someone in 
your office would stay in touch with me about the management and use of 
those funds.
    Answer. The plight of scholars in Iraq is a concern for us, 
particularly because the skills they possess will be vital in 
rebuilding the nation and recreating the institutions of a civil 
society. We are determining the best implementation policy for the 
currently appropriated funds for refugees in the fiscal year 2007 
Supplemental. These funds will be crucial to help ensure these scholars 
and others receive needed assistance and can return to Iraq when 
conditions permit. We will be happy to keep you informed as the program 
progresses.
    Question. It would be a serious mistake to reduce USAID's mission 
and bilateral assistance programs in Brazil, a country of over 170 
million people most of whom are impoverished which is facing immense 
environmental challenges of global importance. I strongly urge you not 
to do this and I would appreciate written justification for it and for 
any other USAID missions you plan to close or downgrade.
    Answer. The reduction in USAID's assistance programs in Brazil 
reflects the prioritization of U.S. global foreign policy goals against 
available resources and competing demands. Under the new Foreign 
Assistance Framework, Brazil's solid level of economic and democratic 
progress warrants only a small USAID development assistance program. In 
fiscal year 2008, USAID's program will focus on reducing tuberculosis 
in Brazil.
    The reduction in assistance from USAID does not signal a reduction 
in United States support for Brazil. While the fiscal year 2008 budget 
has diminished, significant resources have been leveraged from the 
private sector toward addressing issues such as renewable energy and 
social inequities. The U.S. mission is seeking to harness the energies 
of the private sector, including through a Chief Executive Officer 
forum, comprised of executives from both Brazil and the United States. 
We have developed a Corporate Social Responsibility (CSR) forum with 
the American Chamber of Commerce, the largest such entity in the world, 
to maximize our effectiveness in assisting those that are most in need 
of help in Brazil.
    This approach is consistent with the principles of Transformational 
Diplomacy which is rooted in partnership, and reflects the important 
position of Brazil in the Western Hemisphere as well as the world.
    Question. How much does the administration plan to allocate for 
environmental conservation activities in Brazil in fiscal year 2007, 
and for what purposes?
    Answer. In fiscal year 2007 USAID is providing a total of 
$9,269,000, which includes $4 million from the Amazon Basin 
Conservation Initiative, to support Brazil's conservation efforts in 
the Amazon. USAID is helping Brazil save its unique biodiversity while 
simultaneously reducing greenhouse gas emissions from deforestation. We 
are implementing activities that empower indigenous peoples'' 
organizations, promote environmental governance and support the 
sustainable management of natural resources. USAID supports efforts to 
create and disseminate information regarding public-private 
institutional alliances that are working to incorporate sustainable 
natural resource management practices and technologies into rural 
enterprises. Additionally, USAID assistance is helping the Government 
of Brazil consolidate forest conservation in both protected areas and 
productive landscapes.
    Question. Your budget would cut USAID's Operating budget from $641 
million in fiscal year 2007 to $609 million in fiscal year 2008. Your 
supplemental request for 2008 includes $61 million for USAID Operating 
Expenses, but that is for only Iraq and Afghanistan. The rest of the 
world gets shortchanged, again.
    If you ask anyone at USAID they will tell you that the agency's 
biggest weakness is the shrinking number of professional staff. Why 
have you cut USAID's Operating budget when we should be increasing it?
    Answer. The fiscal year 2008 USAID budget request is a reflection 
of the many competing demands on resources in the current budget 
environment. We believe the President has requested the amount 
necessary to accomplish the mission of the agency.
    USAID operates in some of the most difficult circumstances in the 
world and adequate resources are critical to implementing successful 
programs. USAID is currently reviewing its budget and structure to 
ensure that operations and staffing are appropriately funded to 
continue its mission and support our national security interests 
abroad. Specific attention is being paid to rationalizing the workforce 
as USAID needs appropriate staffing both in the field and in 
Washington. Programmatic and administrative resources must be allocated 
to ensure that operations are funded in a cost-effective manner, while 
preserving the integrity of USAID's mission.
    Question. In your response to this question, you recognize that 
USAID operates ``in some of the most difficult circumstances in the 
world and adequate resources are critical to implementing successful 
programs.''
    How do you explain the substantial reduction in funding for USAID's 
Operating Expenses from the President's fiscal year fiscal year 2007 
budget request compared to the budget request for fiscal year 2008, for 
expenses outside of Iraq and Afghanistan?
    Answer. The fiscal year 2008 Operating Expense (OE) request for 
expenses outside of Iraq and Afghanistan is 3 percent less than the 
fiscal year 2007 OE appropriation. At the time the President's budget 
was submitted, USAID expected to have implemented structural and 
operational reforms during fiscal year 2007 that would allow the Agency 
to effectively perform at the operating expense level requested for 
fiscal year 2008. The fiscal year 2008 OE budget request reflected a 
strategy of repositioning resources and restructuring operations around 
the world, including Washington. With that strategy in mind, the OE 
budget request was judged sufficient to carry out the mission of USAID.
    USAID is reviewing and refining its worldwide operations to better 
serve its mission. USAID will use all available authorities and 
resources in fiscal year 2008 to ensure that its programs are 
successful.
    Question. The Congress has consistently provided increased funding 
for international environmental programs, both to protect biodiversity 
and to promote energy conservation and efficiency. These programs have 
bipartisan support, from the Russian Far East to Central Africa to the 
Amazon.
    But your fiscal year 2008 budget would either eliminate completely 
or drastically reduce funding for environment programs everywhere. How 
do you explain this when forests, wildlife, water and other natural 
resources are being polluted or destroyed at a faster and faster pace 
on virtually every continent?
    Answer. Our strategy is to link healthy ecosystems to sustainable 
economies, good governance, and equitable and just societies. The 
fiscal year 2008 budget request includes $249 million for programs to 
protect natural resources, biodiversity, and support clean, productive 
environments. The decrease in resources to support the environment, 
down 17.5 percent from the fiscal year 2006 enacted level of $302 
million, is not a reflection of a lack of commitment but rather due to 
two changes. The first is the administration's decreased request for 
DA. The second is our new allocation process which is a more demand 
driven process from our Embassies and Missions.
    Countries were given their total budget number at the outset of the 
Operational Plan Process. In some cases, the total number was lower 
than last year or lower than their request. Under this year's more 
demand focused allocation process, many of our country teams either did 
not request funds for environment or they requested funds in smaller 
amounts than previously in order to maintain or increase programs in 
sectors which they judged to be more critical to their objectives. A 
few countries did identify environment as needing a higher priority and 
chose to request more funds in the environment than they had in 
previous years. Haiti, for example, had no funds budgeted for 
environment in fiscal year 2006 and requested $2.9 million for fiscal 
year 2008. As one of the most deforested countries in the world, 
Haiti's need to address environmental problems was identified this year 
by our country team as needing funding. The Near East and Asia region 
saw a small overall increase in their environment budget due to a $10 
million increase in Lebanon's and Jordan's water programs. The country 
teams in these two countries identified the need to address and fund 
water scarcity and poor quality issues as an important factor in 
maintaining stability and security.
    This year's demand-driven process illustrates how the Department of 
State and USAID jointly determined a country's need and drove the 
selection of funds into the various sectors; a process that we believe 
will produce more robust results in transformational diplomacy.
    Sustainable conservation programs should not only be demand-driven, 
but focus on host country ownership by being developed in partnership 
with local governments, institutions, and the private sector. To 
encourage this, we will undertake an innovative approach to facilitate 
private sector investment on environmental issues. Beginning in fiscal 
year 2007, we will look to the Development Credit Authority (DCA) to 
facilitate private sector investment through partial loan guarantees 
for partnerships in environmental sustainability for commercially 
viable ventures.
    The Development Credit Authority is a USAID partial credit 
guarantee mechanism that mobilizes private financing to achieve 
transformational development. By mobilizing private resources for 
market changing impact, USAID leverages an average of roughly $25 of 
private capital for each $1 invested by the USG. For example, in India, 
DCA raised nearly $23 million from the local capital market through a 
pooled municipal bond for water transmission and distribution networks 
in eight municipalities in Bangalore. The cost to the U.S. taxpayer for 
the loan guarantee was approximately $1 million.
    USAID can also provide DCA guarantees to engage private financial 
institutions in lending for steward projects led by communities. For 
example, a DCA guarantee can mobilize financing for community managed 
forestry concessions while encouraging the tree harvesting and 
marketing to be undertaken in a sustainable manner. Because the 
community is itself invested, the likelihood of the community working 
to make it sustainable is increased. Should such investments prove 
successful and profitable, our hope is that local financial 
institutions will look for similar investment opportunities without 
further credit guarantees from the USG foreign assistance budget. While 
this DCA experiment is not appropriate for most of the environmental 
programs needed by our partner countries, it illustrates an innovative 
and low cost approach to addressing the environment in those cases 
where facilitating such private sector ventures can be helpful 
additions.
            funding for international environmental programs
    Question. You responded to my question about cuts in funding for 
environmental conservation programs by saying that your new allocation 
process is ``much more demand driven'' from Embassies and Missions, and 
that you plan to look to the Development Credit Authority (DCA) ``to 
facilitate private sector investment in environmental sustainability 
for commercially viable ventures.''
    This suggests two things, first, our Embassies and Missions do not 
regard environmental conservation as a priority and are therefore not 
demanding the funds. Second, by putting so much reliance on the DCA and 
the private sector you appear to have a very limited approach to 
environmental conservation. Given the increasing threats to the 
environment and the implications this has for regional and global 
stability, how much do you expect to allocate through your demand 
driven approach, and in which countries?
    Answer. In my previous answer, I did not intend to give the 
impression that the administration does not place a priority on 
environmental conservation. To the contrary, the administration is 
committed to helping developing countries address critical 
environmental threats, including climate change and biodiversity, and 
to achieving economic growth and poverty reduction that is based on 
sustainable use of natural resources.
    President Bush's major new Climate Change Initiative, announced on 
May 31 in his speech to the Global Leadership Council, is one example 
of how we are working to address environmental problems. The Initiative 
is designed to rapidly reduce global greenhouse gas emissions by 
engaging major developing country partners, who account for a large and 
growing share of greenhouse gas emissions. The President's Climate 
Change Initiative will build on a number of existing global and 
regional programs, including the Asia-Pacific Partnership and the 
Methane to Markets initiative.
    In this and other key environmental areas, our Embassies and 
Missions are working with diverse government, private sector, and civil 
society partners in more than 40 countries--and we are applying a broad 
range of country-based and regional approaches--to improve 
environmental protection and conservation.
    Our new assistance process is also helping to address these issues. 
The After Action Review of the fiscal year 2008 budget process resulted 
in the adoption of Assistance Working Groups (AWGs). The AWGs are 
tasked with determining what approaches may be appropriate in a given 
country or region based on a holistic view of the critical development 
gaps and the perspective of the relevant host government(s). The 
purpose of the AWGs is to bring together expertise from across State 
and USAID to identify the most effective and efficient way to use USG 
foreign assistance to advance USG foreign policy priorities.
    In the fiscal year 2009 budget allocation process, to consider how 
economic growth programs and activities, including the environment, 
could be implemented to advance our foreign policy priorities, an 
economic growth AWG, co-chaired by Office of the Director of U.S. 
Foreign Assistance with State and USAID Functional Bureau leadership, 
was assembled. This AWG also considered other USG global, regional, and 
bilateral resources, such as fiscal year 2009 anticipated MCC 
allocations, and were encouraged to reach out to other implementing 
agencies with questions or a request for additional details. Taking 
into account this information and the Mission Strategic Plans from the 
field, the economic growth AWG provided program allocations to the 
program element and account level, and, where possible, attributed 
funds to specific countries and/or programs.
    In developing our foreign assistance budget in the constrained 
budget environment that is our reality, there are numerous competing 
demands in supporting development, including security and governance 
issues, and raging health crises. In setting our budgets, we are 
looking to address immediate problems in a sustainable way and to find 
the best opportunities to impact the lives of the most people. At the 
same time, we recognize that addressing stability and governance can 
achieve environmental results, as conflict, poverty and poor governance 
are significant contributors to environmental degradation in the 
developing world. The fiscal year 2008 budget request includes $249 
million for programs to protect natural resources, biodiversity, and 
support clean, productive environments although final allocations for 
fiscal year 2008 will be impacted by the fiscal year 2008 
appropriations bill. We anticipate that the heightened cooperation 
arising from the AWG process may well result in a fine tuning and 
perhaps even expansion of regional and country environmental programs 
in the fiscal year 2009 request which we are currently working on with 
the Office of Management and Budget.
    Question. I am leading a CODEL to the Middle East over Memorial Day 
recess, including to Israel and the West Bank. Since the beginning of 
this administration I and others have called for sustained, high level 
engagement with Israelis and Palestinians, but for the most part the 
administration's focus has been elsewhere. Your recent efforts are 
welcome, but it is very late in the game. In the past 6 years the 
situation has, if anything, become more intractable. We need to see 
real progress in resolving the key issues that underlie this conflict.
    When was the last suicide bombing for which Hamas was responsible?
    Which Palestinian faction(s) are responsible for recent rocket 
attacks against Israel?
    The Arab countries have proposed an initiative which offers Israel 
full recognition by the 22 members of the Arab League in exchange for 
Israel's withdrawal to its pre-1967 borders. Does the administration 
support this proposal? If not, what aspects of it does the 
administration not support?
    Who is responsible for recent rocket attacks from Gaza into Israel? 
In 2007, what if any acts of terrorism against Israeli targets are 
credibly attributable to Hamas?
    Answer. In his September 19, 2006, UNGA address, President Bush 
said that fulfilling his vision of two states--Israel and Palestine--
living side by side in peace and security, was one of his greatest 
priorities. Internationally, the Quartet--made up of the United States, 
EU, United Nations and Russia--has declared repeatedly the need to make 
progress toward peace in the Middle East.
    During my repeated trips to the region over recent months, I have 
emphasized the importance of continued bilateral discussions between 
Prime Minister Olmert and President Abbas both on day-to-day practical 
issues such as security, movement, and access, as well as on elements 
of a political horizon for Palestinian statehood. I traveled to the 
region on March 23rd to continue discussions with the parties as well 
as with our Arab partners in the region. This trip resulted in 
agreement by Olmert and Abbas to hold regular meetings addressing 
practical issues affecting the quality of life of Israelis and 
Palestinians, as well as beginning to discuss some of the 
characteristics of a future Palestinian state, such as governing 
institutions and economic relations with Israel. These discussions 
should build confidence between the parties and begin to lay the 
foundation for meaningful negotiations leading to the establishment of 
a Palestinian state, consistent with the Roadmap.
    The last suicide bombing for which Hamas was responsible took place 
on January 18, 2005 in Gaza, killing an Israeli security officer and 
injuring eight other soldiers and security agents. In March of this 
year, Hamas claimed responsibility for shooting an Israel Electric 
Corporation worker near the Karni/al-Mintar crossing between the Gaza 
Strip and Israel, moderately wounding him. According to press reports, 
that same month, Egyptian authorities detained an alleged would-be 
Hamas suicide bomber next to the Israeli border as he awaited 
instructions to carry out a terrorist attack inside Israel.
    Individuals linked to Hamas were involved in the September 21, 2005 
kidnapping and murder of an Israeli citizen in the West Bank. According 
to claims by Hamas, al-Aqsa Martyrs Brigade, and the Popular Resistance 
Committees (PRCs), a number of terrorist attacks were perpetrated by 
one or more organizations acting together, including the January 13, 
2005 truck bombing of the Karni/al-Mintar cargo crossing terminal on 
the Israeli-Gaza border, which killed six Israeli civilians and wounded 
another five.
    In November 2006, President Abbas and Prime Minister Olmert agreed 
to a ceasefire in Gaza. Following this announcement, Hamas stopped 
launching rocket attacks into Israel. No action was taken, however, by 
the forces of the Hamas-led Interior Ministry to stop rocket attacks 
launched against Israel by Palestinian Islamic Jihad (PIJ) and the al-
Aqsa Martyrs Brigade. Over recent weeks, as intra-Palestinian violence 
escalated, Hamas disavowed the ceasefire and Hamas and PIJ have been 
responsible for much of the recent spate of Qassam rocket attacks 
against Israel.
    The United States welcomes the Arab Peace Initiative, which 
provides a regional political horizon for Israel, complementing the 
efforts of the Quartet and of the parties themselves to advance towards 
peace.
    Question. According to recent press reports a current Israeli 
Government registry shows that more than 30 percent of property held by 
Israeli settlements in the West Bank is actually private Palestinian 
land. I have also read that the separation wall exacerbates this 
problem because in many places it does not follow the 1967 border and 
instead encroaches into the West Bank, cutting off villagers from their 
fields or access to water, and in some places dividing Palestinians 
from their neighbors. I've not heard anything from the administration 
on either of these issues. What is your position?
    Has the administration completed its review of Israel's use of 
cluster munitions in Lebanon last year, particularly during the final 3 
days of the conflict, and has it taken any action as a result of the 
findings of that review?
    Answer. The President stated in April 2005 that ``Israel has 
obligations under the roadmap. The roadmap clearly says no expansion of 
settlements. And we'll continue to work with Israel on their 
obligations. Israel should remove unauthorized outposts and meet its 
roadmap obligations regarding settlements in the West Bank.''
    The Government of Israel has legitimate defense needs to secure its 
border in response to attacks and infiltrations by those who commit 
suicide attacks against citizens. Our view remains that the barrier 
should be a security rather than a political barrier, should be 
temporary rather than permanent, and should therefore not prejudice any 
final status issues including final borders, and its route should be 
taken into account, consistent with security needs, its impact on 
Palestinians not engaged in terrorist activities.
    Regarding cluster munitions, the Department provided a report to 
Congress on this matter in January, and will continue to update the 
Senate Appropriations and Foreign Relations Committees staffs on this 
issue through additional briefings, including the results of the 
Government of Israel's ongoing internal investigation. As the contents 
of our agreements with Israel are classified, we are not in a position 
to provide further information in this letter.
    Question. Last year, when the White House announced that its survey 
indicated a slight rise in the price of cocaine in the United States 
over a period of 6 months, the State Department claimed it was proof 
that Plan Colombia was finally beginning to show the results we were 
promised. When this year's report was released and the survey showed 
that the price of cocaine had fallen to a new low, the administration 
said nothing.
    Since then, the only argument the administration makes that its 
counterdrug policy is working is that if the cocaine that has been 
seized or eradicated had made it to the United States, the drug problem 
would be worse. But that ignores the fact that the flow of cocaine is 
determined by the demand. There is no evidence that Plan Colombia, 
after $5 billion in U.S. aid, has made a dent in the availability or 
price of cocaine in this country.
    Your fiscal year 2008 budget request for Colombia is almost exactly 
the same amount for the same purposes as it has been for the past 5 
years. Isn't it time to evaluate why it isn't working, and try another 
approach?
    Answer. This question provides an important opportunity to examine 
and clarify what we are doing in Colombia and why we are doing it. The 
U.S. Government strategy against cocaine is based on the underlying 
principle of action against the early stages of drug production--to 
disrupt activities, eradicate crops and interrupt materials flow as 
much as possible in the source zones.
    A key goal of Plan Colombia's comprehensive approach, which 
encompassed our strategy plus the strengthening and expanding of 
government presence, eradicating and interdicting the drugs that fueled 
the conflict, and implementing alternative and social development 
programs, was to reduce significantly the supply of cocaine to the 
United States. Although these measures arrested, and temporarily 
reversed, the almost unfettered increase in coca cultivation that 
occurred through 2001, they did not permanently diminish the supply of 
cocaine to the degree necessary to increase its price significantly or 
reduce its purity on U.S. streets.
    Contrary to the assertion in the question, cocaine supply is not 
solely determined by demand. The supply of a substance as addictive and 
as aggressively marketed as cocaine itself influences the level of 
demand. Suppliers are in the business of expanding their market, and 
they use whatever means available to them. Also, one explanation for 
the reported lack of progress on price and purity could be that because 
U.S. cocaine use has steadily declined over the same period, it simply 
takes less product to meet market demand.
    We continue to believe that the removal of hundreds of metric tons 
of cocaine from the supply chain every year (approximately 500 MT in 
2006 alone) through United States-supported eradication and 
interdiction efforts has a very real and positive impact on cocaine 
availability, as well as a very real reduction in illicit drug 
finances. Conversely, because those eradication and interdiction 
efforts place the illicit drug industry under great pressure, abatement 
of those efforts would yield real and negative results.
    More broadly, we do not believe that the price and purity of 
cocaine in the United States should be the primary benchmark by which 
the success of foreign assistance to Colombia in general, and support 
for Plan Colombia in particular, is measured. Colombia's democratic 
security policy--and the paramilitary demobilization--has strengthened 
Colombia's democratic institutions, and led to substantial improvements 
in human rights protection. Murders are down almost 40 percent, from 
29,000 in 2002 to 17,300 in 2006. Colombia's aggregate homicide rate is 
at its lowest level since 1987. Kidnappings fell 75 percent over the 
same time period, from 2,885 to 687. Victims of massacres fell from 680 
in 2002 to a little over one third that amount in 2006. The dispersion 
and decentralization of the coca crop in Colombia is a reflection of 
the dispersion and weakening of the cartels and terrorists that once 
threatened to overrun the country.
    The improved security climate has promoted Colombians' freedom to 
travel, work, socialize, and invest. Economic growth has averaged over 
5 percent since 2002. Civil society and political parties operate more 
openly than ever before. The labor-affiliated National Unionist College 
reported that murders of unionists fell by over 60 percent between 2001 
and 2006. The number of human rights defenders killed or missing 
dropped from 17 to 4 over this same time period. Much of this 
improvement can be attributed to greater government control and 
participation, brought about by the improved security situation 
generated by our eradication and interdiction efforts.
    In most categories by which we can measure the success of our 
foreign assistance investment, Colombia is vastly improved over its 
pre-Plan Colombia days. Indeed, it is difficult to imagine another 
country in which U.S. foreign assistance has produced more impressive 
returns. Of course, many serious challenges remain, including bringing 
perpetrators of crimes against humanity to justice and providing 
alternative livelihood opportunities for those now compelled by 
coercion or economic circumstance to collaborate with drug traffickers 
or to engage in armed actions against the legitimate government. 
However, exclusively defining foreign assistance success in Colombia by 
the price and purity of cocaine in the United States, or by the number 
of hectares under coca cultivation, overlooks these broader successes.
    Moreover, eradication and interdiction are reasonable law 
enforcement efforts in their own right. Growing coca is illegal in 
Colombia. Transporting and processing coca, coca base, and cocaine are 
also illegal. The terrorist groups and others which these illegal 
activities fund are a threat to Colombia's democratic society.
    We are not advocating continuance of the status quo without 
critical review and development of more effective strategies. Indeed, 
we have been engaged with the Government of Colombia for over a year in 
developing a new strategy that would carry through fiscal year 2013 and 
that, subject to yearly Congressional approval, would shift funding to 
social programs and reduce by one third U.S. funding to law enforcement 
and military (``hard side'') programs. In the near term, we are looking 
for ways to strengthen the Prosecutor General's office and produce 
movement on longstanding cases. In addition, we are continually 
reviewing operational strategy and tactics to find more efficient and 
effective methods. A prime example is the change to our aerial 
eradication strategy in which we stay longer in the three primary 
growing areas, instead of trying to spray every major and minor growing 
area once a year. This new strategy is designed to directly address 
replanting and break the cultivation cycle.
    However, as long as illicit drug trafficking remains a highly 
profitable enterprise, this battle will require the full array of law 
enforcement, military, alternative development, social, judicial, and 
economic assistance. The fiscal year 2008 budget request is similar to 
fiscal year 2007 in part because it is necessary to maintain aviation 
asset availability to keep eradication apace (including manual 
eradication, which is also partially dependent on United States-
supported aviation assets).
    Aviation-intensive counternarcotics and counter-terrorism programs 
have filled a critical need in Colombia's war against drugs and 
terrorist groups. The Colombian Government has clearly stated that 
continued U.S. support for these programs remains critical, and that, 
for now, our proposed mix of U.S. assistance continues to reflect their 
most urgent needs.
    Question. You recently certified that the Colombian Government and 
military have met the human rights conditions in our law. According to 
information we have received from the United Nations, the Procuraduria, 
and the Colombian Commission of Jurists, extrajudicial killings by the 
Army rose sharply last year, to between 150-250 depending on the source 
of the information. Did the Embassy discuss these cases with the United 
Nations, the Procuraduria, or the Colombian Commission of Jurists prior 
to making the certification? If so, what conclusions did the Embassy 
reach as a result of those discussions? Why, given this negative trend, 
did you certify substantial progress? Has anyone been convicted of any 
of those crimes?
    The United Nations and the Colombian Commission of Jurists also 
estimate over 800 targeted killings by paramilitaries, despite the 
demobilization, last year. Has anyone been convicted of any of these 
crimes?
    What has the Embassy done to determine whether paramilitary 
commanders in the Itagui prison are continuing to engage in criminal 
activity? In light of recent revelations that they were apparently 
using cell phones to continue committing killings and other crimes, has 
the Colombian Government ordered the cell phones removed? Was the 
Colombian Government legally monitoring paramilitaries' calls?
    We are told that Mancuso has confessed that General Rito del Rio 
collaborated with the AUC, and that he told the AUC which areas of the 
country they could control. Is it true that President Uribe publicly 
praised Rito del Rio in a ceremony organized to honor del Rio after the 
United States revoked his visa and after he was fired from the Army? 
What is the Fiscalia doing to investigate the allegations against del 
Rio? What is the Fiscalia doing to investigate other members of the 
military named by Mancuso?
    Answer. The Embassy discussed the issue of alleged extrajudicial 
killings with the U.N. High Commissioner's Office on Human Rights, the 
Colombian Commission of Jurists (CCJ), and the Inspector General's 
Office (Procuraduria), as well as with the International Committee of 
the Red Cross (ICRC). The Embassy has also emphasized to the Prosecutor 
General's Office (Fiscalia), the Minister of Defense, the Armed Forces 
and Army Commanders, and the Procuraduria the need to investigate these 
cases in a rapid and thorough manner and to review military practices, 
training, and doctrine to prevent such cases from occurring.
    The CCJ provided the Embassy with information that showed 93 people 
were allegedly killed or disappeared by paramilitaries in the first 
half (Jan-July) of 2006. During the period June 2005 to July 2006, the 
CCJ reported 354 individuals were allegedly killed by paramilitaries, 
down from the 1,234 reported during the comparable period from June 
2003 to July 2004. The Fiscalia told us it currently has multiple cases 
open against former paramilitaries, but was not able to provide an 
exact nationwide figure. The Fiscalia also said there have been 
convictions over the past year, but that the Human Rights unit does not 
have centralized statistics on the exact number of convictions.
    The Fiscalia has 77 cases of extrajudicial killings open at the 
moment, with a total of 133 victims. According to the Fiscalia, there 
are 48 members of the military now in preventive detention in 
connection with these cases. The Procuraduria has since told the 
Embassy that 131 cases of alleged forced disappearance committed by the 
military have been reopened. We will continue to follow these cases.
    There is an ongoing investigation by a USG law enforcement agency, 
in cooperation with the Colombian authorities, of criminal activities 
allegedly being committed by former paramilitary commanders currently 
in Itagui prison. The Colombian government reports that paramilitary 
leaders held in Itagui--who have the formal status of negotiators in 
the paramilitary process--enjoy access to cell phones similar to that 
provided to ELN negotiators Francisco Galan and Juan Carlos Cuellar. 
Colombian law enforcement agencies are investigating the alleged 
involvement of paramilitary commanders in Itagui in criminal 
activities, but have not ordered the cell phones be removed. Colombian 
National Police Commander Oscar Naranjo has since told the Colombian 
Congress that the Police's monitoring of communications in Itagui was 
legal. The Fiscalia and the Procuraduria are reviewing the monitoring 
and will make a determination regarding its legality.
    According to the Fiscalia, currently there are no active 
investigations linked to Mancuso's testimony. In particular, General 
Rito Alejo del Rio is not presently under investigation by the 
Fiscalia. However, the Fiscalia plans to follow-up with Mancuso 
regarding his testimony that concerns General del Rio; it will make a 
decision on whether to reopen the case and undertake a formal 
investigation at that time.
    We understand that the Inspector General has reopened its 
investigation into General del Rio's actions while serving as commander 
of the 17th Brigade, as a result of disclosures from the paramilitary 
investigations. The reported praise of del Rio by President Uribe 
occurred at a dinner at the Hotel Tequendama in Bogata in May 1999. 
This was 2 months before the United States revoked his visa.
    Question. What will it take to get a U.N. peacekeeping force 
deployed of sufficient size to stop the genocide in Darfur? Is it just 
a question of how much international pressure the Sudanese Government 
can withstand? Where does that pressure need to come from? What is the 
administration doing, since past efforts have failed?
    Answer. The United States and the international community are 
firmly committed to resolving the crisis in Darfur and bringing 
sustainable peace to Sudan. Transition of the current African Union 
Mission in Sudan (AMIS) to a more robust United Nations/African Union 
(U.N./AU) hybrid peacekeeping operation remains a policy priority for 
the United States and its allies. However, President Bashir continues 
to defy his international obligations and reject the deployment of an 
U.N.-led hybrid force in spite of previously stated support for the 
Addis Ababa framework of a three-phased peacekeeping plan to Darfur.
    We believe that continued unified multilateral pressure from key 
players, including members of the U.N. Security Council, European 
Union, AU, and Arab League is required to convince the Government of 
Sudan (GoS) to accept the U.N./AU hybrid force with U.N. command and 
control structures that conform to U.N. standards. We continue to reach 
out to international partners in the United Nations and European Union 
to urge sustained pressure on Khartoum. We believe that all options 
must remain on the table. This includes possible multilateral and 
further bilateral sanctions.
    In preparation for the hybrid deployment, we are also working with 
the United Nations and our international partners to accelerate 
implementation of the Addis Ababa framework and to mobilize potential 
Troop Contributing Countries (TCCs) to contribute to a stronger Darfur 
peacekeeping mission. This includes U.S. logistical support for the 
United Nations Light Support Package to AMIS to bolster the current 
mission on the ground and facilitate transition to a robust hybrid 
operation as well as training and equipping of additional TCCs through 
the African Contingency Operations Training and Assistance (ACOTA) 
program.
    Question. Do we have any evidence of the existence of terrorist 
assets in Cuba?
    Your [U.S. State Department Country Report on Terrorism] report 
says Cuba did ``not undertake any counterterrorism efforts.'' Does that 
make them a state sponsor of terrorism? Your report says Cuba continued 
to provide ``safe haven'' for members of Colombian rebel groups. But 
according to the Colombian Government, Cuba has been acting as a 
facilitator for peace talks between the government and these groups. 
How does this make them a state sponsor of terrorism?
    Answer. Cuba has been on the State Sponsors of Terrorism list since 
1982. The decision to place Cuba on that list was originally based on 
Cuban support for terrorist insurgencies attempting to overthrow 
democratic governments in Latin America.
    Cuba has provided on-going safe haven to several U.S. designated 
terrorist organizations such as the FARC, ELN, and ETA. If Cuba were 
serious about fighting terrorism, it would renounce the support it 
offers to these terrorist groups, arrest members and seize their 
assets. The fact that the Cuban government allows the presence of these 
groups in Cuba is an indication that terrorist assets or support 
structures exist as well. Cuba's role in dialogue between Colombian 
terrorist organizations and the Colombian government does not discount 
the support it provides these terrorist organizations.
    Cuba also remains on the list since it continues to harbor 
fugitives from U.S. justice, including Joanne Chesimard, who escaped 
from prison after her conviction for the murder of a New Jersey State 
Trooper while a member of a domestic terrorist group. In addition, Cuba 
provides shelter to Victor Manuel Gerena, an FBI Top-Ten Most Wanted 
fugitive. Gerena, a member of the ``Macheteros'' terrorist group, 
participated in the 1983 armed robbery of an armored car that netted $7 
million.
    Question. Why are we backing a general who seized power in a coup 
and has used his position to weaken democracy and the rule of law in 
Pakistan, without clear benchmarks with which to measure progress on 
democracy and human rights?
    Answer. We have made it clear to the Pakistan Government that we 
expect Pakistan's upcoming national elections, which are likely to take 
place in late 2007 or early 2007, to be free and fair. In those 
elections, Pakistani voters will have the opportunity to select the 
government that will lead the country forward.
    We have also been clear to the Pakistan Government about our 
appreciation for the enduring, substantial support that President 
Musharraf has provided in the Global War on Terror--and we have been 
clear that we believe that his vision of ``enlightened moderation'' 
represents a positive future for Pakistan.
    During meetings in Islamabad in March 2006, President Musharraf and 
President Bush agreed the United States would support Pakistan as it 
builds strong and transparent democratic institutions and conducts free 
and fair elections to ensure sustainable democracy. We continue to 
support these goals.
    President Musharraf has stated that his plan remains the same--to 
move toward a civilian-controlled democracy. We have seen some positive 
progress in Pakistan in key areas such as electoral reform, women's 
rights, local governance, and--despite recent setbacks--freedom of the 
press.
    To take a few examples: in the area of election reform, Pakistan--
with USAID assistance--is assembling the highest-quality and most-
reliable electoral roll in its history, to be finished in time for the 
upcoming national elections. In the civil liberties arena, in December 
2006 President Musharraf signed the Women's Protection Act amending the 
Hudood Ordinance, marking a significant step toward improving the legal 
rights of women in Pakistan by allowing criminal courts (rather than 
religious courts) to try rape cases. The act marks the first time in 
nearly three decades that a Pakistani government has rolled back 
discriminatory laws that have stood virtually untouched since the time 
of General Zia-ul-Haq. In the area of local governance, the devolution 
reforms implemented by the Government have increased public access to 
local government, and government accountability.
    We have also seen, over the past 6 or 7 years, significant 
increases in the freedom of the Pakistani press and in the Pakistani 
public's access to reliable information and outspoken views in the 
media. We have made our views clear that this is a trend that must 
continue, and that cannot be set aside or reversed. We urge the 
Pakistan government to continue their progress by holding free and fair 
multi-party elections as scheduled in 2007 or early 2008 that meet 
international standards.
    As the President recently stated, ``We have a fundamental interest 
in the success of Pakistan as a moderate, stable, democratic Muslim 
nation.''
    Question. When Speaker Pelosi met recently with Syrian President 
Assad, the White House accused her of meddling in foreign policy and 
undermining the administration's efforts to isolate Syria. However, 
when other Members of Congress, including Republicans, met with Assad, 
the White House said nothing. And in Egypt recently you met with 
Syria's foreign minister in what were described as substantive and 
professional discussions. Is the administration's position that it is 
okay for Republicans to meet with the Syrians, but not Democrats? Or 
that it is okay for the administration, but not Congress?
    Answer. In an effort to ensure that the legislative and executive 
branches of the U.S. Government deliver the same message that Syria 
must change its behavior on a broad range of issues, the Department 
continues to advise against Congressional travel to Damascus. High-
level United States visits to Damascus are exploited by the Syrian 
regime to demonstrate a degree of legitimacy and international 
acceptance that Syria has not yet earned.
    The United States remains committed to maintaining peace and 
security in the region. To this end, we continue to review what tools 
are available to pressure the Syrian regime into changing its behavior.
    The Syrian Foreign Minister and the Secretary's discussion on the 
margins of the Expanded Iraq Neighbors' Conference meeting in Sharm el-
Sheikh was limited to Iraq. Moreover, the Secretary relayed to the 
Syrians that we have no desire to have bad relations with Syria. As the 
Secretary said, ``the Syrians clearly say that they believe that 
stability in Iraq is in their interest, but actions speak louder than 
words we will have to see how this develops.'' Before we can accept 
Syria into the international community, ``there need to be concrete 
steps that show that on the Iraqi issue, for instance, that there is 
actually going to be action.''
    Question. You have already heard many of us mention China this 
morning. China is our fastest growing competitor on every front, but 
the rule of law is often violated by Chinese authorities and civil 
society has few rights. The courts are not independent and there are 
almost no checks on government power.
    Each year, Senator McConnell when he was Chairman and I, as well as 
Senator Specter, have tried to increase our assistance for rule of law 
and justice programs in China. Yet each year, the administration 
proposes to cut these programs. For fiscal year 2008 you propose only 
$1.3 million. How can we have a meaningful impact on issues as 
important as these in a country of over 1.2 billion people with such a 
tiny amount of money?
    Answer. We share Congress' support for rule of law, public 
participation and civil society programs in China.
    We concur with your assessment and concerns that China's 
authoritarian system and a lack of judicial independence pose enormous 
challenges for reform. However, within these constraints, our China 
programs are working to foster judicial independence and legal reform; 
improve citizen access to legal services; increase the capacity of 
legal professionals; and help to produce better laws through public 
participation and strategic assistance from outside experts.
    We hope to have a long-term impact because these programs foster 
the growth of civil society both as a counterweight to the government 
and a provider of public services.
    A substantial amount of Governing Justly and Democratically 
programming in China is supported by funds from the Human Rights and 
Democracy Fund, administered by the Bureau of Democracy, Human Rights, 
and Labor (DRL). By the end of this fiscal year alone, DRL will have 
openly competed and awarded $19.8 million in 25 grants using fiscal 
year 2006 appropriated funds. While democracy and rule of law 
development are long-term efforts, programs have already produced 
concrete successes that are indicative of greater changes to come. For 
example, in the area of women's rights, provincial level stakeholders 
used DRL-supported technical assistance to advocate and win passage of 
refinements to workplace sexual harassment laws in six provinces--
including definitions and forms of sexual harassment that provide 
greater clarity than national law. DRL assistance is also helping to 
clarify judicial interpretations on sexual harassment claims. These 
clarifications and refinements will afford women greater protection 
from sexual harassment and form the foundation for future legal reform.
    For fiscal year 2008, DRL intends to dedicate $5 million out of the 
$35 million requested for the global Human Rights and Democracy Fund to 
programs in China. This figure is a product of the new Foreign 
Assistance Framework and the USG's prioritization of China as a country 
of high importance. DRL will continue to include rule of law issues in 
its competitive calls for proposals to support the best initiatives 
proposed by partners in the NGO and academic communities.
    Additionally, our Bureau for International Narcotics and Law 
Enforcement Affairs continues to use International Narcotics and Law 
Enforcement funds to support a Department of Justice Resident Legal 
Advisor (RLA). The RLA provides Chinese government officials, jurists, 
and academics with expertise on U.S. criminal law and procedure, and to 
promote long-term criminal justice reform in China consistent with 
international human rights. To this end, the RLA seeks to facilitate 
contacts between the United States and China, and introduce Chinese 
officials to U.S. justice sector values and practices.
    USAID also is carrying out significant rule of law programs in 
China through partnerships between United States and Chinese 
universities. In 2006, USAID provided $5 million, in line with the 
Congressional mandate, to university partnerships in the area of rule 
of law and the environment. A partnership between Vermont Law School 
and Sun Yat-sen University is strengthening environmental rule of law 
in China, focused on application and enforcement of environmental 
regulations. A consortium including the University of the Pacific 
McGeorge School of Law and American University's Washington College of 
Law with the South China University of Technology and Zhejiang Gongshan 
University focuses on the application of law in practice. Another 
premier college of law in China is expected to join the consortium in 
the coming year.
    In 2007, USAID will be providing another $2 million for rule of law 
and $3 million for environmental governance programs, and has requested 
another $5 million for fiscal year 2009.
    Question. You propose to cut our aid to Russia from $84 million in 
fiscal year 2007 to $52 million in fiscal year 2008. If this aid was 
for the Russian Government I would agree with that. But most is to 
support Russia's beleaguered democratic forces and for health and other 
programs to help the Russian people, who number over 140 million. So 
far, your efforts to strengthen democracy in Russia seem to have 
failed. What is your policy toward Russia today?
    By comparison, you propose $71 million for Ukraine with 46 million 
people and $35 million for Armenia with 3 million people. Given 
Russia's problems, why do you believe that $52 million is adequate?
    Answer. Our policy toward Russia is to cooperate when we can and to 
push back when we must. We work well and closely with Russia on 
counterterrorism, many non-proliferation issues, and nuclear issues. We 
have discussed our concerns over Russia's backsliding on democracy 
issues and relations with its neighbors.
    This decline in the request for Russia reflects, in part, Russia's 
high economic growth rates and the related decision to phase out 
economic reform assistance for Russia. fiscal year 2008 is the first 
year where no funds are budgeted for assistance in this area. Democracy 
programs in Russia remain a top U.S. priority, with particular focus on 
helping to strengthen civil society, democratic institutions, 
independent media, and the rule of law. As in previous years, over half 
of the Russia budget (in fiscal year 2008, approximately $26.2 million) 
will continue to be devoted to supporting efforts to promote democracy 
and rule of law.
    The reduced request for civil society programs this year is based 
on the expectation that support for democratic development will be 
bolstered by over $180 million recovered from previous activities: The 
U.S.-Russia Investment Fund (TUSRIF) will invest its profits in a new 
foundation that will give grants to support entrepreneurship, the rule 
of law and the free flow of information in Russia. Funds recovered 
through the settlement of a civil lawsuit against a USAID contractor 
will be programmed to bolster Russian civil society groups.
    Combating HIV/AIDS is also a priority, given that Russia has one of 
the fastest growing epidemics in the world. President Putin joined 
President Bush in recognizing HIV/AIDS as a threat to Russia's national 
security and has made fighting the disease a priority. As a result of 
programs in this area, United States and Russian lab specialists are 
working side by side to strengthen HIV/AIDS laboratory capacity in 
Russia and Africa. Funding in this area will increase to $11 million in 
fiscal year 2008. U.S. programs also support joint efforts with Russia 
to combat transnational threats such as organized crime, drug 
smuggling, trafficking in persons, cyber-crime, and terrorist 
financing.
    In the North Caucasus, the Russian Government's unwillingness to 
meet the needs of internally displaced persons exacerbates regional 
instability and creates an environment ripe for extremism. fiscal year 
2008 funding will also support conflict mitigation programs in the 
region as well as humanitarian assistance to help stem the spread of 
violence and promote health, sanitation, and community development.
    Question. Your fiscal year 2008 budget would cut aid for Guatemala, 
Honduras, and Nicaragua, three of the poorest countries in the 
hemisphere. Each of these countries is a source of illegal immigrants 
to the United States. Why does this make sense?
    Answer. The Americas are an important priority for the 
administration. Overall foreign assistance to the region has nearly 
doubled since the start of this administration, from $862 million in 
fiscal year 2001 to $1.5 billion in fiscal year 2008 (requested). This 
amount does not include MCA compacts.
    The traditional bilateral assistance programs for Guatemala, 
Honduras, and Nicaragua in fiscal year 2007 are reduced from their 
fiscal year 2006 levels. However, pending the final fiscal year 2007 
allocations, we expect that all three bilateral programs will be 
increased in fiscal year 2008. It is important to note that our 
bilateral programs do not reflect the totality of our assistance. For 
example, in fiscal year 2008, we requested $40 million for the regional 
CAFTA-DR TCB program focused on helping these economies take full 
advantage of the benefits of the CAFTA-DR Free Trade Agreement. USAID 
also administers several significant development programs focused on 
health, education, and environment throughout Central America. The 
Peace Corps is also very active with robust programs in all three 
countries.
    In addition to traditional foreign assistance programs, the United 
States contributes to the region through innovative mechanisms such as 
the Millennium Challenge Account (MCA) and debt relief programs. The 
Millennium Challenge Corporation (MCC) has approved five-year compacts 
for Nicaragua ($175 million) and Honduras ($215 million), and we are 
working closely with Guatemala to help them qualify for future MCA 
assistance.
    In his March 5 speech to the Hispanic Chamber of Commerce, the 
President announced several additional development initiatives for 
Latin America, including a $385 million expansion of a $100 million 
OPIC program that helps underwrite mortgages to families in the 
countries of Central America, and an agreement with the IDB to extend 
debt relief to the most highly indebted countries in the region 
(including Honduras and Nicaragua) by $3.4 billion. The latter would be 
in addition to an earlier agreement with the Group of 8 industrialized 
nations to reduce the debt of Latin America and Caribbean nations by 
$4.8 billion. That works out to about $110 for every man, woman, and 
child in these countries, monies that their government should use to 
invest in the education and health of their citizens.
    In 2006, the United States spent nearly $3 million and conducted 70 
medical readiness and training exercises, or MEDRETEs, in 18 countries 
throughout Central and South America and the Caribbean at an estimated 
cost of nearly $3 million. In 2007, we have already conducted 65, in 15 
countries, including activities in Guatemala, Honduras, and Nicaragua. 
Combined, the MEDRETEs provide medical care to more than 200,000 
individuals--in many cases the only professional medical care they will 
receive.
    Additionally, Health and Human Services Secretary Mike Leavitt and 
his Panamanian counterpart just inaugurated during the OAS General 
Assembly the ``Initiative for Health Diplomacy in the Americas,'' which 
is providing technical and financial resources from the U.S. Government 
and private-sector to improve health care for people in Central 
America. One of the main objectives of this initiative is to train 
community health workers and nurses from across Central America in 
providing basic preventive care and in responding to infectious disease 
outbreaks. We remain committed to assisting governments to address the 
needs of their peoples, and are now taking advantage of non-traditional 
ways to do so.
    Question. The Millennium Challenge Corporation was established in 
2003, and since then we have appropriated $5.9 billion for it. The MCC 
has signed 11 compacts to date and six more are projected in 2008. To 
date, $3 billion obligated and only $68 million has been disbursed to 
governments, much of which has not actually been used yet to purchase 
anything. What has actually been accomplished with the funds?
    Answer. Early year MCC disbursements have been admittedly modest, 
but we are working with MCC to match disbursements with expectations. 
During a typical 5-year Compact, MCC generally expects to disburse less 
than 8 percent of total funds during the first year, nearly 28 percent 
the second year, around 31 percent the third year, 22 percent the 
fourth year, and 11 percent during the final year as projects and 
related contracts are completed. This is consistent with large project 
implementation even in the private sector. While actual disbursements 
are modest at around $84 million, contracts and commitments 
(administrative reservations of funds not based on legally binding 
transactions or documents) are nearly double that amount. In 
Madagascar, MCC's first Compact partner country, 23 percent of the 
total Compact amount has been committed.
    MCC has every intention of using the entire amount obligated to 
each and every Compact and Threshold partner country, but in many cases 
MCC's high standards--on procurement processes, environmental and 
social impact mitigation, monitoring and evaluation--have slowed down 
the process. In some cases, disbursements are triggered only when 
conditions precedent, as spelled out in Compact and Threshold 
documents, are met. Indeed, we often remind countries that MCC should 
not be taken for granted, since continued engagement is conditional on 
good policy performance. That is one of the core principles of the 
Millennium Challenge Account, distinguishing it from foreign assistance 
policies of the past.
    However, MCC's high standards are not the only reason behind modest 
disbursements. In some cases, MCC overestimated country capacity or 
misjudged the political independence of the programs. MCC works with 
host countries as partners, but sometimes those partners are slow to 
establish key structures, have complex plans or government systems, or 
lack the full technical capacity to manage and implement the programs 
they propose.
    To address these problems, MCC is offering better guidance to 
partner countries and developing standard operating documents. MCC is 
also conducting up-front analysis of host country capacity and 
developing explicit capacity-building plans, which include specialized 
training. In addition, MCC is using 609(g) authority to provide pre-
Compact funds to establish systems and structures needed to get a 
Compact implemented. Finally, MCC is developing more realistic first-
year disbursement projections.
    To date, MCC has signed 11 Compacts worth a total value of $3 
billion. MCC expects that two more will be approved and signed within 
the coming weeks, another before the end of the fiscal year, and four 
more early in fiscal year 2008. MCC hopes to conclude another four 
later in fiscal year 2008. Indeed, the eight Compacts in the pipeline 
for fiscal year 2008 total roughly $3 billion, the amount the President 
put forward for MCC in his fiscal year 2008 budget request.
    As MCC Board Chair, I plan to follow-up with MCC on the issue of 
disbursements and budget pipelines to ensure that MCC budget requests 
are fully aligned with these realities and, just as importantly, so 
that partner country expectations regarding rewards for good policies 
and consequences for bad behavior are met. This will ensure that the 
MCC's positive multiplier effect will continue to influence host 
country actions and encourage constructive policy reforms within MCC 
partner countries and beyond.
    Question. For years, an amendment Senator McConnell and I wrote has 
conditioned a portion of our aid to Serbia on its cooperation with the 
war crimes tribunal at The Hague, including apprehending and 
transferring to The Hague former Bosnian Serb leaders Ratko Mladic and 
Radovan Karadzic.
    We know the Serb Army helped protect Mladic, and he remains at 
large. The Serbs say Karadzic is not in Serbia, but that suggests they 
know where he is. The Hague prosecutor says he is there. How is it 
possible that two of Europe's worse war criminals have escaped justice 
for so long? Can we count on you to make clear to the Serb authorities 
and to the European governments that the United States will oppose 
their entry into NATO and other regional economic and security 
organizations unless these men are turned over?
    Answer. We continue to make clear publicly and privately that 
Serbia needs to fully cooperate with the International Criminal 
Tribunal for the Former Yugoslavia before it can completely integrate 
into Euro-Atlantic institutions. While I am fully supportive of Serbia 
becoming part of a united Europe, whole, free, and at peace, and while 
many reforms have been successfully implemented, Serbia simply cannot 
complete its process of integration without several final changes. 
Fundamental to this is the full establishment of the rule of law, 
including the establishment of accountability for war criminals.
    Our policy has been a balanced one. By constructively engaging 
Serbia, encouraging integration, and offering some forms of assistance, 
we have increased our influence, given impetus to reformers within 
Serbia, and have moved our bilateral relationship forward. At the same 
time, we have made clear to the Serbian leadership that their ultimate 
goal of full integration and membership will not come to pass until 
they deal with this issue. This is a point we make in virtually every 
meeting we have with their political and military leadership. And we 
have consistently encouraged our European allies to do the same.
    Ensuring accountability for war criminals is a priority for this 
administration. In March of this year, we critically re-examined our 
efforts to secure the capture of the remaining ICTY fugitives in light 
of recent developments. I can assure you that I continue working to 
realize justice for the victims of atrocities in the Former Yugoslavia. 
As one example, we are currently working towards the establishment of 
mechanisms through which each of the five remaining ICTY fugitives will 
face justice even if their capture eludes us by the time the ICTY 
closes, currently scheduled for the end of 2010. This will send a clear 
signal that fugitives cannot out-wait justice.
    But we are not idly waiting for the remaining fugitives to turn 
themselves in. We are actively encouraging their apprehension. The 
State Department's Office of War Crimes Issues, in coordination with 
the Bureau of European and Eurasian Affairs, has been facilitating 
better cooperation among security services in the region in the 
handling of investigations of fugitives. To that effect, we have 
designated a regional liaison officer to assist war crimes cooperation.
    While it is a disappointment to me that Ratko Mladic and Radovan 
Karadzic remain at large, ultimately, responsibility lies with local 
authorities to apprehend those fugitives who are on their territory. We 
have seen progress recently, including, notably, the recent arrest of 
Zdravko Tolimir, one of the architects of the Srebrenica genocide, but 
we remain focused on the capture of Ratko Mladic and Radovan Karadzic.
    Question. In November 2006 an Indonesian court found Antonius 
Wamang guilty of leading an attack that left two Americans dead and 
eleven people wounded near the gold and copper mine of Freeport McMoRan 
in Timika, West Papua. The conviction of Wamang represents the success 
of years of diplomacy--only after years of pressure from your good 
offices did the Indonesian authorities bring anyone to justice for this 
assault on Americans. Six other men were charged in November as 
Wamang's accomplices. But questions remain about the evidence that 
links some of these men to the murders. Reverend Isak Onawame, a local 
human rights advocate who has met with congressional offices and State 
Department officials, helped convince Wamang to surrender. Reverend 
Onawame accompanied Wamang when he surrendered to FBI special agents in 
Timika. The FBI delivered Wamang, Onawame, and other men to the custody 
of Indonesian police officers. Alleged police mistreatment led to a 
``confession'' of involvement by Reverend Onawame: he told the 
interrogators that he supplied the attackers with rice. Onawame and 
others have since recounted their statements, saying that they were 
made under duress. Is the administration aware of any credible evidence 
linking Reverend Onawame to the murder of American citizens?
    According to the ballistics evidence, 13 guns were fired in the 
attack, including M-16's, yet only three shooters were accounted for. 
The police who conducted the initial investigation concluded the 
military was involved, but the case was taken away from them. Does the 
administration know who supplied the bullets? Does the administration 
have any idea who fired the 10 other guns? What effort is being made to 
find out?
    Answer. The Department also welcomed the conviction of Antonius 
Wamang and his accomplices. The defendants were afforded legal counsel 
and a public trial. It is our understanding that, while the FBI 
continues to pursue investigative leads, it typically does not disclose 
details regarding pending investigations. To the extent the Committee 
is seeking other information regarding this matter, we suggest the 
Committee seek this information from the FBI.
    Question. There have been several cases recently of domestic 
employees, such as housekeepers and gardeners, working at embassies in 
Washington being exploited and abused, their passports seized, and 
being detained against their will by foreign diplomats. I understand 
that in 2000 the State Department informed foreign embassies that visas 
for domestic staff would only be considered if the embassy has a 
contract with the staff person and steps have been taken to ensure they 
understand the terms.
    What is the role of the State Department in ensuring the fair 
treatment of domestic staff at foreign embassies located in the United 
States?
    How is the Department monitoring and enforcing the requirement that 
foreign embassies have a written and understood contract with domestic 
staff?
    Have any visas been denied because of a lack of such contracts, or 
because of prior violations?
    Has the State Department ever pressured a foreign government to 
waive the immunity of any diplomats when there was credible evident 
that they were involved in a serious crime? Could that be done in cases 
of abuse of embassy domestic employees?
    Answer. The State Department has implemented several measures to 
address complaints that diplomatic personnel exploit foreign domestic 
workers. The Department has issued periodic diplomatic notes to 
diplomatic missions containing model employment contracts and 
underscoring the importance of humane treatment of domestic staff. In 
particular, the Department requires that in order for a visa to be 
issued to a foreign domestic worker to come to the United States to 
work for diplomatic or consular personnel, or persons working for an 
international organization, the worker and employer must have agreed to 
a contract that provides fair terms of employment. The contract must be 
in the worker's language and must provide that the worker will be paid 
minimum or prevailing wage, whichever is higher. The contract must also 
have other provisions intended to ensure fair treatment of the worker, 
e.g, a requirement that the worker be given his or her passport. If a 
visa is issued, the issuing consular facility also gives the worker a 
brochure explaining some basic rights of persons in the United States; 
that brochure has a ``hotline'' telephone number that can be called if 
a worker suffers abuse.
    Following issuance of the contract requirement, the numbers of 
visas issued have dropped:
    Fiscal year 1999: A-3/2,279 G-5/1,737
    Fiscal year 2000: A-3/2,486 G-5/1,737
    Fiscal year 2001: A-3/2,228 G-5/1,645
    Fiscal year 2005: A-3/1,227 G-5/998
    Fiscal year 2006: A-3/1,017 G-5/940
    Although there may be several reasons for this, inquiries received 
from consular officers concerning issuance of these visas suggest that 
the contract requirement, coupled with instructions from the Department 
concerning treatment of these workers, has caused fewer visas to be 
issued.
    Recent complaints of abusive conditions that have been brought to 
the Department's attention have prompted Department offices to examine 
what additional steps may be appropriate. The Department plans to 
increase its efforts to obtain better compliance by embassy personnel 
with the registration requirement of the Vienna Convention on 
Diplomatic Relations and to draw to the attention of the diplomatic 
community the importance the Department and other U.S. agencies place 
on compliance with U.S. laws and fair treatment of these workers. 
Additionally, the Department is reviewing the visa issuance process for 
these workers.
    When potential cases of abuse arise, it is the Department's policy, 
stated in internal regulations (2 FAM 234), to request a waiver of 
immunity of a diplomat if a prosecutor informs the Department that 
``but for immunity'' the prosecutor would bring criminal charges 
against a diplomat. This rule is equally applicable to cases of abuse 
of domestic staff. It is important to underscore, however, that many 
members of the diplomatic community, e.g., most consular personnel and 
employees of international organizations, will likely not have immunity 
from either criminal prosecution or civil suit involving abuse of 
domestic staff, so that no waiver of immunity is required for criminal 
and civil actions.
    Question. I understand that when Deputy Secretary Negroponte was in 
Libya last month he raised the case of the Bulgarian nurses and 
Palestinian doctor who were re-sentenced to death last year for 
allegedly infecting children with HIV. Many scientists and physicians 
are concerned that the trial ignored evidence that the virus was spread 
through lack of safe hygiene in the hospital, which may deter other 
health professionals from working in the developing world where they 
might be subject to unfair prosecution. They believe it is important 
that the nurses and doctor not only be released but be exonerated.
    Is it the United States position that they should be exonerated? 
Did the Deputy Secretary ask that the Libyans exonerate them or just 
release them?
    Answer. Deputy Secretary Negroponte met with Libyan Foreign 
Minister Shalgam and other senior Libyan officials during his April 18-
19, 2007, visit to Tripoli. In each of these meetings, the Deputy 
Secretary called upon the Libyan government to find a way to release 
the five Bulgarian nurses and Palestinian doctor imprisoned on charges 
of deliberately infecting over 400 Libyan children with HIV. The U.S. 
Government, including President Bush, has repeatedly expressed its view 
that there is no evidence to suggest that the medical personnel 
conspired to infect the children.
    At the same time, we recognize the human tragedy posed by the 
infection of more than 400 children. The United States is working with 
the EU, UK, and Bulgaria, to help Libya provide necessary medical and 
psychological care to the children and their families.
    Question. There has been a continuing failure to achieve 
accountability for crimes against humanity committed in East Timor in 
1999. At the end of April 2007, Indonesian General Noer Muis 
participated in a joint military exercise with the U.S. Army in 
Indonesia. On February 24, 2003, Muis was indicted with other senior 
officers by the U.N.-backed serious crimes process in East Timor. 
General Muis was tried and convicted for crimes against humanity by 
Indonesia's Ad Hoc Human Rights Court in 2003 for his role in brutal 
attacks on East Timor's Dili Diocese, Bishop Belo's residence and the 
Suai Church massacre in September 1999. However, his conviction, like 
most involving Indonesian military officers, was overturned on appeal.
    Did the State Department know that the U.S. Army was collaborating 
with General Muis, an indicted human rights violator? What does this 
say about the Department's ability to effectively vet lesser known 
military officers to weed out human rights violators, as required by 
U.S. law? What if any steps have been taken to prevent the recurrence 
of a mistake like this?
    Answer. The State Department knows Indonesian General Noer Muis has 
been indicted for war crimes for his role in the events in East Timor 
in 1999. General Muis did not participate in the two-week tabletop 
exercise that was recently conducted in Indonesia by elements of the 
U.S. Pacific Command with members of the Indonesian First Infantry 
Division Strategic Reserve Command (KOSTRAD). Rather, as commander of 
the KOSTRAD, General Muis observed a portion of the exercise for a 
single day. KOSTRAD provided most of the 850 Indonesian soldiers who 
deployed to Lebanon last year as part of the U.N. Interim Force in 
Lebanon (UNIFIL) and is expected to deploy another battalion to Lebanon 
later this year to replace the current battalion. Such exercises serve 
to prepare the Indonesian military (TNI) for peacekeeping duties. It is 
manifestly in our national interest and the interests of the United 
Nations that Indonesia participate in this and other peacekeeping 
operations.
    As required by law, all foreign security force personnel involve in 
State Department-funded training and assistance are subjected to 
vetting for past human rights violations, and known human rights 
violators are not provided such training. In the past 3 years we have 
denied 122 Indonesian applicants training, DOD requests vetting when 
they deem it necessary to comply with their statute and State responds 
to their requests.
    Our interaction with the TNI necessarily means that American 
military and civilian personnel work with those in positions of 
authority. When, in the course of our duties, we must engage with TNI 
leaders with troubling human rights backgrounds, we limit that 
engagement to official business and do not engage in social activities. 
We do not, however, refuse to engage with such individuals in the 
ordinary course of official business nor to accord them the normal 
courtesy that is due official counterparts; such actions would be 
counterproductive. The Department and Embassy Jakarta are working with 
Pacific Command to ensure that in the future such engagement is not 
publicized in a manner that appears to imply USG assistance or support 
for individuals with suspect human rights backgrounds.
    The extraordinary democratic transformation of Indonesia is one of 
the world's great successes of the past 10 years. As integral elements 
of Indonesian society, the Indonesian military (TNI) must be part of 
this transformation. Our interaction with the TNI facilitates the 
adoption of democratic norms such as greater transparency, respect for 
human rights, civilian control, and builds capacity to address 
immediate threats such as terrorism and natural disasters. Indeed, 
these democratic principles are a key component of all training that we 
provide to TNI, after vetting to ensure that gross human rights 
violators are excluded. Our normalized relationship with the TNI is 
producing enormous dividends, both in terms of improving respect for 
human rights and in promoting regional stability. The TNI is out of 
politics, is under civilian leadership, has abolished the ``dual 
function'' role under which military leaders often held positions in 
local civilian government, and is moving to divest itself of business 
interests. Allegations of human rights abuses in Papua and elsewhere 
have fallen steadily.
    We continue on a regular basis to insist in all appropriate fora 
for accountability for past human rights abuses, including during the 
recent Indonesian-U.S. Strategic Dialogue talks conducted by DOD, in 
public remarks, and in meetings with the country's senior leaders. Our 
consistent message is that Indonesia's partners will have more 
confidence in the deep and genuine reforms the Indonesian military has 
undertaken and continues to undertake if credible steps are taken to 
address widespread perceptions that a culture of impunity continues to 
exist.
    Question. Last year on October 27, a young American journalist, 
Bradley Roland Will, was killed as he was filming a political 
demonstration in Oaxaca, Mexico.
    There are photographs and video footage of municipal officials 
including police officers in civilian clothes shooting at demonstrators 
with rifles and pistols, the same day that Bradley Will was shot. At 
least 2 others were killed and 23 were wounded that day. More than 20 
people were killed during the many months that the demonstrations took 
place, and some of those who were arrested were reportedly physically 
and sexually abused in the custody of state and federal police 
officers.
    My office has tried unsuccessfully to get any information from the 
Mexican Government about the killings of civilians in Oaxaca, including 
Bradley Will. Are you satisfied with the investigation of Bradley 
Will's murder? Have any of the municipal officials or police been 
charged with any of the killings of civilians? Is there any hope for a 
thorough, independent investigation into the police conduct in Oaxaca 
during the demonstrations last year?
    Answer. The U.S. Embassy in Mexico City and the Department of State 
have been monitoring the ongoing investigation into the death of Mr. 
Will from the beginning. Embassy officials, including U.S. Ambassador 
to Mexico Antonio Garza, have expressed the concerns and interests of 
the U.S. Government and of the Will family to the Mexican federal and 
Oaxacan state authorities and have offered assistance to ensure a 
complete and proper investigation. The Mexican Government has conducted 
an investigation into the conduct of law enforcement during last year's 
demonstrations, but to date has not filed any charges against local or 
municipal police. The investigation remains ongoing. At this time no 
one has been charged in Mr. Will's death. We hope the involvement of 
the federal Attorney General's Office will move this case forward. The 
Embassy will continue to express our interest in the case at the 
highest levels of the Mexican Government until it is completed.
    Question. In March 2003, Rachel Corrie, a young American woman, was 
run over by an Israeli bulldozer and killed as she was peacefully 
protesting the destruction of a Palestinian family's property. An 
investigation was conducted by the Israeli military, who concluded it 
was a tragic accident. However, the Israeli investigation, which was 
neither thorough nor independent, satisfied neither the State 
Department nor Ms. Corrie's family. As far as I know, there has been no 
follow up. What is being done to obtain a thorough, independent 
investigation of this case involving the death of an American citizen?
    Answer. The Government of Israel conducted two separate 
investigations, one by the Israeli Defense Forces and the other by the 
Military Advocate General's Office. While the second investigation was 
more thorough, we nonetheless made clear to the Government of Israel 
that the investigation failed to meet the standard of thoroughness we 
would expect in such a case. The Corrie family has informed us that 
they are pursuing legal options with the courts in Israel against the 
Israeli Defense Forces. We continue to maintain contact with the Corrie 
family regarding the death of their daughter.
    Question. Despite two separate investigations into the death of 
Rachel Corrie by the Government of Israel, you noted that the 
Government of Israel's investigation ``failed to meet the standard of 
thoroughness we would expect in such a case.''
    Given that this case involved the death of an American citizen, and 
the inadequacies of the investigation by the Government of Israel, what 
further action is the administration taking to obtain an investigation 
that is thorough and credible?
    Answer. The U.S. Government takes matters involving American 
citizens abroad very seriously. In late October, representatives from 
the Department of State met with the Corrie family, along with 
Congressman Baird, to discuss concerns that they have have with respect 
to the tragic death of Rachel Corrie.
    The U.S. Government continues to raise this issue with senior level 
officials in the Israeli Government. On her recent trip to Israel and 
the Palestinian territories, Assistant Secretary of State for Consular 
Affairs Maura Harty raised the issue of Rachel Corrie's death with her 
counterpart at the Israeli Ministry of Foreign Affairs, Mr. Yigal 
Tzarfati. Assistant Secretary Harty gave Mr. Tzarfati a letter 
reiterating the U.S. Government's request that a full and transparent 
investigation of the incident be conducted. She has asked the U.S. 
Embassy in Tel Aviv to follow up with the Government of Israel in 
obtaining a response to her inquiry.
    Question. The Senator Paul Simon Water for the Poor Act of 2005 
commits the United States to support international clean drinking water 
and sanitation. The act calls on the United States to increase support 
for sustainable drinking water supplies and adequate sanitation in 
countries with the greatest need where aid can be used most 
effectively. Yet the State Department's June 2006 ``Report to 
Congress'' showed that U.S. aid for drinking water and sanitation is 
overwhelmingly spent on short-term emergency relief efforts and in a 
few strategically important countries like Afghanistan. Only $24 
million, less than 10 percent of the total, was used for long-term 
development projects. What plans does the administration have to 
allocate increased funds to support long-term, sustainable drinking 
water and sanitation projects, as called for by the act?
    Answer. USAID's fiscal year 2005 Report to Congress showed actual 
obligations of $161 million for drinking water supply projects and 
related activities. Of this amount, $96 million was obligated in the 
International Disaster and Famine Assistance Account (IDFA). While some 
of the IDFA resources are used for short-term relief efforts, these 
funds are also used to establish permanent wells and sanitation 
facilities or other facilities necessary for the longer-term provision 
of water and sanitation services. All of the remaining resources were 
used for long-term sustainable activities regardless of the account.
    In fiscal year 2006 (this report will be delivered to Congress 
shortly) USAID increased total water and sanitation obligations to $203 
million. Of this amount, $86 million came from the IDFA account. USAID 
hopes to maintain this increase in fiscal year 2007.
    Most of the countries with the greatest need are located in Sub-
Saharan Africa. The attached spreadsheet shows that USAID non-IDFA 
funding for water and sanitation in Sub-Saharan Africa increased each 
year from 2002 thru 2006. Again, USAID hopes to maintain this upward 
trend in fiscal year 2007.

                                   2002-2006 USAID WATER OBLIGATIONS IN AFRICA
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                     Fiscal year
                                               -------------------------------------------------------   Total
                                                   2002       2003       2004       2005       2006
----------------------------------------------------------------------------------------------------------------
Water Supply and Sanitation (non-IDFA)........      8.758      9.785     15.385     19.444     22.544     75.916
IDFA-funded Water Supply and Sanitation.......     12.383     29.449     35.230     63.926     59.738    200.726
                                               -----------------------------------------------------------------
      Sub-Total--Water Supply Projects &           21.141     39.234     50.615     83.370     82.282    276.642
       Related Activities.....................
                                               =================================================================
Water Resources Management....................      6.151     14.227     14.452      9.615      4.227     48.672
Water Productivity............................      3.790     11.056     14.640     12.912      5.119     47.517
                                               -----------------------------------------------------------------
      Grand Total--All Water Funding               31.082     64.517     79.707    105.897     91.628    372.831
       Categories.............................
----------------------------------------------------------------------------------------------------------------

    Question. I am concerned about human rights in Ethiopia. Ethiopia 
is a strategic ally, but that should not prevent us from expressing our 
concern about the well-being of Ethiopia's restive and increasingly 
alienated majority populations. From the populous and economically rich 
Oromo region to the vast oil rich Ogaden region, economic and political 
tensions seem to be rising.
    The leaders of Ethiopia's most important opposition party are still 
in prison. What is the evidence against them?
    Answer. Between May 8, 2006 and November 29, 2006, the prosecution 
introduced one audio tape, 19 video tapes, 179 documents, and 54 
witnesses in support of the charges against opposition, civil society, 
and media leaders in Ethiopia's main trial of opposition leaders. This 
evidence described opposition party strategies and deliberations, 
speeches, rallies, press reports, and activities of the defendants. On 
April 9, 2007, upon reviewing the witnesses' testimony and evidence 
submitted, the court dismissed the charges against 25 defendants and 
dismissed all charges of treason and attempted genocide. The court 
found that the evidence submitted in support of the remaining charges 
against the remaining defendants warrants proceeding with the defense 
phase of the trial, which is expected to resume in June 2007. The U.S. 
Government continues to monitor every phase of the judicial 
proceedings.
    Question. Even as the Ethiopian military ends its occupation of 
Somalia, the ethnic Somali people of the Ogaden region feel they are 
oppressed and exploited by the government in Addis Ababa. The largest 
group in this diverse country is the Oromos, and they, along with other 
political groups, are losing patience with what they see as a 
repressive central government.
    We have spent a lot of money to help promote stability in the Horn 
of Africa. Can you assure us that the administration is standing up for 
democracy and human rights even when they are being threatened or 
violated by allies against terrorism like Ethiopia?
    Answer. Significant work remains to be done to strengthen 
democratic institutions and practices and to ensure for the protection 
of human rights in Ethiopia. While our annual Human Rights Report is 
the most public assessment of Ethiopia's performance in protecting the 
human and political rights of Ethiopians, democracy and human rights 
issues remain a permanent element in our bilateral dialogue with 
Ethiopian leaders and civil society.
    The United States has developed a strong partnership with Ethiopia 
to foster progress in these areas. While our foreign assistance 
contributes to capacity building efforts targeting the legislature, 
judicial independence, executive functions, and human rights awareness 
and protection, American diplomats in Ethiopia and Washington urge 
Ethiopian officials to create the environment where improvements in 
these sectors can continue.
    While significant work remains, the Government of Ethiopia has 
taken steps to improve respect for human rights and democratic 
practices following the setbacks in 2005. Through U.S. diplomatic and 
development engagements, we are contributing positively to this effort 
and will continue to encourage important reforms.
    Question. You noted that ``while significant work remains, the 
Government of Ethiopia has taken steps to improve respect for human 
rights and democratic practices following the setbacks in 2005.''
    How has the administration responded to recent reports by 
journalists and NGOs of widespread human rights abuses by Ethiopian 
security forces in the Ogaden region?
    Answer. We take very seriously any and all allegations of human 
rights abuse. Our Embassy staff in Addis Ababa is working to verify 
credible allegations to the extent possible. The Ethiopian Government 
has committed publicly to investigate such allegations.
    We will continue to insist that credible allegations be 
investigated and, where appropriate, that violators are punished. The 
Government of Ethiopia is working with Mr. Kassa, Chairman of the 
Ethiopian Human Rights Commission, to investigate allegations of abuse 
in the Ogaden. Mr. Kassa's team is in Jijiga, on the edge of the 
Ogaden, investigating reports. We are in close contact with the Human 
Rights Commission and will work with this and other groups on any human 
rights enquiry. The United Nations has called for an independent 
investigation of human rights abuses in the Ogaden.
    Question. With the G-8 summit coming up in June, some of our allies 
are focusing on global education. In particular, on May 2, 2007, the 
European Commission and the World Bank hosted a conference on basic 
education in Brussels, entitled ``Keeping our Promises on Education'', 
where they announced a number of new funding commitments to be carried 
forward to the G-8. Are any new U.S. commitments for education planned 
for the G-8 or otherwise along these lines?
    Answer. USG has increased its support for basic education five-
fold, from less than $100 million in fiscal year 2000 to more than $500 
million in fiscal year 2006, and in the same time period more than 
doubled the number of countries receiving basic education support from 
25 to more than 50.
    As a founding partner of the Education for All Fast Track 
Initiative, and signatory to the Paris Declaration on Aid 
Effectiveness, USG has in the past and will continue to align with 
other donors behind country-driven education plans and priorities to 
best meet the human capital needs for the sustainable development of 
each country.
    On May 31, 2007 President Bush called for Congress to fund $525 
million by 2010 or $173 million more a year in fiscal years 2008-2010 
for an estimated $638 million a year for basic education--a 37 percent 
increase over current spending and a 425 percent increase over fiscal 
year 2002 ($150 million) when the President's administration started. 
He also expanded his African Education Initiative, started in 2002, 
from $300 million to $600 million by 2010.
                                 ______
                                 
                Question Submitted by Senator Tom Harkin
    Question. Polio Eradication efforts are clearly working as we have 
seen the number of countries with indigenous polio drop to four, two 
billion children have been immunized, five million have been spared 
disability and over 250,000 deaths have been averted from polio. 
However, until the world is polio-free, every child, even those in the 
United States, is at risk.
    In fiscal year 2007, both the House and Senate included $32 million 
for polio eradication in their respective Foreign Operations 
Appropriations bills.
    A. What amount is included for polio in your fiscal year 2007 
projections?
    B. What is included for polio in your fiscal year 2008 budget 
submission?
    Answer. For fiscal year 2007, USAID intends to provide $31,680,000 
for polio eradication, which meets the House and Senate request level 
minus a 1 percent rescission.
    For fiscal year 2008, the administration will fund polio 
eradication but specific funding levels are still under consideration.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
    Question. For the coming fiscal year, the President requested only 
$300 million for the Global Fund to Fight AIDS, Tuberculosis, and 
Malaria in his budget and all of that in Labor Health and Human 
Services rather than the Foreign Operations account. The Global Fund 
estimated need for the U.S. contribution is $1.3 billion. Why is the 
President continuing to lowball this important multilateral program 
that leverages U.S. contributions? Why did the President omit the 
Global Fund entirely from his Foreign Operations request and place the 
entire request in the Labor, Health and Human Services account?
    Answer. The Global Fund is an important part of the strategic plan 
that guides implementation of the President's Emergency Plan for AIDS 
Relief (Emergency Plan/PEPFAR). The U.S. Government (USG) share of 
total Global Fund contributions has held consistently at approximately 
30 percent. The USG initially made a 5-year pledge of $1 billion for 
the Global Fund in years 2004-2008. If the $300 million in the 
President's 2008 Budget is approved, the USG will have nearly tripled 
that commitment to the Global Fund by contributing about $2.5 billion.
    In order to provide adequate financial and human resources to 
complete the goals of PEPFAR as well as maintain U.S. leadership in the 
Global Fund, the President has spread the request for HIV/AIDS-related 
resources across the two appropriations bills (Foreign Operations and 
Labor-Health and Human Services).
    We consider this interagency approach in representing the United 
States on the Global Fund to be one of our coordination success 
stories. Through the Global Aids Coordinator, who has overall 
responsibility for ensuring that all statutory benchmarks have been met 
before any USG contribution is made, USAID, State, and HHS regularly 
meet and fully coordinate on all aspects of the Global Fund.
    The Department of Health and Human Services (HHS) was instrumental 
in the administration's efforts to establish the Global Fund and 
continues to have an active role on its Board. The National Institutes 
of Health (NIH) makes a significant contribution to global HIV/AIDS, 
TB, and Malaria activities. Requesting the USG contribution within NIH 
continues HHS' longstanding role in the advancement of the Global Fund.
    Question. When Beijing exercises its considerable influence, 
Khartoum appears to listen and we see progress such as the agreement to 
allow 3,000 peacekeepers. But then China provides assistance to build a 
new presidential palace and wants to develop expanded military 
cooperation in all areas. How do you evaluate China's role in Darfur?
    Answer. China has an important role to play in ending the genocide 
in Darfur. China's leverage is not absolute, but there is much that it 
can do. For example, China can do more to persuade Khartoum to accept 
the full deployment of the U.N./AU hybrid peacekeeping force under U.N. 
command structures, and to convince Khartoum to engage seriously in a 
peace process that involves all parties to the conflict. China's lead 
diplomat at the United Nations, Wang Guangya, helped broker the 
November agreement in Addis Ababa in which the Government of Sudan 
accepted, in principle, the three-phase deployment of the U.N./AU 
force. As you mention, China's diplomacy was likely influential in 
convincing President Bashir to accept the 3,000-person ``heavy support 
package'' (HSP) under phase two of the deployment. Perhaps most 
significantly, Beijing recently agreed to send a 275-person engineering 
unit as part of the HSP. Special Envoy Natsios, Deputy Secretary 
Negroponte, and Assistant Secretary Frazer have all had serious, in-
depth discussions on Sudan with the Chinese, as have I.
    President Bashir has reneged on a number of his commitments and 
continues to obstruct the full deployment of the U.N./AU force under 
phase three. Full deployment is the key, and we are committed to 
working with China and our other international partners to apply 
pressure on President Bashir to accept the full U.N./AU force 
unequivocally.
    China is not where we would like it to be on Darfur. The no-
interest loan to build a palace in Khartoum that you mention is one 
clear example. We have also communicated our serious concerns to China 
that weapons sold to the Government of Sudan have contributed to the 
violence in Darfur. At the same time, we do see movement in China's 
position and believe that Beijing has made a decision that it must join 
with the international community in insisting that the atrocities in 
Darfur must stop.
    Question. How is the Department of State addressing the 
geopolitical implications of global warming?
    Answer. We recognize the seriousness of global climate change and 
the importance of reducing greenhouse gas emissions, enhancing energy 
security and promoting sustainable development.
    Two years ago, G8 leaders agreed that tackling climate change, 
promoting clean energy and achieving sustainable development globally 
are serious and linked challenges. The President announced on May 31 
U.S. support to develop by the end of 2008 a new post-2012 framework on 
climate change based on the principles that climate change must be 
address by fostering both energy and economic security and by 
accelerating the development and deployment of transformational clean 
energy technology.
    Secure, reliable and affordable energy sources are fundamental to 
economic stability and development. One-third of the world's people 
lack access to modern energy services. This blocks their path to better 
health and prosperity.
    In consultation with our developing country partners, G8 leaders 
committed to reduce greenhouse gas emissions, improve the global 
environment, and enhance energy security in ways that promote human 
development.
    The United States plays an integral part in promoting the advanced 
energy technologies that are helping people, while protecting the 
global environment.
    The President has in place a comprehensive strategy to address 
climate change that incorporates incentives, mandatory programs, and 
international partnerships all that will help us meet the President's 
goal to reduce greenhouse gas intensity 18 percent by 2012. This policy 
is working as we are well on track to meet that goal. The U.S. 
Department of State supports the President's strategy in international 
fora and works closely with our international partners to implement 
innovative climate change partnerships.
    For example, we are working with Brazil to advance biofuels. We 
facilitated an agreement with China to install the largest coal mine 
methane power facility in the world. Through the Asia-Pacific 
Partnership for Clean Development and Climate, we are expanding 
investment and trade in cleaner energy technologies.
    Our development assistance program, through USAID, dedicates about 
$180 million a year to build resilience to climate variability and 
change in developing countries. Our efforts include analyzing data from 
Earth observations, developing decision support tools, and integrating 
climate information into development programs.
    All of these activities are part of a broader development agenda 
that encourages global collaboration to improve energy security, 
address greenhouse gasses and reduce air pollution, while ensuring 
continued economic growth. These activities aim to achieve a secure 
energy supply and a cleaner global environment.
    The most effective way to bolster security and stability, however, 
is to increase the capacity of states to govern legitimately and 
protect basic human freedoms. States that can govern effectively can 
best anticipate and manage change.
    Stresses associated with energy shortages or climate impacts may be 
among factors putting pressure on government capacity in this century, 
as might population growth, natural disasters, but absence of these 
stresses will not eliminate civil strife.
    Successful long-term development strategies must also focus upon 
education, rule of law, good governance, and the protection of human 
freedom and economic reforms. The State Department works with countries 
across the globe to promote this integrated development agenda and 
support countries in making choices that will provide strong and 
functioning institutions and policies, and promote just governance and 
rule of law. Such choices are a much more important determinant of 
peace and security independent of any specific climate or environmental 
impact.
    The United States has a long history of extending a helping hand so 
that people can live in democratic societies with strong and stable 
governance.
    The Millennium Challenge Corporation (MCC) is a global investment 
fund based on the principle that aid is most effective when it 
reinforces good governance, economic freedom and investments in people. 
Since its establishment in 2004, MCC has provided nearly $3 billion to 
11 countries to help them reduce poverty and stimulate economic growth.
    Around the world, the United States is promoting free and fair 
election processes, full participation of all citizens, civil 
societies, and media freedom. With our international partners, these 
efforts are strengthening governance and international security.
    The State Department will continue to promote the United States' 
leadership role of engaging with other nations on these issues of vital 
importance through our bilateral and regional initiatives and in 
appropriate multilateral fora, such as the G8 and the United Nations.
    Question. What about the anticipated consequences for health and 
development? Some of the most economically vulnerable and politically 
fragile countries are also those most at risk from global warming. What 
steps are you taking to assist adaptation EFFORTS?
                         health and development
    Answer. On the potential health implications of climate change, 
impacts are difficult to discern due to adaptation and many non-
climatic drivers. In addition, research continues to focus on effects 
in high income countries, and there remain important gaps in 
information for the more vulnerable populations in low- and middle-
income countries.
    According to the Intergovernmental Panel on Climate Change (IPCC) 
Fourth Assessment Report, ``projected climate change-related exposures 
are likely to affect the health status of millions of people, 
particularly those with low adaptive capacity, through:
  --increases in malnutrition and consequent disorders, with 
        implications for child growth and development;
  --increased deaths, disease and injury due to heat waves, floods, 
        storms, fires and droughts;
  --increased burden of diarrhoeal disease;
  --increased frequency of cardio-respiratory diseases due to higher 
        concentrations of ground level ozone related to climate change; 
        and,
  --altered spatial distribution of some infectious disease vectors 
        (high confidence).
    ``Climate change is expected to have some mixed health effects, 
such as the decrease or increase of the range and transmission 
potential of malaria in Africa (high confidence). Studies in temperate 
areas have shown that climate change is projected to bring some 
benefits, such as fewer deaths from cold exposure. Overall it is 
expected that these benefits will be outweighed by the negative health 
effects of rising temperatures world-wide, especially in developing 
countries (high confidence). Most projections suggest modest changes in 
the burden of climate-sensitive health outcomes over the next few 
decades, with larger increases beginning mid-century. The balance of 
positive and negative health impacts will vary from one location to 
another, and will alter over time as temperatures continue to rise. 
Critically important will be factors that directly shape the health of 
populations such as education, health care, public health prevention 
and infrastructure and economic development (very high confidence).''
                          assisting adaptation
    Climate shapes a wide range of activities and decisions, from the 
types of crops grown to the design and construction of buildings, water 
delivery systems, and other infrastructure. In countries that are 
already at risk from food insecurity, ecosystem degradation, or weak 
institutional capacity, short- and long-term changes in the climate 
pose an additional challenge to sustainable development. A diverse, 
robust, and open economy can better withstand many types of 
disruptions, including those related to climate events.
    The United States collaborates with developing country partners in 
a broad range of activities designed to better understand climate and 
its implications for development and to build resilience to climate 
variability and change. These activities include analyzing data from 
Earth observations, developing decision support tools, and integrating 
climate information into development programs and projects.
    All of these activities assist countries in developing stronger 
institutional capacity and more flexible and resilient economies that 
have the capacity to address both the challenges and the opportunities 
presented by changing climatic conditions.
    In addition, the United States encourages all developing countries 
to establish their own national development plans with the view to 
create thriving, prosperous economies in recognition that successful 
growth must be predicated upon education, rule of law, good governance, 
the protection of human freedom and economic reforms. This successful 
and proven approach underpins our wide range of programs and activities 
that assist all developing countries through our trade policies, 
development assistance programs, and international environmental 
initiatives, as well as our support for such internationally-agreed 
strategies as the Doha Development Agenda, the Monterrey Consensus, the 
Johannesburg Plan of Implementation, and the Delhi Declaration.
                      millennium development goals
    On the issue of whether climate change will negatively impact our 
ability to implement the Millennium Development Goals (MDG's), it is 
important to understand that the MDG's are set for 2015, while 
projected climate change impacts span a much larger time scale. 
According to the IPCC Working Group II Report (Chapter 20): ``The 
anthropogenic drivers of climate change, per se, affect MDG indicators 
directly in only two ways: in terms of energy use per dollar GDP and 
CO<INF>2</INF> emissions per capita. While climate change may, with 
high confidence, have the potential for substantial effects on aspects 
of sustainability that are important for the MDG's, the literature is 
less conclusive on whether the metrics themselves will be sensitive to 
either the effects of climate change or to progress concerning its 
drivers, especially in the near-term.''
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
    Question. How could such valuable assistance be turned away in such 
a great time of need? What are your reasons for turning away the 
offered foreign aid? How did this happen?
    Answer. Katrina generated an unprecedented outpouring of assistance 
from allies and friends around the world. All of these offers of 
assistance were greatly appreciated, and, in fact, many of the offers 
were accepted and directed to hurricane recovery efforts. At the same 
time, not all offers of material and personnel assistance was or could 
be accepted for reasons set forth below. Moreover, as explained more 
fully below, not all offers of financial assistance were directed to 
the U.S. Government. With our encouragement, a considerable amount of 
financial assistance was donated directly to NGOs working in the 
affected areas. While some other pledges did not materialize, all 
financial assistance that was received by the U.S. Government was 
directed toward hurricane recovery efforts.
    The Department of State moved to support the Federal Emergency 
Management Agency (FEMA), the Department of Homeland Security (DHS) and 
other Federal partners that were leading in the response to the 
disaster. One of the Department's mandates is to help American citizens 
in trouble/need overseas. This was a unique opportunity to help 
American citizens within the United States. The State Department acted 
as an intermediary for foreign offers of assistance to the U.S. 
Government and worked with FEMA, USAID, and other agencies to respond 
to such requests and expedite delivery of assistance.
    We had two main objectives:
  --Provide all possible support requested by Federal partners.
  --Protect the American people by maintaining U.S. health and safety 
        standards as directed by Federal regulators.
    The U.S. Government encouraged foreign donors to direct their cash 
assistance to private organizations from the beginning, consistent with 
the consensus among aid professionals that cash assistance to relief 
organizations in the affected region was the best way for donors to 
help. The amount of cash actually donated to the U.S. Government from 
international sources totaled $126 million, all of which has been 
distributed by the Department of State to other USG agencies. Not all 
pledges of cash resulted in actual donations--over $450 million in 
pledges were not fulfilled.
    Working with imperfect information from first responders on 
conditions and needs on the ground, the Department of State worked with 
FEMA and other agencies to identify and arrange transport of 
commodities, equipment, experts and other in-kind assistance that could 
be utilized quickly and efficiently.
    Not all international material assistance offered was needed. 
Disaster logisticians at FEMA and USAID evaluated the commodities and 
services offered by foreign governments and organizations, and accepted 
only those that made sense given all of the normal considerations 
during a disaster--e.g. transport, storage, and processing. In many 
cases, material assistance was more readily available from within the 
United States. Furthermore, some of the foreign commodities offered 
were not approved for entry into the United States by U.S. regulators, 
especially foodstuffs and medical equipment and supplies. Similarly, 
some offers of medical services and emergency medical teams were also 
not accepted due to state-based licensing requirements and related 
issues. We did not want to accept goods which could or would not be 
used. In total, the Department of State, working with USAID and FEMA, 
coordinated the donation of over 5 million pounds of relief supplies.
    Question. Was an internal investigation conducted on this 
mishandling? Was any action taken against employees who were identified 
in trying to cover-up or hide mishandling of situations, specifically 
the individual just quoted in regards to the Italy debacle?
    Answer. Hurricane Katrina was an unprecedented disaster that 
presented unique challenges to domestic agencies and foreign 
governments trying to assist. The State Department, working with other 
agencies, responded to foreign offers of assistance as quickly and 
flexibly as circumstances permitted.
    The State Department has participated in extensive interagency 
lessons learned reviews and exercises that addressed problems 
identified during Hurricane Katrina. As a result, the U.S. Government 
has developed significantly improved policies, procedures, and plans 
for managing international assistance for future domestic disasters.
    The Homeland Security Council (HSC) led an after action review of 
the U.S. Government response to Katrina, including how we handled 
offers of assistance from foreign governments. The HSC and key 
agencies, including the State Department, reviewed the response, both 
what went well and what we can do better, and updated the National 
Response Plan to guide agency actions if another major disaster were to 
strike the United States. The State Department, USAID, FEMA, the 
Defense Department and others contributed to the plan.
    USG officials did the best they could under unprecedented 
circumstances. There was no cover up of the Italy medical supply 
contribution. State Department officials were in regular contact with 
Italian authorities regarding the contribution, including on the 
disposal of the spoiled supplies.
    GAO reviewed the handling of foreign assistance in its report on 
Hurricane Katrina International Aid (GAO-06-460, April 2006). In its 
report, the GAO recognized that ``although DOS's procedures were ad 
hoc, they did ensure the proper recording of international cash 
donations that have been received to date, and [GAO was] able to 
reconcile the funds received with those held in the designated DOS 
account at Treasury.''
    Question. I know $60 million of the $126.4 million has been 
allocated to Louisiana and Mississippi K-12 and Higher Ed institutions 
and that $66 million was contracted to a consortium of 10 faith-based 
and charity groups, but how much has actually been distributed/used to 
date? What is holding up the distribution of the remaining funds?
    Answer. The Department of State transferred $66 million to FEMA on 
October 20, 2005 and $60 million to the Department of Education (DoEd) 
on March 17, 2006. Although State is not directly responsible for 
managing the distribution of these funds, we understand from FEMA and 
DoEd that:
    FEMA awarded $66 million to The United Methodist Committee of 
Relief (UMCOR) as a grant to provide case management services.
    FEMA facilitates the UMCOR grant. UMCOR established Katrina Aid 
Today (KAT), a consortium of 10 non-profit relief organizations, to 
provide case management services in Louisiana and Mississippi. To date, 
KAT has utilized $33 million and are on track to utilize the balance of 
the $66 million in the remaining time of the grant.
    DoEd awarded grants totaling $30 million available to 14 Higher 
Education institutions in Louisiana and Mississippi. These institutions 
have been able to draw on those funds according to their own 
reconstruction timetables. We understand that as of April 27, 2007, 
some institutions had utilized their entire grants; others were still 
drawing on the available funds as they proceed with their 
rehabilitation plans.
    DoEd asked the Louisiana DoEd to develop a program to award grants 
totaling $25 million. On April 19, 2007, the Louisiana Board of 
Education approved grants of $190,000 each to 130 private and public 
schools. The current award period for use of these funds runs until 
November 30, 2007. Funds would be available on a year to year basis 
until all funds have been expended.
    DoEd distributed $5 million to the Greater New Orleans Educational 
Foundation for the planning and implementation of a long range strategy 
for K-12 educational services.
    Question. Also, some questions were raised surrounding the terms in 
the contract proposal for the $66 million consortium contract. Are you 
conducting oversight on this proposal, to ensure it is being used 
solely for its intended purposes?
    Answer. The Department of State distributed $66 million to the 
Federal Emergency Management Agency (FEMA) in October 2005, to finance 
a social service case management system for Katrina's victims. In 
December 2005, DHS/FEMA granted the $66 million to the United Methodist 
Committee on Relief (UMCOR), which established Katrina Aid Today, a 
case management consortium of ten social service and voluntary 
organizations.
    FEMA has assured State that it is conducting oversight of the 
contract to ensure appropriate use in accordance with standard auditing 
practice/procedures. State officials met with officials from FEMA's 
Office of Inspector General when that entity was developing its 
auditing plans.
    FEMA requires quarterly reports that address both financial and 
programmatic information as well as weekly reports detailing the number 
of cases and case managers. FEMA has appointed a liaison to Katrina Aid 
Today that not only monitors reports but attends meetings at all levels 
(national, regional, grass roots) and consults with Katrina Aid Today 
on all programmatic and informational exchanges.
    Question. What is the progress/status of the State Department's 
progress on completing all 9 recommendations from the Federal 
Government Katrina Lessons Learned exercise? If you have completed all 
recommendations, were they finished before June 1, 2006?
    Answer. Below are the recommendation and status of the nine items 
identified for the State Department from the Katrina Lessons Learned 
exercise:
    Recommendation 89. DOS should lead the revision of the 
International Coordination Support Annex (ICSA) to the National 
Response Plan (NRP), clarifying responsibilities of Department of State 
(DOS), Department of Homeland Security (DHS), Department of Defense 
(DOD), and other supporting agencies in response to domestic incidents. 
This revision should begin immediately.
    Status: Completed. A State Department-led interagency group 
completed the first revision of the ICSA in February 2007 in 
consultation with the Homeland Security Council. The revisions clarify 
expanded roles and responsibilities of USG agencies in managing the 
international aspects of a domestic incident. The group also included 
representatives from the Departments of Homeland Security, Defense, 
Health and Human Services, Agriculture, and Transportation, and the 
Agency for International Development.
    Recommendation 90. DOS and DHS should lead an interagency effort 
that will quickly develop procedures to review, accept or reject any 
offers of international assistance for a domestic catastrophic 
incident.
    Status: Completed. An interagency group consisting of the 
Department of State, USAID/Office of Foreign Disaster Assistance (AID), 
DHS/FEMA, DOD, and the American Red Cross (ARC) has developed a system 
for managing international assistance during a domestic disaster. The 
system outlines policies and procedures to systematically manage offers 
of, or United States requests for, international material assistance 
during a United States domestic disaster. It also specifies the roles 
and responsibilities of participant agencies, provides standard 
operating procedures for managing offers of foreign assistance and 
domestic requests for foreign resources, and outlines the process for 
receiving and distributing international assistance that is accepted by 
the U.S. Government. The core procedures and arrangements detailed in 
the manual were agreed informally among participants by June 1, 2006.
    Recommendation 91. DHS should lead an interagency effort to create 
and routinely update a prioritized list of anticipated disaster needs 
for foreign assistance and a list of items that cannot be accepted.
    Status: Completed. The interagency has established procedures for 
coordinating with USG regulatory agencies for the entry, handling, and 
use of foreign resources during a disaster. Regulatory agencies provide 
technical advice and review offers of international assistance prior to 
FEMA acceptance. The procedures include guidance on acceptable and 
unacceptable items to assist the Department of State in communicating 
with the international community.
    Recommendation 92. DOS should establish an interagency process to: 
determine appropriate uses of international cash donations; to ensure 
timely use of these funds in a transparent and accountable manner; to 
meet internal Federal Government accounting requirements; and to 
communicate to donors how their funds were used.
    Status: Completed. Procedures have been established to manage the 
receipt, distribution, and use of foreign cash donations made during a 
domestic disaster. An interagency Working Group will be convened as 
necessary to address fund management issues and make recommendations on 
funding disaster recovery projects. Immediate needs would be pre-
identified by FEMA, with the understanding that certain donations may 
be directed to longer term disaster recovery.
    Recommendation 93. Public and Diplomatic Communications during 
domestic emergencies should both encourage cash donations--preferably 
to recognized nonprofit voluntary organizations with relevant 
experience--and emphasize that donations of equipment or personnel 
should address disaster needs.
    Status: Completed. As was done during Katrina, the State Department 
provides instructions to all U.S. diplomatic missions abroad advising 
them to encourage foreign entities wishing to assist to make cash 
donations directly to appropriate NGOs rather than the USG.
    Recommendation 94. The Department of State and the Department of 
Homeland Security should jointly develop procedures to ensure that the 
needs of foreign missions are included in domestic plans for tracking 
inquiries regarding persons who are unaccounted for in a disaster zone.
    Status: Completed. The Department of State has worked with DHS/FEMA 
and the ARC to ensure that, during a domestic disaster, the USG honors 
its international obligations under the Vienna Convention on Consular 
Relations. Although the USG is not required to track down and find 
missing foreign nationals during a disaster in the United States, under 
the Convention it is obligated to assist foreign missions in obtaining 
``appropriate consular access'' to their nationals.
    The Department of State's Office of Public Affairs has designated 
personnel to work with DHS/FEMA during domestic emergencies. These 
personnel will train with DHS/FEMA and will be part of FEMA's 
information operation from the outset of a major domestic crisis, in 
order to ensure efficient handling of queries from and consistent 
messaging to foreign missions and foreign media.
    The Department of State's Office of Foreign Missions and the ARC 
have discussed with foreign missions in Washington, DC how foreign 
missions can best utilize the ARC's missing persons' registry to locate 
missing foreign nationals in the United States.
    Recommendation 95. DHS and DOS should revise the NRP to include DOD 
and Department of Agriculture (USDA)-Food Safety Inspection Service as 
cooperating agencies to the International Coordination Support Annex. 
Including DOD more directly in foreign assistance management would 
leverage existing relationships with partner military establishments 
and help to ensure that staging areas for the acceptance of foreign aid 
are preplanned and quickly available.
    Status: Completed. The revised ICSA Annex to the NRP includes both 
DOD and USDA as cooperating agencies. Within the IAS, regulatory 
agencies such as the USDA provide technical advice and review offers of 
international assistance prior to FEMA acceptance.
    Recommendation 96. DHS should include DOS and foreign assistance 
management in domestic interagency training and exercise events. 
Inclusion in the new National Exercise Program (NEP) should occur 
before the end of fiscal year 2006.
    Status: We refer you to DHS regarding its training and exercise 
events. We understand DHS is developing an international assistance 
training module for use in future exercises. DHS can provide more 
detailed information.
    Recommendation 97. DHS should provide daily disaster response 
situational updates through the Secretary of State to all Chiefs of 
Mission or Charge d'Affaires. These updates should improve situational 
awareness and provide information to address host government concerns 
or questions.
    Status: DHS has assured State it will provide appropriate updates 
to inform U.S. Missions overseas and, by extension, foreign 
governments.
    Question. What is the timeline of when an amendment to the 
International Coordination Support Annex to the National Response Plan 
may take place? What else must be completed to reach this goal?
    Answer. An interagency group completed the first revision of the 
ICSA in February 2007. The group included representatives from the 
Departments of State, Homeland Security, Defense, Health and Human 
Services, Agriculture, and Transportation, and the Agency for 
International Development. Within the Department of State, we continue 
to ensure that relevant bureaus are familiar with the changes to the 
National Response plan and prepared to act in the event the National 
Response Plan is activated.
    Question. With DOS designated the lead agency, can I get from you, 
in writing, the status of where all affected agencies are in completing 
the nine recommendations. If they are complete, I want to know their 
status on completing final recommendation for amending the 
International Coordination Support Annex to the National Response Plan?
    Answer. Below are the recommendation and status of the nine items 
identified for the State Department from the Katrina Lessons Learned 
exercise:
    Recommendation 89. DOS should lead the revision of the 
International Coordination Support Annex (ICSA) to the National 
Response Plan (NRP), clarifying responsibilities of Department of State 
(DOS), Department of Homeland Security (DHS), Department of Defense 
(DOD), and other supporting agencies in response to domestic incidents. 
This revision should begin immediately.
    Status: Completed. A State Department-led interagency group 
completed the first revision of the ICSA in February 2007 in 
consultation with the Homeland Security Council. The revisions clarify 
expanded roles and responsibilities of USG agencies in managing the 
international aspects of a domestic incident. The group also included 
representatives from the Departments of Homeland Security, Defense, 
Health and Human Services, Agriculture, and Transportation, and the 
Agency for International Development.
    Recommendation 90. DOS and DHS should lead an interagency effort 
that will quickly develop procedures to review, accept or reject any 
offers of international assistance for a domestic catastrophic 
incident.
    Status: Completed. An interagency group consisting of the 
Department of State, USAID/Office of Foreign Disaster Assistance (AID), 
DHS/FEMA, DOD, and the American Red Cross (ARC) has developed a system 
for managing international assistance during a domestic disaster. The 
system outlines policies and procedures to systematically manage offers 
of, or United States requests for, international material assistance 
during a United States domestic disaster. It also specifies the roles 
and responsibilities of participant agencies, provides standard 
operating procedures for managing offers of foreign assistance and 
domestic requests for foreign resources, and outlines the process for 
receiving and distributing international assistance that is accepted by 
the U.S. Government. The core procedures and arrangements detailed in 
the manual were agreed informally among participants by June 1, 2006.
    Recommendation 91. DHS should lead an interagency effort to create 
and routinely update a prioritized list of anticipated disaster needs 
for foreign assistance and a list of items that cannot be accepted.
    Status: Completed. The interagency has established procedures for 
coordinating with USG regulatory agencies for the entry, handling, and 
use of foreign resources during a disaster. Regulatory agencies provide 
technical advice and review offers of international assistance prior to 
FEMA acceptance. The procedures include guidance on acceptable and 
unacceptable items to assist the Department of State in communicating 
with the international community.
    Recommendation 92. DOS should establish an interagency process to: 
determine appropriate uses of international cash donations; to ensure 
timely use of these funds in a transparent and accountable manner; to 
meet internal Federal Government accounting requirements; and to 
communicate to donors how their funds were used.
    Status: Completed. Procedures have been established to manage the 
receipt, distribution, and use of foreign cash donations made during a 
domestic disaster. An interagency Working Group will be convened as 
necessary to address fund management issues and make recommendations on 
funding disaster recovery projects. Immediate needs would be pre-
identified by FEMA, with the understanding that certain donations may 
be directed to longer term disaster recovery.
    Recommendation 93. Public and Diplomatic Communications during 
domestic emergencies should both encourage cash donations--preferably 
to recognized nonprofit voluntary organizations with relevant 
experience--and emphasize that donations of equipment or personnel 
should address disaster needs.
    Status: Completed. As was done during Katrina, the State Department 
provides instructions to all U.S. diplomatic missions abroad advising 
them to encourage foreign entities wishing to assist to make cash 
donations directly to appropriate NGOs rather than the USG.
    Recommendation 94. The Department of State and the Department of 
Homeland Security should jointly develop procedures to ensure that the 
needs of foreign missions are included in domestic plans for tracking 
inquiries regarding persons who are unaccounted for in a disaster zone.
    Status: Completed. The Department of State has worked with DHS/FEMA 
and the ARC to ensure that, during a domestic disaster, the USG honors 
its international obligations under the Vienna Convention on Consular 
Relations. Although the USG is not required to track down and find 
missing foreign nationals during a disaster in the United States, under 
the Convention it is obligated to assist foreign missions in obtaining 
``appropriate consular access'' to their nationals.
    The Department of State's Office of Public Affairs has designated 
personnel to work with DHS/FEMA during domestic emergencies. These 
personnel will train with DHS/FEMA and will be part of FEMA's 
information operation from the outset of a major domestic crisis, in 
order to ensure efficient handling of queries from and consistent 
messaging to foreign missions and foreign media.
    The Department of State's Office of Foreign Missions and the ARC 
have discussed with foreign missions in Washington, DC how foreign 
missions can best utilize the ARC's missing persons' registry to locate 
missing foreign nationals in the United States.
    Recommendation 95. DHS and DOS should revise the NRP to include DOD 
and Department of Agriculture (USDA)-Food Safety Inspection Service as 
cooperating agencies to the International Coordination Support Annex. 
Including DOD more directly in foreign assistance management would 
leverage existing relationships with partner military establishments 
and help to ensure that staging areas for the acceptance of foreign aid 
are preplanned and quickly available.
    Status: Completed. The revised ICSA Annex to the NRP includes both 
DOD and USDA as cooperating agencies. Within the IAS, regulatory 
agencies such as the USDA provide technical advice and review offers of 
international assistance prior to FEMA acceptance.
    Recommendation 96. DHS should include DOS and foreign assistance 
management in domestic interagency training and exercise events. 
Inclusion in the new National Exercise Program (NEP) should occur 
before the end of fiscal year 2006.
    Status: We refer you to DHS regarding its training and exercise 
events. We understand DHS is developing an international assistance 
training module for use in future exercises. DHS can provide more 
detailed information.
    Recommendation 97. DHS should provide daily disaster response 
situational updates through the Secretary of State to all Chiefs of 
Mission or Charge d'Affaires. These updates should improve situational 
awareness and provide information to address host government concerns 
or questions.
    Status: DHS has assured State it will provide appropriate updates 
to inform U.S. Missions overseas and, by extension, foreign 
governments.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
    Question. The START Strategic Arms Reduction Treaty expires 
December 2009 but either side must notify the other one year in 
advance. The Russians have expressed an interest in beginning 
discussions, but the United States does not appear to be interested. 
When will the United States begin discussions on START I extension?
    The Moscow Treaty, even though it is a Treaty of no duration beyond 
the day in 2012 when it comes into force and expires, relies on the 
inspection provisions of START I. Unless START I is extended there is 
no transparency or semblance of verification under the Moscow Treaty.
    Would the administration support multiparty talks along the lines 
of those suggested by Senator Nunn, George Schultz, and Henry 
Kissinger, to substantially reduce total stockpiles of nuclear weapons?
    Why should other nations not be worried about the U.S. decision to 
pursue a Reliable Replacement Warhead? How is this program consistent 
with the U.S. obligations under Article VI of the NPT? (Article VI 
directs the nuclear weapons states to work toward the elimination of 
nuclear weapons)
    Answer. The START Treaty was valuable in a time when the United 
States and Russia had a relationship based on enmity and distrust. The 
Moscow Treaty took the first step in formalizing our new strategic 
relationship. As a result, by the end of 2012, both sides will have 
reduced their strategic nuclear warheads to no more than 1,700-2,200, 
the lowest levels in decades and less than one quarter of their cold 
war peak. In addition, the United States and Russia have both stated 
their intention to carry out strategic offensive reductions to the 
lowest level consistent with their national security requirements, 
including commitments to allies and friends.
    By its terms, the START Treaty is scheduled to expire in December 
2009. In anticipation of the expiration, the United States and Russia 
have begun to consider and discuss what type of arrangement will follow 
START. Both sides believe that it is important for a follow-on 
arrangement to provide predictability for the sides in strategic 
matters. We need to understand the trends and directions of each 
others' strategic nuclear forces. Neither side believes that extension 
of the START Treaty is the most effective way to achieve the 
predictability we seek, although both are drawing upon the START Treaty 
to find the best tools to either employ or modify for gaining the 
predictability our two nations seek.
    Former Under Secretary of State for Arms Control and International 
Security Affairs, Robert Joseph, met several times over the past year 
with his Russian counterpart, Deputy Foreign Minister Sergey Kislyak to 
explore a post-START arrangement. At their meeting on January 29 in 
Moscow, they agreed to hold experts talks to continue the exchanges on 
this subject.
    The first of these meetings was held in Berlin on March 28. The 
United States effort is led by Assistant Secretary of State for 
Verification, Compliance and Implementation, Paula DeSutter. The 
Russian effort is lead by Ministry of Foreign Affairs Director of 
Security and Disarmament Affairs, Anatoliy Antonov.
    The United States and Russia are now engaged in discussions aimed 
at developing transparency and other measures to provide continuity and 
predictability regarding strategic nuclear forces in a post-START 
arrangement, including exchanges of information, notifications, visits, 
and other mutually agreed measures.
    With respect to the Reliable Replacement Warhead (RRW), RRW will 
enable us to fulfill the President's goal of achieving a credible 
deterrent with the lowest possible number of nuclear warheads 
consistent with our national security needs, including our obligations 
to our allies. RRW is not a new military capability, but is a means to 
incorporate new technology for safety, security, and to ensure-long-
term reliability of the U.S. nuclear stockpile. RRW is fully consistent 
with our obligations under the Nuclear Nonproliferation treaty--
including Article VI--and would eventually enable further reductions in 
the stockpile. RRW will reduce the likelihood of the need to return to 
underground nuclear testing. It will also strengthen extended 
deterrence and our commitment to allies and friends.
    Question. In its fiscal year 2008 budget request, the 
administration breaks the parity between Armenia and Azerbaijan, in 
favor of Azerbaijan, in both Foreign Military Financing (FMF) and 
International Military Education and Training (IMET). What is the 
rationale for the divergence from military parity between Armenia and 
Azerbaijan?
    Would a break in military parity in Azerbaijan's favor undermine 
the Nagorno Karabakh peace process and negate the role of the United 
States as an impartial broker of peace?
    Answer. In light of the ongoing conflict over Nagorno-Karabakh, 
U.S. military assistance to both Azerbaijan and Armenia is carefully 
considered to ensure that it does not undermine or hamper ongoing 
efforts to negotiate a peaceful settlement between Armenia and 
Azerbaijan or be used for offensive purposes against Armenia. In fiscal 
year 2008, the administration looks forward to a robust program of 
military cooperation with both Azerbaijan and Armenia, based on 
activities tailored to U.S. interests and local capabilities in each 
country.
    Specific increases for Azerbaijan are linked to U.S. priorities in 
the war on terror, building Azerbaijan's peacekeeping capabilities, and 
enhancing Caspian maritime security. The administration believes that 
building the maritime capabilities of Caspian Sea countries including 
Azerbaijan is important to prevent the transit of dangerous materials, 
to deter and prevent terrorist activity, and to support the growing 
contribution of the Caspian basin to world energy supplies.
    We do not believe that the differences in security assistance in 
the fiscal year 2008 budget requests undermine prospects for peace or 
compromise our ability to serve in good faith as an impartial mediator 
for the Nagorno-Karabakh conflict. As a mediator, we consistently 
deliver the message to both sides that only a peaceful solution for the 
conflict is acceptable. We hope that the presidents of Armenia and 
Azerbaijan will endorse as soon as possible the set of Basic Principles 
for the peaceful settlement of the conflict that they have been 
negotiating for the past several months. It is longstanding U.S. policy 
that we support the territorial integrity of Azerbaijan and--through 
our role as one of the three OSCE Minsk Group Co-Chair countries, along 
with Russia and France--seek to help Armenia and Azerbaijan reach a 
peaceful negotiated settlement of the Nagorno-Karabakh conflict. A 
peaceful resolution of the conflict will increase regional security and 
allow for the opening of trade and communications links that will be 
important for the future prosperity of the South Caucasus region.
    Question. On what grounds has the administration sought a 
substantial reduction in economic assistance to Armenia?
    Does the Millennium Challenge Account continue to supplement and 
not replace traditional economic assistance to Armenia?
    Answer. The administration considers the totality of U.S. 
assistance resources available when formulating its bilateral budget 
requests. The fiscal year 2008 budget request for Armenia decreased by 
48 percent (over $35 million) from fiscal year 2006. This decline 
reflects in part reduced need as a result of Armenia's successful 
indicators and performance, particularly in promoting economic growth 
and addressing rural poverty, but also Armenia's 5-year, $236 million 
Millennium Challenge Corporation (MCC) Compact. If estimated MCC 
disbursements (over $60 million) for fiscal year 2008 are taken into 
account, the actual fiscal year 2008 funding level for Armenia 
increases by 34 percent to more than $98 million.
    Armenia's MCC Compact is focused on irrigation systems and rural 
road rehabilitation. While the country's recent economic growth and 
standard of living surpass most developing countries, the 
sustainability of this performance may be weakened by the government's 
inconsistent approach to implementing democratic reforms. In line with 
the MCC Compact signed in March 2006 and Armenia's good indicators and 
performance, we have shifted some investments from Economic Growth and 
Investing in People and increased our focus on Ruling Justly to promote 
the sustainability of reform.
    Existing development funding in the economic sector is therefore 
targeted to providing support for small- and medium-sized enterprise 
development, financial sector development, and regulatory reform to 
complement the MCC program and maximize its impact.
    Question. One of the most useful tools in Afghanistan and Iraq has 
been the ``Commanders Emergency Response Program'', or CERP funds, 
which gives military commanders unrestricted, undedicated funds to 
immediately address relief and reconstruction issues. I have heard 
during my visits that it would be very useful if the State Department 
has an equivalent program--that there is too much bureaucracy in State 
Department funding and the State Department has to go the DOD for 
needed funds. Is it true State personnel ask for CERP funds? Should the 
State Department institute a CERP-like program--particularly since 
State Department and USAID workers will be in Iraq and Afghanistan long 
after the military leaves?
    Answer. The Department of State and USAID coordinate with DOD at 
the Provincial Reconstruction Team (PRT) level on the use of Commanders 
Emergency Response Program (CERP) funds. Department of State and USAID 
foreign assistance currently incorporates a number of programs to 
expediently respond to local needs in places like Iraq and Afghanistan. 
In Iraq, these programs, coordinated through the Provincial 
Reconstruction Teams, include Provincial Reconstruction Development 
Councils (PRDC), the Community Action Program (CAP) and the Community 
Stabilization Program (CSP). In close coordination with Iraqi 
officials, the Provincial Reconstruction Development Councils (PRDCs) 
in all eighteen governorates in Iraq identify critical projects that 
fulfill immediate community needs and implement those programs. 
Coordinated project selection by the PRTs and PRDCs fosters consensus-
building among Iraqi officials, while helping to enhance the position 
of moderate officials and to isolate extremists. This program has 
already started to show impressive results and is accelerating with an 
additional $600 million appropriated in the fiscal year 2007 
supplemental.
    The PRDC program is complemented by two USAID programs, also 
coordinated through the PRTs, which reach out to neighborhoods and 
transform communities. USAID's CAP program establishes neighborhood 
councils to conduct small scale infrastructure projects and community 
revitalization. The CSP targets conflict-prone neighborhoods and works 
to revitalize the economy through job creation and infrastructure 
projects. CSP recently reached its target of establishing 40,000 jobs 
in Baghdad.
    While USAID and State do not have a precisely CERP-equivalent 
mechanism by which we can obligate funds without procurement and other 
restrictions, each of these is a flexible, quick response program that 
enables the U.S. Government to respond to relief and reconstruction 
needs in Iraq.
    We are eager, however, to continue to work with Congress to 
determine the most effective mechanisms to respond fully to relief and 
reconstruction needs worldwide. At present, we work to use existing 
authorities and funds to be as flexible and responsive as possible in 
states characterized by political, economic, and security instability.
    For example, we appreciate Congress' support for funding accounts 
like International Disaster and Famine Assistance (IDFA), Peacekeeping 
Operations (PKO), and Transition Initiatives (TI) that address urgent 
humanitarian and post-conflict needs. The President also requested 
funding in fiscal year 2008 within the PKO account to bolster flexible 
reconstruction and stabilization capability in places such as Lebanon 
and Sudan. In addition, as you are aware, the Department of State has 
created the Office of the Coordinator for Reconstruction and 
Stabilization, with the intent to foster rapid response capabilities 
and programming. We appreciate the Senate's support in its passage of 
$50 million in the fiscal year 2007 supplemental (contingent on 
specific authorization in a subsequent act of Congress) to support and 
maintain a Civilian Reserve Corps, whose expertise and rapid deployment 
will allow us to further ensure effective use of post-conflict 
assistance.
    Finally, the fiscal year 2008 budget request is built to support 
and implement stabilization strategies in such countries as Iraq, 
Afghanistan, Sudan, Liberia, and the Democratic Republic of the Congo. 
The request carefully considered the appropriate amount, account 
authorities, and purpose for the funds requested, such that 
stabilization strategies could be supported with the appropriate tools. 
Earmarks and account shifts limit our ability to effectively employ 
funds within current authorities to achieve success in difficult and 
rapidly transitioning environments. We appreciate Congress's 
consideration of these factors as you evaluate the fiscal year 2008 
request.
    Question. Report on the Need to Improve Interagency Support to 
National Security Efforts.
    Madam Secretary, section 1035 of the Fiscal Year 2007 National 
Defense Authorization bill directed the President to submit a report on 
improving interagency civil-military support for U.S. national security 
missions, including peace and stability operations. The report was due 
on April 1, but the Armed Services Committee has not received it. When 
will it be submitted? Tell us, please, why it has been delayed.
    Answer. The National Security Council tasked the Department of 
Defense with drafting the report called for in section 1035 of the 
Fiscal Year 2007 National Defense Authorization bill, in coordination 
with the State Department. Given the complexity and importance of the 
report's topic, Defense and State have worked closely together in its 
preparation. We regret the delay in its submission; the report is in 
the final stages of review and we anticipate that it will be 
transmitted to Congress shortly.
    Question. Madam Secretary, the Fiscal Year 2007 National Defense 
Authorization bill also directed the President--in section 1211--to 
appoint a senior coordinator for North Korea policy by December 16, 
2006. This is similar to action Congress took in 1998 when it directed 
President Clinton to review his North Korea policy and appoint a 
special coordinator. President Clinton appointed Former Secretary of 
Defense William J. Perry. Secretary Perry launched a comprehensive 
review, and established new unity among Republicans and Democrats and, 
the United States managed to keep most of North Korea's nuclear and 
missile activities frozen. I understand that last December diplomatic 
efforts--that led to the February 13 agreement--were ongoing. But since 
then, 3 months have gone by. This action is 5 months overdue, and our 
negotiations are stalled.
    Why have we had a 5-month delay, and when can we expect a 
coordinator to be appointed?
    Answer. As noted in your question, the Six-Party Talks have made 
progress--marked by the February 13 Initial Actions agreement to 
implement the September 2005 Joint Statement, the March 13-14 visit of 
IAEA Director General ElBaradei to North Korea and the March inaugural 
meetings of the Six-Party working groups. Assistant Secretary Hill and 
the interagency delegations supporting the Talks and its five 
constituent working groups continue to engage our Six-Party partners, 
as well as the IAEA, on the way forward on DPRK denuclearization. 
Interagency coordination and attention to North Korea issues also 
continues on a regular basis with the engagement of senior State 
Department officials.
    The 2007 National Defense Authorization Bill directed the President 
to appoint a senior coordinator for North Korea policy. The interagency 
is continuing to deliberate on this and will send its recommendation to 
the President shortly. The State Department will continue to 
concentrate its efforts on this important issue.
    Question. How does the U.S. position on Nagorno-Karabagh in the 
human rights report differ from the Azerbaijani position?
    Could you please explain the decision process behind crafting and 
introducing this new language?
    The State Department did post revised language on its website but 
then restored the original language a few days later. Can you please 
walk me through that process--who was involved in the initial revision, 
then the subsequent return to the original text, and the justifications 
they used to guide their actions?
    The press widely reported that the Azerbaijani government lodged 
protests with the administration on this issue--and even went to the 
extent of postponing a planned bilateral security meeting until the 
text of our human rights report was changed to its satisfaction. Is it 
the case that the Azerbaijani government has been in touch with the 
administration on this matter? If so, did the Azerbaijani government 
indicate that it would like to see the language changed in any way?
    In light of this recent controversy, I think it would be 
constructive for the Department of State to clearly articulate the role 
that the self-determination of the people of Nagorno Karabagh should 
play in the settlement of this conflict. Do you agree?
    Does the report's language describing Armenia as an occupier of
    Azerbaijani territory and Nagorno Karabagh reflect U.S. policy?
    Answer. Some mistakenly interpreted the language in the human 
rights report as a change in U.S. policy concerning the Nagorno-
Karabakh conflict. There has been no change in U.S. policy. The United 
States remains deeply committed to finding a peaceful settlement of the 
Nagorno-Karabakh conflict as an honest broker in the OSCE's Minsk Group 
process. As a result of the conflict over Nagorno-Karabakh, Armenian 
forces control most of that region, as well as large portions of 
surrounding territory. We support the territorial integrity of 
Azerbaijan and hold that the future status of Nagorno-Karabakh is a 
matter of negotiations between the parties.
    The language on Nagorno-Karabakh was intended only as a brief 
backdrop to the description of human rights issues as covered in depth 
by the country report. After the report was published a number of 
questions arose about the implications of the passage in question. We 
attempted to clarify the language. In so doing, however, we encountered 
additional questions over terminology, and realized that we had only 
added to the confusion by adding new language. We therefore restored 
the original language to that of the version submitted to Congress, 
while assuring both the Government of Armenia and the Government of 
Azerbaijan that our policy had not changed.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

    Question. A. Secretary Rice, how long is this war going to 
last, and how, specifically, are you measuring ``progress?'' 
What evidence can you give us that this time is different, and 
we are about to see progress in Iraq?
    B. Secretary Rice, can you explain to the Committee why a 
coordinator for Iraq policy--what has been dubbed a ``war 
czar'' by the media--is necessary? I thought, according to the 
Constitution, the President was the ``war czar.'' Who has been 
managing Iraq policy in the administration in the absence of 
this position? How do you foresee working with the new ``war 
czar,'' if one were to be appointed?
    Answer. A. We measure progress along three tracks--
security, political, and economic--and remain fully committed 
to helping the Iraqi Government meet ``benchmarks'' it has 
articulated. This includes passing key legislation, including a 
hydrocarbons law, De-Ba'thification reform, constitutional 
review, and provincial elections. The Iraqi Government 
understands the importance of meeting these benchmarks and is 
working towards that goal. We have already seen some progress, 
but much hard work is yet to be done. For example, Iraqi 
political leaders are actively negotiating a de-Ba'thification 
Reform Law and a hydrocarbon package of laws.
    B. As the White House has said, an Assistant to the 
President and Deputy National Security Advisor for Iraq and 
Afghanistan is necessary because the President's ``New Way 
Forward'' in Iraq requires greater coordination and involvement 
from across the Government. The individual named to fill this 
role will handle, full-time, the implementation and execution 
of our strategies for Iraq and Afghanistan, and will lead the 
policy development process for these two theaters. He or she 
will report directly to the President and, as an Assistant to 
the President, will work closely with National Security Advisor 
Steven Hadley, who provides overall leadership of the National 
Security Council staff. He or she will also be empowered by the 
President to request and receive information and assistance 
from the Federal Departments and Agencies, including the 
Department of State, needed to carry out the President's 
strategies. For our part, the Department of State will work 
closely with the new Deputy National Security Advisor for Iraq 
and Afghanistan to make sure he or she has the tools and 
information needed to carry out the duties of the position.
    Question. Secretary Rice, on April 30, 2003, the State 
Department reported that the number of international terrorist 
attacks worldwide decreased 44 percent and anti-U.S. terrorist 
attacks decreased 65 percent from the previous year. A year and 
a half after September 11, we were apparently doing some things 
right. Unfortunately, 4 years later, the picture is not so 
bright: the latest ``Country Report on Terrorism'' issued by 
the State Department on April 30, 2007, concluded that 
terrorist attacks in Iraq had increased 91 percent from 2005 to 
2006 and that 65 percent of global fatalities from terrorism 
occurred in Iraq during 2005-2006. In the words of the April 
2006 National Intelligence Estimate, Iraq has become ``the 
`cause celebre' for jihadists.'' Looking back, and based on 
those figures, would you argue that the Iraq war has been a 
positive development for U.S. national security interests?
    Answer. The war in Iraq resulted in the removal of a brutal 
dictator who terrorized his people, threatened the region and 
the international community, sanctioned the massacre of more 
than 300,000 Iraqis, and launched the invasion and occupation 
of Kuwait. The international community tried to counter the 
threat posed by Saddam Hussein by imposing sanctions on his 
regime. However, the sanctions did not have their intended 
affect, and Hussein continued his course unabated, which 
prompted the administration to pursue other avenues of action. 
On balance, U.S. national security interests have been strongly 
enhanced by the removal Saddam Hussein.
    We would advise against placing too much emphasis on any 
single set of incident data to gauge success or failure against 
the forces of terrorism. Tallying incident data necessarily 
involves relying exclusively on frequently incomplete and 
ambiguous information that is not derived from Federal 
Government collection programs created or operated specifically 
to obtain the data. Simply counting terrorist incidents 
provides an incomplete measure of our counter terrorism 
efforts; this does not account for the large number of 
terrorists arrested, plots disrupted, and potential recruits 
and sympathizers who are persuaded to reject the violent 
ideology and misinformation spread by terrorists.
    Clearly, Iraq has a significant terrorism challenge. A 
paramount strategic objective in Iraq and the region is 
preventing al-Qaida, its affiliates or other terrorists from 
establishing safe haven in al-Anbar or anywhere else in Iraq. 
Groups like al-Qaida in Iraq (AQI) and Ansar al-Sunna are 
attempting to drive the United States out of Iraq in order to 
establish a safe haven from which to train and plan attacks. 
Together with the Iraqi Government and our Coalition partners, 
we are destroying terrorist networks and helping the Iraqis 
secure their territory so al-Qaida cannot do in Iraq what they 
did in Afghanistan before the fall of the Taliban.
    Although Iraq is a proven ally in the War on Terror, Iraq's 
developing security and armed forces will require further 
training and resources before they can effectively address the 
terrorist groups already operating within their borders without 
international assistance. Iraq's intelligence services continue 
to improve in both competency and confidence but will require 
additional support before they can adequately identify and 
respond to internal and external terrorist threats. The 
international community's support is critical to ensure that 
the Government of Iraq's plans to reduce violence, improve 
services, and increase economic opportunities are successful.
    Prospects for increasing stability in Iraq will depend on: 
the extent to which the Iraqi government and political leaders 
can establish effective national institutions that transcend 
sectarian or ethnic interests and, within this context, the 
ability of the Iraqi Security Forces to pursue extremist 
elements of all kinds; the extent of international assistance 
to the Government of Iraq to do so; the extent to which 
extremists, most notably AQI, can be defeated in their attempt 
to foment inter-sectarian struggle between Shia and Sunnis; and 
the extent to which Iraq's neighbors, especially Iran and 
Syria, can be persuaded to stop the flow of militants and 
munitions across their borders.
    Question. Secretary Rice, we have received reports from 
former Ambassadors and Foreign Service Officers serving 
overseas that U.S. policy toward detainees--particularly in 
Guantanamo Bay--is impacting our diplomatic credibility and 
placing our personnel at risk. There is now a widespread belief 
in the rest of the world that the United States routinely 
tortures prisoners and denies them due process when it suits 
us. The global perception that this is our policy makes it more 
likely that our own citizens could face the same treatment if 
they are detained overseas. Would you agree that it is in our 
national security interests to reverse this perception? What 
steps would you take in order to do so?
    Answer. The administration is acutely aware of concerns 
that have been raised both at home and abroad about detentions 
of individuals at Guantanamo Bay. Our challenge has been to 
explain to the world that the United States and other nations 
around the world share a common problem in dealing with 
dangerous terrorists intent on harming our civilian 
populations, while at the same time being mindful of the need 
to operate lawfully and in a manner that preserves our 
commitment to principles of human rights and international 
humanitarian law.
    Unfortunately, the detention facility at Guantanamo Bay has 
become a lightning rod for international criticisms stemming 
from the misperception that detainees there are in a ``legal 
black hole.'' In fact, detainees at Guantanamo enjoy a robust 
set of procedural and treatment protections. All detainees at 
Guantanamo have received or will receive a Combatant Status 
Review Tribunal to confirm that they are properly detained as 
enemy combatants. Under the Detainee Treatment Act of 2005, 
detainees have the opportunity to challenge these status 
determinations in the U.S. Court of Appeals for the D.C. 
Circuit.
    In addition, the administration remains committed to trying 
by military commission those who have violated the laws of war 
or committed other serious offences under the Military 
Commissions Act of 2006 (MCA). After the Supreme Court in 
Hamdan v. Rumsfeld set aside the original system of military 
commissions, we worked with the Congress to create a new set of 
military commission procedures in the MCA that are fully 
consistent with U.S. law and Common Article 3 of the Geneva 
Conventions.
    The Detainee Treatment Act, the Department of Defense 
Detainee Directive, and the revised Army Field Manual on 
interrogation collectively provide detainees at Guantanamo a 
robust set of treatment protections that are fully consistent 
with, and in some respects exceed, our international 
obligations, including Common Article 3 of the Geneva 
Conventions. The success of these legal protections in creating 
an environment at Guantanamo that meets international standards 
is reflected in the reports of visitors to Guantanamo, such as 
the Special Representative of the OSCE Parliamentary Assembly 
President for Guantanamo, Belgian Senator Anne Marie Lizin and 
the U.K. House of Commons Foreign Affairs Committee. These 
groups have found that conditions there mirror, and in some 
respects improve upon, those of high security prisons in Europe 
and the United States, with no evidence of ongoing detainee 
abuse. Where allegations are made of detainee abuse, those 
allegations are investigated fully, and if true, those 
responsible are held accountable.
    Given the national security imperative to dispel these 
misimpressions, the Department has made dialogue with our 
allies on these difficult issues a priority. The Department has 
undertaken extensive bilateral and multilateral efforts to 
discuss with our international partners a common approach to 
legal issues arising out of asymmetric armed conflicts, such as 
the one we are now in with al-Qaida. In addition, we have made 
explanation of our detainee policy a cornerstone of our public 
diplomacy efforts through the use of media events, editorials, 
and outreach to academia and international opinion makers. The 
result of these efforts has been a growing international 
recognition that the threat posed by al Qaida does not neatly 
fit within existing legal frameworks, and that the need exists 
to work on common approaches to difficult international legal 
questions posed by this conflict.
    In the long run, the President has stated that he would 
like to move towards the day when we can eventually close the 
detention facility at Guantanamo Bay. We have worked hard with 
the Department of Defense to reduce the population of 
Guantanamo by more than half. Although our critics abroad and 
at home have called for Guantanamo to be shut immediately, they 
have not offered any credible alternatives for dealing with the 
dangerous individuals that are detained there. We are 
frequently unable to transfer or release approved detainees 
because of the human rights or security conditions in the 
detainees' home countries. And with few exceptions we have been 
unable to resettle these detainees in third countries because 
other nations are unwilling to accept them for resettlement. 
Moving forward, it is critical that the international community 
recognize, as the UK Foreign Affairs Committee recently did, 
that many of the detainees at Guantanamo pose a threat not just 
to the United States but to its allies, and that the longer-
term solution to Guantanamo, including resettlement of 
detainees who cannot be repatriated, is a responsibility shared 
between the United States and those allies.
    Question. Secretary Rice, I'm sure that you were as 
disgusted as I was to see in the latest SIGIR report that out 
of eight rebuilding projects in Iraq recently investigated, 
which cost approximately $150 million and were declared 
successes, seven are now in disrepair or have been abandoned. 
Seven out of eight projects that the U.S. taxpayer has built in 
Iraq are now falling apart. What are you doing to ensure this 
waste does not continue? Are you investigating other 
reconstruction projects that have been completed, to verify 
that they are still operational? Have any lessons been learned 
from the failure of these efforts?
    Answer. We share your concerns about operations and 
maintenance of our completed reconstruction projects in Iraq. 
Adequate operations and maintenance are essential to ensure 
that U.S. funded reconstruction projects are used to the 
maximum benefit of the Iraqi people. The Special Inspector 
General for Iraq Reconstruction (SIGIR), Stuart Bowen, has 
repeatedly acknowledged the progress that has been made in 
improving our management efforts and has stated that the 
majority of U.S. reconstruction programs have been completed on 
time and as planned.
    Initially, we anticipated that the Government of Iraq would 
assume responsibility for operations and maintenance of 
completed reconstruction projects. As SIGIR points out, 
however, there is a clear need for assistance in increasing the 
Iraqis' capacity to operate and maintain completed 
reconstruction projects. To address this need, we shifted the 
emphasis of our assistance programs away from large scale 
reconstruction projects toward capacity development programs. 
We programmed $285 million within the fiscal year 2006 
Supplemental Appropriations to contribute to the operations and 
maintenance of completed reconstruction projects and another 
$60 million for capacity development for Iraqi technicians and 
plant managers.
    We continue to work closely with SIGIR, the GAO, and our 
Inspector General to improve management and oversight of U.S. 
reconstruction projects in Iraq. We have benefited from SIGIR's 
recommendations on how we can better manage our reconstruction 
projects in Iraq.
    We are working closely with the Iraqi government to ensure 
that Iraq's own resources are used to provide essential 
services such as oil, water, and electricity for the Iraqi 
people. Despite repeated attacks, the Iraqis have been able to 
maintain key infrastructure facilities in extremely difficult 
circumstances. Our continued assistance will help Iraq improve 
the security, operation, and maintenance of these critical 
facilities.
                                ------                                

              Questions Submitted by Senator Sam Brownback
    Question. The State Department request for FMF to Ethiopia is only 
$850,000. In your estimation, does the Ethiopian Government have the 
resources it needs to continue fighting the war against the Islamic 
Courts and their allies in Somalia?
    Does the administration plan on increasing FMF for Ethiopia in the 
near future? If so, for what specifically will the money be used?
    Answer. Fiscal year 2008 funding request levels were determined in 
early 2006 before the Council of Islamic Courts in Somalia had begun to 
pose a threat to the Horn of Africa region. Ethiopia's ongoing 
intervention in Somalia to promote the Transitional Federal Government 
and to support the establishment of security and national 
reconciliation have significantly depleted its hard currency reserves 
and taxed its budget. The Ethiopian Government does not have sufficient 
resources to continue at its current pace indefinitely.
    In light of recent developments in the Horn of Africa region and 
Ethiopia's needs, the administration is reassessing assistance to 
Ethiopia.
    Questions. Recent news reports have indicated that the Iranian 
regime has targeted and harassed NGO's and human rights groups inside 
Iran in response to the announcement of the U.S. allocating $75 million 
for democracy programs in Iran. Are such reports credible, and if so, 
what kinds of steps are being taken to avoid doing harm to the very 
groups we are trying to empower?
    Where does the administration place the issue of the Iranian 
regime's human rights violations in the context of the regime's ongoing 
nuclear proliferation and state sponsorship of terrorism?
    Is there any downside to establishing a special envoy to coordinate 
human rights and democracy promotion for Iran along the lines of Sudan 
and North Korea?
    Answer. The Department of State's monitoring of Iranian regime's 
reaction to dissidents and activists indicates that the number of 
arrests has remained consistently high, with no noticeable increase 
following our announcement of the $75 million for democracy programs in 
Iran. We are sensitive to the fact that democracy and human rights 
advocates face risks in Iran. Recent criticism of the USG's Iran 
democracy programming activities has missed the mark; it is the actions 
of the Iranian regime that put its own people in danger, not USG 
support for freedom and personal liberty. We must be clear: the Iranian 
government, like other authoritarian and totalitarian regimes, views 
democracy and human rights activists as a threat. The Islamic Republic 
has little tolerance for those encouraging reform, irrespective of the 
origins of their funding. But that has never been a justification for 
us to stop supporting democratic actors around the world. Our 
programming remains important to encourage the development of personal 
liberty and freedom in Iran and we have safeguards to ensure the 
confidentiality of those with whom we work. We would be happy to 
discuss these safeguards with you.
    While the nuclear debate overshadows other categories of our Iran 
policy, we maintain a strong message on human rights, including not 
only the condemnation of random arrests and tyrannical actions, but 
also support for the universal rights of speech, assembly, press and 
religion--as a crucial element of the President's policy of support to 
the Iranian people.
    Undersecretary for Political Affairs Nick Burns coordinates the 
Department's Iran efforts, including human rights issues. We do not see 
the need for a separate human rights envoy. Human rights need to be 
advanced in the overall policies, which we are following. Since 
ultimately the Iranian people must determine their future, public 
outreach, support to Iranian civil society and people-to-people 
exchanges provide the United States the best opportunity for 
encouraging democratic reform in Iran.
    Question. What is the timeline for taking more coercive, bilateral 
and multilateral, action against the Sudanese Government if they don't 
accept U.N. peacekeeping troops and take real steps toward ending the 
genocide?
    Answer. The United States continues to engage with partners to 
press Sudan to fully cooperate in the peaceful resolution of the crisis 
in Darfur. We have repeatedly made clear to the Sudanese Government 
that all options remain on the table should Khartoum continue to defy 
the will of the international community.
    President Bush announced on April 18 the USG's intention to impose 
increased bilateral sanctions on Sudan and pursue additional 
multilateral sanctions through the United Nations if President Bashir 
does not take significant political, humanitarian and peacekeeping 
actions to improve the situation in Darfur. The USG agreed to allow 
United Nations Secretary-General Ban Ki-Moon more time to urge 
President Bashir to honor his commitments, but our patience is not 
open-ended. We continue to work towards concerted international 
pressure on Khartoum. This includes possible multilateral and bilateral 
sanctions.
    Question. What action are you, and the State Department as a whole, 
doing to engage China to play a more productive role in getting a 
robust peacekeeping force into Sudan and ending the genocide?
    Answer. One of the central objectives of our diplomatic engagement 
with China has been to persuade Beijing to assume responsibilities 
commensurate with its rising influence and stature. Nowhere is this 
more the case than on Darfur. China's leverage with Khartoum is not 
absolute, but there is much that China can do to persuade the 
Government of Sudan to accept the full deployment of the U.N./AU hybrid 
peacekeeping force under U.N. command structures, and to convince 
Khartoum to engage seriously in a peace process that involves all 
parties to the conflict. Special Envoy Natsios, Deputy Secretary 
Negroponte, and Assistant Secretary Frazer have all had serious, in-
depth discussions on Sudan with the Chinese, as have I.
    Let me be clear. China is not where we would like it to be on 
Darfur. The no-interest loan to build a palace in Khartoum that 
President Hu announced on his February visit to Khartoum is one 
example. We have also communicated our serious concerns to China that 
weapons sold to the government of Sudan have contributed to the 
violence in Darfur. At the same time, we do see movement in China's 
position and believe that Beijing has made a decision that it must join 
with the international community in insisting that the atrocities in 
Darfur must stop.
    For example, China's lead diplomat at the United Nations, Wang 
Guangya, helped broker the November agreement in Addis Ababa in which 
the Government of Sudan accepted, in principle, the three-phase 
deployment of the U.N./AU force. China's diplomacy was likely 
influential in convincing President Bashir to accept the 3,000-person 
``heavy support package'' (HSP) under phase two of the deployment. 
Perhaps most significantly, Beijing recently agreed to send a 275-
person engineering unit as part of the HSP. These are important steps, 
taken with our active diplomatic encouragement and support.
    President Bashir has reneged on a number of his commitments and 
continues to obstruct the full deployment of the U.N./AU force under 
phase three. While China's support for the preliminary deployments is 
welcome, the critical element, as you suggest, is the full deployment 
of the U.N./AU force under robust U.N. command structures. China has 
said publicly (and to us in private) that it supports this. We are 
committed to working with China and our other international partners to 
apply pressure on President Bashir to accept the full U.N./AU force 
unequivocally.
    Question. Are Baghdad's mixed neighborhoods still mixed, or are 
they continuing to become mostly Sunni and mostly Shi'a enclaves? What 
about other previously mixed areas of Iraq?
    Answer. Some mixed neighborhoods still remain in Baghdad, and, 
although demographic shifts in Baghdad's neighborhoods and throughout 
Iraq continue to occur as a result of sectarian violence, such shifts 
have been slowed (and in some areas halted) by Operation Fardh al-
Qanoon (Baghdad Security Plan). Older neighborhoods in Baghdad, which 
have been historically mixed for generations, are feeling pressures 
from rival terrorist, insurgent, and militia groups who are trying to 
win territory in these old neighborhoods, but we are working with the 
Iraqis to try to overcome these sectarian problems.
    Question. What is the strategy to diffuse tensions between the 
Iraqi Kurds and Turkey? Are you getting sufficient cooperation from the 
Iraqi Kurds on fighting the PKK terrorists based in the Kurdish region?
    Answer. We are engaged in intense diplomatic efforts to prevent an 
escalation in tension between Turkey and Iraq. Our efforts are led by 
General Joseph Ralston, the Secretary of State's Special Envoy for 
Countering the PKK. The General continues to work closely with his 
Turkish and Iraqi counterparts, as well as officials of the Kurdistan 
Regional Government, on this issue. His conversations have focused on 
building confidence between Turkey and Iraq and obtaining cooperation 
to fight against the terrorist Kurdistan Workers Party (PKK), which is 
using Northern Iraq as a base of operations for attacks against Turkey. 
Iraq and Turkey share a long border and have many common problems--
including ending PKK terror attacks in Turkey--and interests; we are 
hopeful that leading figures in both countries will focus on solving 
problems and advancing mutual interests rather than exploiting 
differences.
    Question. After receiving reports that USAID was supporting 
programs in occupied Cyprus without consultation with the Government of 
the Republic of Cyprus, the Senate Appropriations Committee included in 
its fiscal year 2006 Report the following: ``The Committee is concerned 
that funds made available for bi-communal projects on Cyprus have been 
obligated without appropriate notification and participation of the 
Government of Cyprus. The Committee believes that if such funds are to 
improve the prospect for peaceful reunification of the island, they 
must be allocated transparently and in full consultation with the 
[Government of Cyprus] and other interested parties.''
    How does USAID engage and consult with the Government of the 
Republic of Cyprus as Congress directed in the 2006 appropriation? What 
has USAID done to address the concerns expressed by Congress?
    Since 1993, Congress has imposed a statutory restriction on the use 
of ESF monies: ``to be used only for scholarships, administrative 
support of the scholarship program, bi-communal projects, and measures 
aimed at reunification of the island and designed to reduce tensions 
and promote peace and cooperation between the two communities on 
Cyprus.'' Has USAID or the State Department used funds outside of ESF 
for programs on Cyprus, thus avoiding Congress's statutory restriction?
    Answer. The United States is committed to consultation and 
transparency with ``the Government of Cyprus and other interested 
parties'' on the U.S. foreign assistance program for Cyprus, consistent 
with the fiscal year 2006 Senate Appropriations Committee report. 
Embassy Nicosia has made it a priority to increase the frequency and 
breadth of consultations since 2005. The Ambassador, Public Affairs 
Officer and USAID Representative in Nicosia have had numerous meetings 
with Cypriot Government officials to discuss U.S. foreign assistance in 
Cyprus. USAID has also regularly provided the Government of Cyprus with 
written information on existing and planned activities, and we have 
taken into account in our programs both U.S. policy and concerns 
expressed by Cypriot officials. For example, we have been careful to 
avoid any implication of recognition of Turkish Cypriot authorities, 
and we have chosen locations for our programs, including for contractor 
offices, to ensure that they do not raise any questions of property 
claims.
    We support and consistently offer the Government of Cyprus 
consultations on our assistance programs, although the government has 
not always accepted our offers. Obtaining government approval for each 
project, however, would effectively cede decision-making authority to 
the Government of Cyprus and in so doing would nullify the basic 
premise of over 30 years of bi-communal programming. This would 
jeopardize the Turkish Cypriots' pro-solution leadership and discourage 
Turkish Cypriots from participating in our programs. Although we 
welcome consultations with the Government of Cyprus, the U.S. 
Government maintains full authority over and accountability for U.S. 
assistance programs in Cyprus to ensure that they remain consistent 
with U.S. law and U.S. Government policy in support of the 
reunification of Cyprus as a bi-zonal, bi-communal federation.
    USAID conducts its activities in Cyprus in a manner consistent with 
Congressional concerns and statutes. USAID programs in Cyprus are 
conducted exclusively through use of Economic Support Funds (ESF) and 
for the purposes outlined in the Congressional statutory restriction. 
The U.S. Embassy uses ESF as well as funds from the Department of 
State's International Information Program Office, the Education and 
Cultural Affairs Office, and the European and Eurasian Affairs Press 
and Public Diplomacy Office, for cultural and bi-communal programs in 
Cyprus, including Fulbright Scholarships. In addition, the Embassy uses 
Export and Border Security funds to help establish fully effective 
export controls and nonproliferation investigations and prosecutions in 
Cyprus. We use all of these funds transparently, and offer to the 
Government of Cyprus consultations on the use of these funds. Use of 
ESF funds in Cyprus complies fully with the 1993 restriction; non-ESF 
funds are expended in a manner fully consistent with the objectives of 
that restriction.
    Question. There have been several instances recently of Eastern 
European governments allowing excavation of and construction on 
historic Jewish cemeteries. This has taken place in Grodno, Belarus; 
Vilna, Lithuania (Snipiskes Jewish cemetery); Pilsen, Czech Republic; 
and Thessalonika, Greece.
    It has come to my attention that in some countries--particularly 
Lithuania--the U.S. embassy staff has assisted in the protection of 
Jewish cemeteries, while in other countries the U.S. mission has not 
gotten involved. Does the administration have a comprehensive plan to 
address the desecration of Jewish cemeteries abroad? What is being done 
to ensure that this issue is consistently on the agenda of U.S. 
Missions in Europe?
    Is the U.S. Mission to the European Union involved in this issue, 
and if so, how?
    Answer. The Department and our Embassies have been very much 
involved in the effort to protect historic Jewish cemeteries in Europe. 
Belarus, the Czech Republic, Greece, Ukraine and Lithuania have been 
particular areas of focus. Our Embassies have approached national, 
provincial and municipal governments, and have worked with the 
indigenous Jewish communities and with organizations that have cemetery 
protection as one of their goals.
    In addition, the Commission for the Protection of America's 
Heritage Abroad has also been helpful with threatened cemeteries. The 
Department and U.S. embassies have worked closely with the Commission 
to protect and preserve cemeteries by assisting in the negotiation of 
bilateral agreements and through joint efforts to prevent intrusions 
into burial places.
    The circumstances in each of these cases have differed, but our 
approach and commitment have been the same: the United States takes 
these issues seriously and works with interested parties to achieve a 
solution.
    The issue is essentially local in nature. Municipal planning, 
zoning, cultural, and building authorities frequently have primary 
jurisdiction. Our role has been to bring municipal and national 
authorities together with religious organizations and NGOs to seek a 
settlement that respects the interests of all concerned. In several 
cases, our Ambassadors have been directly involved in these efforts.
    Several years ago our Embassy in Prague brokered an agreement 
involving the construction of a building on a cemetery site in that 
city. More recently Embassies Prague and Minsk have been involved with 
similar situations in Pilzen and Grodno, respectively. Our Embassy in 
Vilnius has been particularly active in an effort to protect the 
Snipiskes cemetery. The cemetery issue in Greece goes back many years, 
although there have been no recent developments. There has been no 
occasion for the U.S. Mission to the European Union to be involved.
    As demonstrated above, the Department takes the issue of cemetery 
desecration extremely seriously. The Department's annual International 
Religious Freedom Report covers cemetery desecration in considerable 
detail.
    Question. On February 24, 2005 I joined all 99 of my Senate 
colleagues in signing an appeal to President Putin to return the sacred 
Schneerson Collection to its rightful owners, Agudas Chasidei Chabad of 
the United States. During the Helsinki Committee's hearings on the 
plight of these Jewish texts on April 6, 2005, I had the opportunity to 
meet with elderly survivors of Soviet and Nazi persecution who 
struggled and sacrificed to protect these holy writings and the ideals 
they represent.
    As you may recall, the case of the Schneerson Collection was raised 
with you at your Senate confirmation hearings, and I certainly 
appreciate the efforts that you and President Bush have made to 
encourage Russia to finally restore Chabad's spiritual legacy. Could 
you please provide an update on the administration's recent efforts to 
free the Schneerson Collection?
    Do you plan to raise the issue of the Schneerson Collection with 
appropriate Russian officials during your visit? Will the 
administration continue to press Moscow on this important issue?
    Answer. Shortly after the April 2005 hearing, the administration 
made a high level effort to convince the Russian Federation to transfer 
the Schneerson collection to Brooklyn. The result was a carefully 
worded but firmly negative response.
    During his visit to Russia last month, Special Envoy to Monitor and 
Combat Anti-Semitism Gregg Rickman requested that the Russian 
Government transfer the collection. The Russian authorities declined 
this request as well.
    I, and other State Department officials, will continue to raise 
this subject with Russian officials as opportunities arise.
    Question. It has come to my attention that Al-Hurra, the 
Congressionally-funded commercial-free Arabic language satellite 
television network for the Middle East, has broadcasted a number of 
problematic and inappropriate programs since its new director, Mr. 
Larry Register, assumed leadership of the station last November. 
Specifically, on December, 7, 2006, Al-Hurra broadcasted live a full 
speech given by Sheikh Hassan Nasrallah, the leader of the terrorist 
group Hezbollah. Also aired that month was coverage of the now infamous 
Holocaust denial conference in Iran, with follow-up remarks by the 
tiny, fiercely anti-Zionist Jewish group Neturei Karta, which sent 
representatives to the conference.
    During a State Department press conference on May 9, 2007, 
spokesman Sean McCormack said that Secretary Rice and the 
administration believe that Mr. Register is, ``actually doing a pretty 
good job, a very good job.''
    Does the administration still stand by this assessment of Mr. 
Register's leadership of Al-Hurra? What specific steps are being taken 
to prevent Al-Hurra in the future from serving as a platform for 
terrorists and Holocaust-deniers?
    Answer. The Broadcasting Board of Governors and the management at 
Alhurra have repeatedly and clearly acknowledged that the incidents you 
have noted were mistakes and not in line with the Middle East 
Broadcasting Network's (MBN) own editorial policies.
    To deal with this problem, MBN has re-issued its editorial policy, 
strengthened editorial controls, and provided more and better training 
to its journalists.
    At the same time, MBN has substantially increased its coverage of 
events related to U.S. foreign policy, American society and values, and 
the network is broadcasting a number of innovative programs to serve as 
a platform for dialogue between and among Americans and Arab publics, a 
niche that is nowhere else to be found on Arab television. Alhurra has 
also taken on the task of promoting democracy with its audiences; it 
did an outstanding job of covering recent elections in Mauritania and 
Egypt, and it recently added a second congressional correspondent to 
cover the policy debates occurring in our own national legislature. 
Increasingly we hear from contacts in the Arab world and elsewhere that 
this kind of coverage resonates with Alhurra's audiences and as a 
result it is gaining traction and broadening its reach.
                                 ______
                                 
             Question Submitted by Senator Lamar Alexander
    Question. The Senate Committee report language from fiscal year 
2006 State and Foreign Operations Appropriations bill stated, ``The 
Committee directs USAID to provide $10 million to support the programs 
and activities of the Financial Services Volunteer Corps (FSVC), a 
moderate increase over prior year funding levels.'' Yet, FSVC only 
received $4.3 million in fiscal year 2006, down from $7.2 million in 
fiscal year 2005 and $8.1 million in fiscal year 2004. The mission of 
the FSVC is consistent with U.S. foreign policy objectives to 
strengthen market economies and promote democracy, and it relies on 
highly qualified volunteers from the U.S. financial sector to 
accomplish its objectives.
    What is your opinion of the Financial Services Volunteer Corps? If 
it enhances our foreign policy objectives, is there a reason why its 
funding has been reduced by almost 50 percent since fiscal year 2004--
and is less than half of what was called for in the fiscal year 2006 
Committee report? Does USAID intend to increase FSVC funding in the 
future?
    Answer. Current USAID records indicate that new obligations to FSVC 
were $9,555,782 from fiscal year 2006 funds, $2,427,222 from fiscal 
year 2005 and $5,208,219 from fiscal year 2004.
    FSVC was created specifically to deal with the transition of 
Eastern European and former Soviet Union countries from communism to 
market economies and has played an important part in this process. 
These programs are winding down, most rapidly in the economic area. 
Russia, for example, is slated to have no programs at all in the 
economic growth area by 2008.
    In addition to the reduced demand for the kinds of sophisticated 
financial services offered by FSVC, there is an increased supply in the 
form of additional organizations like the International Executive 
Service Corps that have expanded to provide such services. This may 
result in more competition for funding.

                         CONCLUSION OF HEARINGS

    Senator Leahy. Thank you all very much for being here. That 
concludes our hearings.
    [Whereupon, at 11:59 a.m., Thursday, May 10, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
